<html>
<title> - FOREIGN RELATIONS AUTHORIZATION ACT, FISCAL YEARS 2010 AND 2011 AND PAKISTAN ENDURING ASSISTANCE AND COOPERATION ENHANCEMENT ACT OF 2009</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                  FOREIGN RELATIONS AUTHORIZATION ACT,
                     FISCAL YEARS 2010 AND 2011 AND
                    PAKISTAN ENDURING ASSISTANCE AND
                  COOPERATION ENHANCEMENT ACT OF 2009

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                        H.R. 2410 and H.R. 1886

                               __________

                              MAY 20, 2009

                               __________

                           Serial No. 111-36

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
49-842                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4720372807243234332f222b376924282a69">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
LYNN WOOLSEY, California<greek-l>As  TED POE, Texas
    of 3/12/09 deg.                  BOB INGLIS, South Carolina
SHEILA JACKSON LEE, Texas            GUS BILIRAKIS, Florida
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                   David S. Abramowitz, Chief Counsel
         Laura Rush, Professional Staff Member/Security Officer
        Genell Brown, Senior Staff Associate/Hearing Coordinator


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 2410, To authorize appropriations for the Department of 
  State and the Peace Corps for fiscal years 2010 and 2011, to 
  modernize the Foreign Service, and for other purposes..........     2
  Amendment to H.R. 2410 offered by the Honorable Howard L. 
    Berman, a Representative in Congress from the State of 
    California, and Chairman, Committee on Foreign Affairs.......   325
  Amendment in the nature of a substitute to H.R. 2410 offered by 
    the Honorable Ileana Ros-Lehtinen, a Representative in 
    Congress from the State of Florida...........................   371
  Amendment to H.R. 2410 offered by the Honorable Sheila Jackson 
    Lee, a Representative in Congress from the State of Texas....   706
  Amendment to H.R. 2410 offered by the Honorable Dan Burton, a 
    Representative in Congress from the State of Indiana.........   713
  Substitute amendment to H.R. 2410 offered by the Honorable 
    Howard L. Berman to the amendment offered by the Honorable 
    Dan Burton...................................................   717
  Amendment to H.R. 2410 offered by the Honorable Joe Wilson, a 
    Representative in Congress from the State of South Carolina..   720
  Amendment to H.R. 2410 offered by the Honorable Jeff Flake, a 
    Representative in Congress from the State of Arizona.........   722
  Amendment to H.R. 2410 offered by the Honorable Christopher H. 
    Smith, a Representative in Congress from the State of New 
    Jersey.......................................................   725
  Amendment offered by the Honorable Bob Inglis, a Representative 
    in Congress from the State of South Carolina, to the 
    amendment offered by the Honorable Christopher H. Smith......   733
  Amendment to H.R. 2410 offered by the Honorable Edward R. 
    Royce, a Representative in Congress from the State of 
    California...................................................   740
  Amendment to H.R. 2410 offered by the Honorable Elton Gallegly, 
    a Representative in Congress from the State of California....   748
  Amendment to H.R. 2410 offered by the Honorable Mike Pence, a 
    Representative in Congress from the State of Indiana.........   750
  Amendment to H.R. 2410 offered by the Honorable Donald A. 
    Manzullo, a Representative in Congress from the State of 
    Illinois.....................................................   756
  Amendment to H.R. 2410 offered by the Honorable Connie Mack, a 
    Representative in Congress from the State of Florida.........   762
  En bloc amendment offered by the Honorable Connie Mack and the 
    Honorable Jeff Fortenberry, a Representative in Congress from 
    the State of Nebraska........................................   771
  Amendment to H.R. 2410 offered by the Honorable Jeff 
    Fortenberry..................................................   780
H.R. 1886, To authorize democratic, economic, and social 
  development assistance for Pakistan, to authorize security 
  assistance for Pakistan, and for other purposes................   783
  Amendment in the nature of a substitute to H.R. 1886 offered by 
    the Honorable Howard L. Berman...............................   842
  Amendment in the nature of a substitute to H.R. 1886 offered by 
    the Honorable Ileana Ros-Lehtinen............................   908
  Amendment to H.R. 1886 offered by the Honorable Michael T. 
    McCaul, a Representative in Congress from the State of Texas.   917

                                APPENDIX

Markup notice....................................................   928
Markup minutes...................................................   929
Foreign Affairs Committee Markup Summary.........................   931
The Honorable Howard L. Berman:
  Prepared statement on H.R. 2410................................   932
  Prepared statement on H.R. 1886................................   934
The Honorable Diane E. Watson, a Representative in Congress from 
  the State of California: CRS Report............................   936
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa:
  Letter from the Embassy of Vietnam.............................   937
  Material from the Department of State..........................   938
  Statement regarding the Royce Amendment which calls for the 
    U.S. State Department to list Vietnam as a ``Country of 
    Particular Concern''.........................................   942
  Prepared statement on H.R. 2410................................   944
The Honorable Michael E. McMahon, a Representative in Congress 
  from the State of New York:
  Statement on Jerusalem Waiver..................................   945
  Statement on Section 333.......................................   946
  Statement on Cyprus Amendment..................................   947
  Prepared statement on H.R. 2410 and H.R. 1886..................   948
The Honorable Sheila Jackson Lee:
  Prepared statement on H.R. 2410................................   950
  Prepared statements on H.R. 1886...............................   952


  FOREIGN RELATIONS AUTHORIZATION ACT, FISCAL YEARS 2010 AND 2011 AND 
  PAKISTAN ENDURING ASSISTANCE AND COOPERATION ENHANCEMENT ACT OF 2009

                              ----------                              


                        WEDNESDAY, MAY 20, 2009

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:16 a.m. in 
room 2172, Rayburn House Office Building, Hon. Howard L. Berman 
(chairman of the committee) presiding.
    Chairman Berman. The meeting of the Foreign Affairs 
Committee will come to order.
    Pursuant to notice, I call up the bill, H.R. 2410, the 
Foreign Relations Authorization Act for Fiscal Years 2010 and 
2011. Without objection, the bill will be considered as read 
and shall be open to amendment at any point.
    [H.R. 2410 follows:]<greek-l>H.R. 2410 deg.
      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. In a moment, I will yield myself 5 minutes 
to explain the bill--5 minutes, 310 pages--I will try to do 
that and then recognize the ranking member for 5 minutes to 
allow her to provide her views on the legislation.
    If a member wishes to make a general statement on the bill, 
they may do so by asking to strike the last word once the bill 
is being considered for amendment.
    Given the conflicting responsibilities of many members of 
the committee, I want to notify members that, without 
objection, I may recess the committee from time to time. In 
addition, I reserve the right to exercise the chair's 
prerogative, under Rule IV of the Committee Rules, to postpone 
votes for the convenience of the members. I will give members 
as much notice as I can on when such postponed votes will 
occur.
    I now yield myself 5 minutes to explain the legislation.
    H.R. 2410 authorizes funding for Fiscal Years 2010 and 2011 
for the Department of State, the Peace Corps, U.S. 
international broadcasting activities, and other foreign 
affairs programs. This legislation continues efforts by this 
committee to strengthen U.S. foreign policy agencies to promote 
American national security interests and better serve U.S. 
citizens.
    For far too long, we have failed to provide the State 
Department with the resources it needs to fill critical 
overseas posts, provide adequate training, and ensure effective 
oversight of the programs that it manages. With the expansion 
of the United States diplomatic responsibilities in the 1990s 
and the more recent demands of Iraq and Afghanistan, the 
Foreign Service has been strained to the breaking point.
    Sixteen percent of all positions are currently unfilled. 
One in nine positions overseas is vacant.
    H.R. 2410 builds on the process begun in the current fiscal 
year to help rebuild the capacity of the State Department. 
Specifically, our legislation supports the President's request 
for funding to hire over 1,000 new staff, including at least 
750 Foreign Service Officers. Three hundred and thirty-two of 
these positions will be used to immediately expand our 
diplomatic presence in Afghanistan, Pakistan, and other 
strategic areas.
    A further 213 positions will be dedicated to improving and 
expanding training in critical-needs languages<greek-l>, deg. 
such as Arabic, Chinese, Hindi, and Urdu.
    The bill also provides resources for significant numbers of 
new public diplomacy officers, arms control experts, and 
counterterrorism specialists.
    In addition, H.R. 2410 reforms the Foreign Service Act to 
accelerate the transition of the diplomatic corps from its 
traditional diplomatic framework to a more expeditionary 
mission to meet the new challenges facing our Nation.
    Finally, to help ensure that the State Department can 
continue to attract the best and brightest to its ranks--and 
retain those professionals over the long term--our legislation 
closes the ``pay gap'' that currently results in a 21 percent 
pay cut when junior Foreign Service Officers leave Washington, 
DC, for overseas assignments.
    Hiring and training a large number of new Foreign Service 
Officers to advance our national security interests overseas 
does not come cheap.
    But investing resources now to help prevent conflict and 
failed states is a much more cost-effective method than 
providing massive amounts of humanitarian relief, funding 
peacekeeping operations, or, in the most extreme circumstances, 
putting U.S. boots on the ground.
    H.R. 2410 also authorizes funds to pay our full dues and 
all recognized arrearages to the United Nations. The U.N. 
system is very far from perfect, and it certainly does not live 
up to our expectations on a number of occasions. 
But<greek-l>, deg. on a wide range of issues with implications 
for United States national security--from Iran's nuclear 
weapons program, to North Korea, to climate change--we need the 
close cooperation of the international community. And 
experience has shown that withholding U.S. dues to leverage 
change at the U.N. simply does not work--we are much more 
likely to get the reforms we want through active engagement.
    H.R. 2410 also supports a significant expansion of the 
Peace Corps, a vigorous<greek-l>, deg. public diplomacy effort, 
an<greek-l>d deg. increase<greek-l>ing deg. in international 
broadcasting activities, and a strengthened Arms Control and 
Nonproliferation Bureau at the State Department.
    In addition, the legislation creates a new foundation to 
help U.S. students study abroad, enhances United States efforts 
to help Mexico and other Latin American countries to reduce the 
drug violence, and addresses a number of key human rights and 
democracy issues around the world.
    Finally, H.R. 2410 reforms our system of export controls 
for military technology, improves oversight of U.S. security 
assistance, and requires a report to the Congress on actions 
taken by the United States to maintain Israel's qualitative 
military edge.
    I think it is an excellent piece of legislation--I guess I 
would--but I want to thank all of the members, really, from 
both sides of the aisle who have contributed to its creation. 
Many of your thoughtful ideas are included in this text, and 
they have made the bill much better.
    I urge all of my colleagues to support this legislation, 
and I now yield to the ranking member to explain her views on 
H.R. 2410.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, and I am 
gratified that our committee is exerting our jurisdiction and 
our authority over State Department budgeting and programs 
through a markup of this foreign affairs authorization bill 
this morning.
    I shared the chairman's initial hope that we would be able 
to move a bipartisan bill forward together in this Congress. We 
provided views on the majority's proposals, and we were able to 
reach agreement or acceptance on some of these issues.
    I am also pleased to see the addition, in the chairman's 
manager's amendment, of reporting language calling for an 
assessment on the return of U.S. personnel to Gaza and vetting 
capabilities. I hope that the addition of this language is an 
indication of the chairman's willingness to consider our 
partner vetting systems bill at a future markup. This partner 
vetting systems bill, as the chairman knows, seeks to prevent 
U.S. taxpayer funds from falling into the hands of Palestinian 
terrorists.
    Despite some areas of agreement, the hopes of adopting a 
bipartisan State Department authorization bill were dashed when 
policy provisions were included in the majority text that are 
poison pills, as they seek to promote or advance a social 
agenda overseas on issues that either remain unresolved here in 
the United States or that we fundamentally disagree as a matter 
of conscience.
    The majority bill also includes funding levels that appear 
to ignore the economic reality that our Nation is currently 
facing. These significant funding increases in the majority 
bill do not appear to be linked to any specific criteria 
premised on any certain rational, nor do they appear to be the 
result of any sort of review of evaluation or budget 
justification from the Department of State.
    I appreciated the statements made by Secretary Clinton when 
she appeared before our committee several weeks ago, and she 
said, and I quote, ``I have challenged the Department to reform 
and innovate and save taxpayer dollars,'' but the majority's 
bill preempts the State Department's ongoing review by 
providing massive funding increases before any recommendation, 
before any changes, before any reforms are announced.
    Without justification, the majority bill also represents an 
explosion of the bureaucracy, containing 48 new reporting 
requirements and creating 20 new government entities, offices, 
foundations, programs, and the like.
    For these and many other reasons, we will be offering a 
Republican amendment in the nature of a substitute when the 
chairman's State Department Authorization bill is open to 
amendments that will expand on many of these concerns that I 
have just cited here. Thank you, Mr. Chairman, for your time.
    Chairman Berman. I have an amendment at the desk, and I 
recognize myself. I have an amendment at the desk and ask for 
its immediate consideration.
    Without objection, the amendments will be considered en 
bloc, and the clerk will report.
    Ms. Jackson Lee. Mr. Chairman, there were opening 
statements.
    Chairman Berman. Let me get this amendment in, and then we 
will recognize people based on moving to strike the last word. 
That is what I announced at the beginning of the hearing, if 
that is all right.
    [The amendment of Chairman Berman 
follows:]<greek-l>Amendment H.R. 2410--Berman deg.
      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Jackson Lee. That is certainly all right. Thank you, 
Mr. Chairman.
    Chairman Berman. The clerk will report.
    Ms. Rush. Amendment to H.R. 2410 offered by Mr. Berman of 
California. ``Page 9''----
    Chairman Berman. Without objection, the amendment will be 
considered as read, and I recognize myself for 5 minutes to 
explain the amendment.
    This en bloc, or manager's, amendment makes a number of 
minor technical and conforming amendments to various provisions 
of the bill.
    In addition, it adds a new Subtitle E to Title 2 to 
strengthen arms control and nonproliferation activities at the 
Department of State. Specifically, this provision provides for 
additional new positions in the Arms Control and 
Nonproliferation Bureau, makes it easier for the Department to 
hire experts, adds an arms control and nonproliferation 
rotation program and scholarship programs to enhance the 
Department's capacity, and provides for a Science Advisory 
Committee to help the Department develop a science-based 
approach to these issues.
    I believe these provisions will go a long way to rebuild 
the capacity of the Department to conduct arms control 
negotiations at a time when these issues are high on the 
President's agenda.
    The manager's amendment also increases the authorization 
for the Peace Corps above the level in the base text, which 
will allow the agency to place more volunteers in developing 
countries around the world.
    In addition, the amendment includes two new provisions, one 
from the majority on Gilad Shalit and one from the minority on 
Haiti, and makes changes to a number of others--at the request 
of our Republican colleagues--including, I might add, a few 
reporting requirements.
    Finally, I want to note that our base bill would have 
provided certain benefits to the committed, same-sex partners 
of Foreign Service Officers, including access to embassy 
medical services, transportation to and from posts, and 
training and recognizing potential terrorist threats.
    It is my expectation, based on very recent conversations, 
that the Secretary of State will move forward with implementing 
all of the benefits provided in that provision in the very near 
future, and, based on that expectation, I have agreed to remove 
this provision from our legislation.
    I am deeply committed to this issue and would not casually 
strike a provision on my own amendment if I did not feel 
confident that this would be taken care of by the 
administration. And I would like to say, parenthetically, that 
I am very pleased today that we have with us Ambassador Michael 
Guest, a Foreign Service Officer and our former Ambassador to 
Romania, who, for 26 years, served our country with distinction 
and who, sadly, was forced to leave the Foreign Service when he 
could no longer accept the second-class status accorded his 
lifetime partner.
    I am saddened that the administrative changes needed to 
provide the life partners of Foreign Service Officers serving 
abroad with critical benefits, such as security training, 
emergency evacuation, and access to embassy medical services, 
came too late for Ambassador Guest and his partner, but I am 
heartened that soon no more of our best and brightest will be 
forced to choose between family and country.
    I urge all of my colleagues to support the amendment, and 
Ambassador Guest is in the audience there.
    Does anyone wish to be heard on the amendment? I recognize 
the ranking member for 5 minutes.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman, and I do 
appreciate the hard work that you and your staff have put into 
this en bloc manager's amendment. It makes certain edits and 
technical changes to the underlying text in order to make 
corrections to clarify your policy intent and to reflect the 
substance of your discussions with other committees, such as 
Judiciary and Armed Services, who share jurisdiction over 
portions of this bill.
    While I do not have specific problems with those aspects, I 
will, respectfully, oppose adoption of the manager's amendment 
because it would have the effect of further increasing the 
already prohibitive cost of this legislation and would also 
perfect some particular items that I cannot support.
    As I previously stated, we will present our Republican 
amendment at the proper time this morning.
    The majority's bill contains contradictory provisions in 
the sections regarding the Department of State's 
nonproliferation and arms control bureaucracy. On one hand, it 
asks the Department of State to develop a comprehensive plan to 
determine what the State Department actually needs, in terms of 
personnel, additional authorities, new appropriations, and so 
forth, in order to carry out its arms control and 
nonproliferation activities, yet before that plan has even 
begun, the bill removes the statutory requirement for the 
Assistant Secretary for verification and arms control, it 
authorizes $3 million for 25 new positions focused on arms 
control, and mandates other programs and activities.
    Instead of attempting to reshape the State Department 
before the requested plan has even begun, it makes much more 
sense to wait and see what the Secretary of State says that she 
actually needs before we tell her what she needs.
    As I said, we will present our Republican amendment at the 
proper time, and I urge my colleagues to oppose the manager's 
amendment.
    Chairman Berman. The time of the gentlelady has expired.
    Are there people who wish to strike the last word for 
purposes of opening statements? The gentleman from California, 
Mr. Sherman, for what purpose do you seek recognition?
    Mr. Sherman. I would strike the last word, if the chairman 
thinks this is the appropriate time to just address the bill in 
general.
    Chairman Berman. This is the appropriate time to just 
address the bill in general.
    Mr. Sherman. Then I will enjoy doing that.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Sherman. I thank the chairman for including in the text 
of the bill, H.R. 4246, which was introduced in the 110th 
Congress, the Defense Trade Controls Performance Improvement 
Act.
    I would also like to thank Mr. Manzullo, Mr. Royce, and Mr. 
Scott for their work on that bill, which will create, as 
included now in this larger piece of legislation, significant 
improvements in our process for licensing arms exports.
    I would also note that many of the improvements that we 
were pushing for then have been undertaken by the State 
Department since the hearings we held in July 2007.
    I would like to commend the chairman for including language 
similar to H.R. 1202, the State Department Report on Unfair 
Business Practices Abroad. This also came out of hearings of 
our subcommittee, and I especially commend Mr. Royce for his 
work on this effort.
    Finally, I would like to commend the chairman for including 
in this bill a provision repealing the mandate that commercial 
satellites be controlled for export purposes on the munitions 
list under the International Traffic<greek-l>k deg. in Arms 
Regulation (ITAR). I think that it makes sense to give the 
State Department and the administration more flexibility in 
this area. The provision would maintain an effective embargo on 
satellite sales to China, as well as a prohibition on launching 
United States satellites in China.
    I hope that the administration would use the authority 
granted by this provision of the bill, and I hope to work with 
the chairman on report language that calls for an orderly 
examination of satellite technologies to determine which items 
can safely come off the United States Munitions List, and I 
would hope that, within 6 months, that our report language 
would urge the administration to review this within 6 months. I 
yield back.
    Chairman Berman. The gentleman yields back his time.
    Is there anyone on either side who wishes to strike the 
last word for purposes of general comments on the bill?
    Mr. Rohrabacher. Yes.
    Chairman Berman. The gentleman from California, Mr. 
Rohrabacher.
    Mr. Rohrabacher. I would just like to express my 
appreciation to Brad Sherman for the good work that he did and 
the diligence that he took in handling a very significant issue 
for American industry, but also for national security.
    It was a complicated issue that he worked with both 
Republicans and Democrats and extended courtesy to me, as a 
member of this committee, and met many of the concerns that I 
had to make sure that we broadened the ability for our own 
industry to deal overseas but, at the same time, took care 
about the issue of China and the potential threat that it would 
pose, and I appreciate his leadership and just thought I would 
put that in the record.
    Chairman Berman. I thank the gentleman. The gentleman from 
Virginia, Mr. Connolly, for what purpose do you seek 
recognition?
    Mr. Connolly. I move to strike the last word.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Connolly. Mr. Chairman, just briefly, I wanted to 
express my support and appreciation to the chairman for the 
chairman's work and for the amendment he has just put in front 
of the committee. I think this represents, actually, a real, 
good-faith, bipartisan effort at addressing many of the issues 
we have been concerned about for quite some time.
    I am a little surprised to hear references to ``the 
prohibitive cost of the bill'' or that somehow the arms control 
section of the bill ought to wait until we hear from the 
Secretary of State. We actually heard from the Secretary of 
State for 3\1/2\ hours at this committee, and I thought I heard 
the Secretary say she was in close consultation with the 
chairman and this committee and expressed general support for 
the principles clearly enshrined in this bill.
    I think it would be naive to believe otherwise, that a bill 
of this magnitude authorizing the State Department would not 
have been put together with some careful consultation with the 
Secretary of State and her staff. So I have confidence moving 
forward.
    Chairman Berman. Would the gentleman yield?
    Mr. Connolly. Yes, sir.
    Chairman Berman. I thank the gentleman for yielding. He 
<greek-l>h deg.is correct, both as to the authorized number for 
the State Department, generally, and for the provisions that we 
have introduced in this manager's amendment. There is strong 
general support, both for the increase in numbers and for 
nearly all of the provisions in that amendment from the 
Department of State and the Secretary.
    Mr. Connolly. I thank the chairman. As to prohibitive cost, 
I also serve on the Budget Committee. The Function 150, the 
foreign affairs function, of the budget continues to, frankly, 
be the anemic part of the Federal budget, and, as Secretary 
Gates noted himself while still the Secretary of Defense under 
the Bush administration, unless we want to have a proliferation 
of military deployment all over the world, we have got to start 
investing in smart diplomacy, and that means we have got to 
shore up and beef up our resources with respect to the State 
Department and the Foreign Service, and I believe the bill, and 
the amendment to it, offered by our chairman does just that.
    So I am looking forward to supporting this bill. It saddens 
me to hear there is going to be a ``Republican substitute.'' I 
spent 10 years of my life as a senior staff member on the 
Senate Foreign Relations Committee, where we wrote State 
Department authorization bills and foreign aid bills. We did 
not have Republican or Democratic bills in those days; we had a 
bill, to which people offered amendments. Some were successful, 
some were not, but, at the end of the day, I would hope we 
could have a unified position moving forward in support of U.S. 
diplomacy abroad.
    I thank the chairman and yield back.
    Chairman Berman. The time of the gentleman has expired.
    Does anyone else seek recognition to strike the last word?
    Mr. Smith of New Jersey. I move to strike the last word.
    Chairman Berman. The gentleman from New Jersey.
    Mr. Smith of New Jersey. Thank you very much, Mr. Chairman.
    It is good to see Walker Roberts here because he and other 
members of this committee will know that we have tried 
repeatedly, and actually succeeded. Henry Hyde did get a State 
Department bill through into law. We did it in the 1990s. We 
attached it in 2000 to an appropriations bill in its entirety. 
We worked in a bipartisan way, although we had our differences. 
I think those differences are sometimes constructive and good. 
We get a better bill.
    I would like to raise a question, Mr. Chairman, with regard 
to Section 333, which seems to elevate the human rights agenda 
for homosexual rights to that of those rights enumerated in the 
Bill of Rights.
    Section 333(b) in the old bill--I know you just amended it, 
in part, through the manager's amendment--requires the 
Secretary, the Assistant Secretary for Democracy, Human Rights, 
and Labor, tracks ``restrictions on the enjoyment of 
fundamental freedoms consistent with U.S. law in foreign 
countries based on actual or perceived sexual orientation and 
gender.''
    In the Country Reports on Human Rights Practices, that now 
would be required to include ``discrimination that affects the 
fundamental freedoms regarding actual or perceived sexual 
orientation and gender identity.''
    My question, first, would be, do the words ``restrictions'' 
and ``discrimination'' include laws in other countries that ban 
homosexual marriage?
    And, secondly, on Part E, although it will be renumbered, I 
know, or redesignated, training for Foreign Service Officers 
concerning human rights reporting and advocacy identifying 
discrimination of an individual based on actual or perceived 
sexual orientation and gender; does that require Foreign 
Service Officers--does that make it permissive or mandatory 
that they be advocates for the homosexual agenda, and if a 
Foreign Service Officer had a religious tenet, perhaps based on 
his or her Christianity or perhaps on their Muslim beliefs or 
perhaps on their Jewish beliefs or any other faith or just a 
moral belief that it is not wrong, would they be compelled, 
under this legislation, to advocate and be involved in advocacy 
for that agenda?
    Chairman Berman. If the gentleman will yield. Without 
seeking to have you expand on what you mean by ``the homosexual 
agenda,'' I will point out, number one, you left out a few key 
provisions of that language--``tracking violence and 
criminalization'' and ``restrictions on the enjoyment of 
fundamental freedoms consistent with U.S. law.'' In other 
words, we are not asking our Foreign Officers abroad to track 
or report on any provisions which we have not ourselves 
adopted.
    So, as to your question about same-sex marriage, the answer 
is, obviously, no. That is not something that is consistent 
with U.S. law.
    This does not foster anybody's agenda on the Foreign 
Service Officers but on the fundamental questions of violence, 
criminalization, and restrictions on the enjoyment of 
fundamental freedoms. I want our Foreign Service Officers, in 
the spirit which you have so frequently and sincerely and 
passionately advocated, to be forces in favor of promoting 
human rights and individual rights and individual liberties and 
actions to deter and stop violence and to ensure that 
fundamental human liberties are not criminalized, and I do not 
apologize for supporting such a provision.
    Mr. Smith of New Jersey. If I could, Mr. Chairman, with 
regards to Foreign Service Officers, just so I am very clear, 
if he or she is the FSO that deals with the human rights 
agenda, and very often very low grade, in terms of their 
seniority, members of the Foreign Service, if he or she had a 
moral tenet, would they still have to participate in this? I am 
not talking about violence; I am talking about the 
discrimination portion because ``discrimination'' is not 
defined in the bill.
    There are people, sincerely, who believe that a ban on 
homosexual marriage is discriminatory. It is going on in many 
of our states, we all know, and it could become the law of our 
land. It is the law in several states.
    Chairman Berman. Many things could become the law of our 
land. Many things could become the law of the U.S. That is not 
now the law of the U.S., and nothing in this bill--and I think 
the reports should reflect that--would force the Foreign 
Service Officer to do anything that was fundamentally contrary 
to his own moral precepts.
    The time of the gentleman has expired. Who else seeks 
recognition? The gentlelady from Texas, Ms. Jackson Lee, for 
what purpose do you seek recognition?
    Ms. Jackson Lee. To strike the last word.
    Chairman Berman. The gentlelady is recognized for 5 
minutes.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. I rise 
to both enthusiastically support the Berman Amendment and, as 
well, H.R. 2410, which, I know, has been both long in coming 
but also a deliberative initiative that really sets the tone of 
this new President and new Secretary of State, and I think it 
is valid to express the importance of the partnership between 
the Members of Congress in foreign policy, as we move forward, 
to set a new tone for America, a new face of friendliness, and 
a new understanding of our Foreign Service leadership and the 
vast, brave men and women who are part of the Foreign Service.
    So I am grateful that a number of items are in this 
legislation and that I will have subsequent amendments, or an 
amendment, that will deal with the, if you will, crisis or 
conflict in Sudan. However, let me express enormous 
gratification for the inclusion of my legislation, H.R. 72, to 
increase global stability and security for the United States 
relating to, de jure or de facto, stateless people.
    We do know there are approximately 11 million individuals 
who are stateless. This encourages the United Nations to have a 
firm program providing the basic human right of giving everyone 
the opportunity to have a nationality.
    Compounding the crisis of statelessness are internally 
displaced persons, and I look forward, as we move to our next 
legislation on this agenda dealing with Pakistan, to confront 
that question of, how do we help those people who are now 
presently being displaced in countries around the world, 
including Pakistan, because of conflict? This is the right 
thing to do.
    I am also very grateful that, in this legislation, there is 
direction for the State Department to create a policy on 
genocide so that we do not sit idly by not because of 
intentions but because of lack of knowledge or how to approach 
it. This legislation has a provision on genocide so that we can 
be part of the world family in standing in the way of the 
horrificness [sic] of genocide.
    I also believe this idea of working with the policy dealing 
with our military assistance and diplomacy is an important 
aspect that is evidenced in the language in this bill. The 
Secretary of State and the President make a point that the 
State Department and diplomacy should be engaged when the 
military are engaged in diplomacy, and I think the partnership 
that is set here is very important.
    I want to applaud the chairman for his initiative on 
providing benefits to our Foreign Service partners. That is a 
simple premise of human dignity, and I look forward to this 
chairman working with the State Department and pushing the 
State Department to ensure that every person, regardless of 
their religious beliefs, regardless of their sexual 
orientation, regardless of whether they are tall or short, male 
or female, whether or not they are an athlete or nonathlete, 
will have the opportunity to live or work in dignity and serve 
their country.
    I have been to a number of places. I have been grateful to 
have been able to serve in this Congress and visit on behalf of 
the United States. I have never seen a Foreign Service Officer 
advocating any personal policies that may be pertaining to 
their personal life. Maybe I have missed it and, therefore, 
have avoided any conversations like that.
    But, Mr. Chairman, I think that we are on the right track, 
and I do want to acknowledge work that was done by my other 
colleagues that I join, which is adding the Caribbean to the 
Merida Initiative a very, very important element of providing 
resources for that part of the world, and, as well, which came 
out of the Western Hemisphere Committee, Mr. Engel and Mr. 
Meeks, and then the work of my good friend and colleague, Mr. 
Payne, on Somalia is in this legislation.
    I conclude, Mr. Chairman, by just acknowledging to you 
that, hopefully, the members of Parliament from Pakistan are en 
route, and I hope that when they do come and come into the 
room, we will have seating for them, but, more importantly, we 
will be able to acknowledge them as a group.
    I rise to support the amendment and H.R. 2410. I yield 
back.
    Chairman Berman. The time of the gentlelady has expired.
    We welcome their coming. The issue of seats is beyond my 
ability to handle because I do not want to throw anybody out.
    We would like to get through the opening statements part of 
this. Who else seeks recognition? The gentlelady from 
California, Ms. Lee, is recognized for striking the last word--
--
    Ms. Lee. Thank you very much, Mr. Chairman. I move to 
strike the last word.
    Chairman Berman [continuing]. And is recognized for 5 
minutes.
    Ms. Lee. Thank you for holding this important hearing, and 
I want to also commend you for your hard work and your staff, 
all of our staffs, in bringing this important and forward-
looking legislation before the committee.
    I would also like to thank the chairman and his staff for 
their hard work and open minds in working with members of this 
committee to address issues of vital importance around the 
globe, and working with an open mind has really made a 
difference, Mr. Chairman, and I just want to thank you so much 
for that.
    I am greatly encouraged that H.R. 2410 takes an important 
step toward reorienting our foreign policy for the 21st Century 
by authorizing funding to meet President Obama's budget 
request. In the words of President Obama, he said, ``America is 
a friend of each nation and every man, woman, and child who 
seeks a future of peace and dignity,'' and I think, Mr. 
Chairman, that this legislation rightfully commits the 
resources necessary to uphold that promise.
    H.R. 2410 includes many valuable programs and provisions to 
extend the arm of diplomacy in the interest of development, 
peace, and progress.
    I would also like to thank the chairman for including the 
United States Caribbean Educational Exchange program in this 
legislation. I introduced this legislation several years ago. 
It passed the House in the 110th Congress. It is called the 
``Shirley H. Chisholm United States Caribbean Educational 
Equity Act.''
    This valuable initiative will promote better understanding 
of the United States' values and culture by offering 
scholarships to Caribbean students to pursue secondary, 
undergraduate, and graduate or post-graduate studies in the 
United States.
    The benefits of educational exchanges are limitless in our 
efforts to promote democratic values, a better understanding of 
the United States and our people, and the work done by these 
students will offer enormous opportunities for building the 
capacity of our longstanding allies in the Caribbean community 
and, actually, in the West Indies and in Caribbean nations.
    I am also pleased that this legislation includes reporting 
language that I offered to address the enduring humanitarian 
crisis in Gaza. Residents of Gaza continue to lack appropriate 
access to basic necessities, including food, fuel, water, and 
reconstruction assistance, absolutely so vital to restoring 
basic infrastructure and access to services, such as education 
and healthcare following the 2008 and 2009 conflicts.
    I am hopeful that this provision will provide much needed 
insight and information into the obstacles facing the 
successful delivery of humanitarian and reconstruction 
assistance in Gaza.
    I am also confident, and I speak for my distinguished 
colleagues on the committee--I note several of them who I have 
talked to about this provision--we are confident that this will 
improve the lives of the Palestinian people in Gaza and that 
this is essential in fostering conditions necessary for 
stability, economic and social development and a lasting and 
sustained peace.
    Lastly, Mr. Chairman, as you know, your staff has already 
worked very closely with my office on the contracting and 
hiring provisions which have been included in this bill to 
ensure that the State Department, in its composition and 
activities, accurately reflects the diversity of the United 
States, and I know that there are some issues that are still 
outstanding that we are going to work with on the minority, 
women-owned, and small business contracting provisions as we 
move this bill to the floor.
    So I look forward to working with you on that additional 
language, and I thank you again, Mr. Chairman, for your open-
mindedness and your willingness to really be very inclusive of 
all of the members of this committee in this bill. Thank you 
again.
    Chairman Berman. The time of the gentlelady has expired. I 
thank the gentlelady for her comments. I am thanking her for 
forcing my mind to open. And I recognize the gentlelady from 
Arizona; for what purpose does she seek recognition?
    Ms. Giffords. Thank you, Mr. Chairman. I move to strike the 
last word.
    Chairman Berman. The gentlelady is recognized for 5 
minutes.
    Ms. Giffords. Thank you, Mr. Chairman. I would like to 
support H.R. 2410. It is an important piece of legislation that 
addresses issues pertaining to both domestic and international, 
but also it includes our Nation's export-control system.
    As you know, I am the chair of the Space and Aeronautics 
Subcommittee on the Science and Technology Committee, and, in 
February of this year, the committee held a hearing on the 
impacts of U.S. export-control policies on science and 
technology competitiveness which are absolutely critical to our 
economic and national security.
    There are a couple of members of the Science Committee here 
on the Foreign Affairs Committee, and many of you represent the 
space industries in your district.
    The impact, in terms of what we are hearing from the 
reports, of the current export-controls regime on America's 
civil and commercial space programs and space research 
activities is significant, and we have heard some very 
troubling conclusions.
    For example, the Center for Strategic and International 
Studies Working Group on the Health of the U.S. Space 
Industrial Base and the Impact of Export Controls found that, 
and I quote, ``the current export-control policies is 
constricting U.S. engagement in partnership with the rest of 
the global space community and is feeding a growing separation 
between the U.S. space community and an emerging, non-U.S. 
space community.''
    It also went on to say that ``export controls are adversely 
affecting U.S. companies' ability to compete for foreign space 
business, particularly the second and the third tier. It is 
those two tiers, the second and third tier, of the industry 
that are the source of much innovation for our country and is 
normally the most engaged in the global marketplace and in the 
aerospace and defense sector.''
    Space is increasingly becoming a global undertaking, with 
new space-faring nations emerging that will provide both 
competition and, I believe, opportunities for cooperation and 
commercial involvement.
    I think provisions need to be included in this legislation 
to ensure that our export-control policies are structured to 
enable us to address both the competition but also the 
opportunities while still protecting legitimate security 
concerns.
    So I do not intend to offer an amendment today, Mr. 
Chairman. I want to work with you, and I want to work with the 
ranking member, and I want to work with members that are 
interested in ITAR, but to develop an amendment for the floor 
that can be properly incorporated into the act.
    H.R. 2410 initiates critical actions to reform export 
controls, and I thank you, Mr. Chairman, for introducing this 
legislation. I look forward to working with you and other 
members.
    Chairman Berman. Will the gentlelady yield?
    Ms. Giffords. Yes, sir.
    Chairman Berman. I very much appreciate the gentlelady's 
comments on this issue. You, at the end, made reference to some 
of the provisions already in this bill, but I very much am both 
aware of those reports and very sensitive to the outdated 
nature of an Export Administration Act which is essentially the 
law last reauthorized fully in 1985 or 1986, if I am correct, 
and I can remember the Conference Committee on that and, since 
that time, it has not been.
    So, obviously, this bill and some of the other regional 
issues, the State Department legislation, and the foreign 
assistance reform legislation are on our agenda, but third on 
my agenda, hopefully, is, in this Congress, to reauthorize the 
Export Administration Act and update the Export Administration 
Act along the lines of some of the reports that you have made 
reference to. I yield back.
    Ms. Giffords. Thank you, Mr. Chairman. Thank you, and I 
look forward to working with you on this. Thank you.
    Chairman Berman. The time of the gentlelady has expired.
    The Commerce Committee, on Monday, had opening comments on 
their climate change bill. They went all day.
    Are we done? Do we need more, or can we go to amendments? 
All right.
    Hopefully, the final speaker on the general statement 
portion on a motion to strike the last word, the gentlelady 
from California, is recognized for 5 minutes.
    Ms. Watson. Mr. Chairman, I move to strike the last word.
    Mr. Chairman, I would like to thank you and your staff for 
working with my office to provide several provisions to the 
baseline text of the State Department Authorization bill, and I 
urge my colleagues to support this bill.
    Section 214, ``Public Diplomacy Resource Center,'' amends 
the State Department Basic Authorities Act of 1956 to direct 
the Secretary of State to ensure that diplomatic and consular 
mission libraries and resource centers are open to the general 
public, to the greatest extent possible, to schedule public 
showings of American films that showcase American culture, 
principles, values, and history.
    Section 215, ``Grants for International Documentary 
Exchange Programs,'' authorizes the Secretary of State to make 
grants to U.S. nongovernmental organizations that use 
independently produced documentary films to promote a better 
understanding of the United States abroad and a better 
understanding of global perspectives of other countries and the 
United States.
    Section 216, ``U.S. Advisory Commission on Public 
Diplomacy,'' amends the Foreign Affairs Reform and 
Restructuring Act of 1998 to reauthorize the United States 
Advisory Commission on Public Diplomacy through October 1, 
2011.
    Section 330, ``Department of State Employment 
Compositions,'' amends the Foreign Relations Authorization Act 
of 2003 to direct the Secretary of State to report on efforts 
to develop a uniform definition of ``diversity'' that is 
congruent with core values and the vision of the Department and 
to evaluate the diversity plans specifically relating to 
Foreign Service and senior Foreign Service.
    This section also provides for a GAO review by the 
comptroller general of the United States to assist the 
employment of composition, recruitment, advancement, and 
retention policies of the State Department for women and 
minority groups, and, as many of you may know, the Department 
of State has some of the worst diversity rates among its 
Foreign Service Officers, to include the senior Foreign Service 
and Foreign Service specialists.
    Mr. Chairman, I would like to submit for the record a 
report obtained by CRS from the State Department, which shows 
the lack of diversity within the various levels of the Foreign 
Service.
    Chairman Berman. Without objection, that report will be 
included in the record of the markup.
    Ms. Watson. For example, Foreign Service generalists, by 
race and gender, shows that, as of September 30, 2008, there 
were 3,543 white males; 2,073 white females; 164 black males; 
210 black females; 181 Spanish males; 108 Hispanic females; 205 
Asian males; 182 Asian females; 11 Native American males; 12 
Native American females; and as you look up the graph regarding 
diversity in top leadership levels, there is, basically, none.
    I believe the reporting requirements in Section 330 and the 
GAO review will help the Department of State develop a policy 
where all groups are participants and involved in conducting 
our Nation's foreign policy.
    So, Mr. Chairman, I urge my colleagues to support the 
passage of the State Department Reauthorization bill, which 
will enhance smart public diplomacy, and it will support our 
diplomacy abroad, our efforts worldwide, and diversity of our 
Foreign Service. I thank you very much, and I yield back the 
remaining time.
    Chairman Berman. The time of the gentlelady has expired.
    The pending question is the manager's amendment. The 
question occurs on the amendment. All in favor, vote aye.
    [A chorus of ayes.]
    Chairman Berman. All opposed will vote no.
    [A chorus of noes.]
    Chairman Berman. The ayes have it. The manager's amendment 
is adopted.
    Ms. Ros-Lehtinen. Mr. Chairman?
    Chairman Berman. Should we go to final vote? No. Are there 
other amendments?
    Given the tremendous restraint on the minority side 
regarding opening statements, I will----
    Ms. Ros-Lehtinen. We do have an amendment at the desk, Mr. 
Chairman.
    Chairman Berman. The gentlelady is recognized.
    Ms. Ros-Lehtinen. Thank you. We have a Republican amendment 
that, I think, is being given out.
    Chairman Berman. Pass it out, and then we will read it, and 
then we will stop reading it.
    Ms. Ros-Lehtinen. Thank you so much.
    [Pause.]
    [The information referred to follows:]<greek-l>Amendment in 
the NOS to H.R. 2410--Ros-LehtinenNote: original transcript had 
051909.052; final had 051909.623--used .623 deg.
      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. We would also like to point out that this 
amendment has been printed smaller so that two pages of the 
bill are on each page, and it is printed both front and back, 
and we congratulate the minority for their saving a few trees.
    The clerk will read the amendment.
    Ms. Rush. Amendment in the nature of a substitute to H.R. 
2410 offered by Ms. Ros-Lehtinen of Florida, ``Strike all''----
    Chairman Berman. Without objection, the reading of the 
amendment is dispensed with, and the gentlelady from Florida, 
the ranking member, is recognized for 5 minutes.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    Let me be clear to our colleagues, at the outset, this 
Republican substitute does not cut funding for U.S. foreign 
affairs activities. Let me repeat that: It does not cut funding 
for U.S. foreign affairs activities. But, unlike the majority's 
bill, it caps any account increases at 3.7 percent over 
current-year levels. This is a reasonable, 3.7-percent 
increase. That is the average rate of inflation for 2008. Even 
that amount is higher than the cost-of-living increases being 
given to our troops in the field.
    By taking this measured approach, the Republican substitute 
would produce a minimum, single-year cost savings of $2.84 
billion in 2010, as compared to the majority's bill. Let me 
repeat that, Mr. Chairman: The Republican substitute would 
produce a minimum, single-year cost savings of $2.84 billion in 
2010, as compared to the majority's bill.
    Among other key differences, the Republican substitute does 
not include the majority's proposal to authorize the payment of 
all claimed U.N. arrears or back payments. Instead, the 
Republican substitute leverages our contributions to the U.N. 
on specific, concrete reforms in that institution.
    Why should American taxpayers be asked to write a blank 
check to the United Nations? Why not demand specific returns on 
our investments?
    Also, the Republican substitute does not include the 
majority's inexplicable authorization to pay a higher rate for 
U.N. peacekeeping than even the U.N. is charging us, and that 
bears repetition as well. The Republican substitute does not 
include the majority's inexplicable authorization to pay a 
higher rate for U.N. peacekeeping than even the U.N. is 
charging us.
    The majority's assessment rate could result in the U.S. 
paying, in 1 year alone, more than $100 million more for U.N. 
peacekeeping above that which the U.N. requires us to pay.
    Instead, the Republican substitute includes the U.N. 
Transparency, Accountability, and Reform Act, a comprehensive 
approach to fundamental U.N. reform. This bill has been pending 
before the committee for the past 2\1/2\ years, notwithstanding 
the 88 current co-sponsors, our numbers requests to have it 
marked up, and our request that it be included in the bill 
before us today.
    This section of the Republican substitute addresses the 
anti-U.S. and anti-Israel bias at the U.N. Human Rights 
Council. It addresses the continuing provision of nuclear 
assistance by the International Atomic Energy Agency to the 
likes of Iran and Syria. It addresses the widespread corruption 
at the U.N. and its agencies.
    I would also like to emphasize, in light of the Gaza 
reporting language in the chairman manager's amendment, which I 
referenced to earlier in my opening remarks, that the 
Republican substitute includes language addressing problems 
with UNRWA, the United Nations Relief and Works Agency.
    Keeping bilateral U.S. assistance to West Bank and Gaza 
from reaching unintended recipients is but one component of a 
broader problem: UNRWA has a notorious history of allowing the 
use of its facilities by the likes of Hamas and, even recently, 
was funneling assistance to Gaza through banks that are 
sanctioned by the United States for money-laundering and 
terrorist-financing concerns.
    The majority bill and the manager's amendment are silent on 
this issue. Focused on reform and accountability, the 
Republican substitute maintains current levels of funding for 
the State Department's Office of Inspector General to continue 
its investigations and auditing while the majority bill cuts 
oversight funding for the IG, all the while ballooning the 
State funding that the IG is supposed to be monitoring.
    Our substitute includes language requiring that the U.S. 
Treasury receive 50 percent of the remaining assets of the 
Enterprise Funds that were started with U.S. taxpayer money and 
are winding down. This could result, Mr. Chairman, in hundreds 
of millions of dollars being used to pay down our national 
debt.
    The Republican substitute also includes important security-
related provisions, such as an outright prohibition on 
assistance to a Palestinian Authority that includes Hamas and 
other Palestinian terrorist organizations.
    It also has many other valuable components, such as Mr. 
Royce's amendment, Mr. Manzullo's amendment, and expands on 
Holocaust-era property restitution and compensation, and it has 
other items that, unfortunately, I have run out of time to 
explain.
    Thank you, Mr. Chairman, and I hope that our colleagues see 
this as a responsible, calibrated approach that will provide 
necessary funding but will leverage transparency and reform in 
outlining foreign policy priorities for our Government. Thank 
you, Mr. Chairman.
    Chairman Berman. The time of the gentlelady has expired.
    Before I recognize myself, I would like to ask the 
committee to welcome, and I would ask my colleague from Texas, 
Ms. Sheila Jackson Lee, to introduce a group of Pakistani 
parliamentarians, part of an exciting parliamentary democracy 
for whom we will be focusing on after we finish this 
legislation. And we are very glad to have you here, and the 
gentlelady from Texas, with whom I went to Pakistan just a few 
weeks ago--my first trip, her 25th, I think--the gentlelady 
from Texas.
    Ms. Jackson Lee. Mr. Chairman, your kind indulgence will 
not be over utilized. Let me wish that you will visit Pakistan 
many, many more times. This is an exhibition of the true sense 
of international relations and the extended friendship that we 
want to continue with Pakistan.
    Might I have these members of Parliament, who happen to be 
all women and who will be returning again for democratization 
issues in the month of June? The Member of Parliament Memon, is 
here, if you would please stand; the Member of Parliament Ijaz; 
the Member of Parliament Yasir; the Member of Parliament 
Shadre; and the Member of Parliament Hasme, if you would just 
continue to stand.
    We welcome you. We thank you for your presence here----
    [Applause.]
    Ms. Jackson Lee [continuing]. And we look forward to 
working with you. We also acknowledge Tajah Gaya, who has 
worked with us on a number of issues. Thank you all very much. 
Mr. Chairman, I yield back. Welcome.
    Chairman Berman. I thank the gentlelady, and I now 
recognize myself to strike the last word, and I speak in 
opposition to the substitute amendment. I will try and make 
this quick.
    Basically, this bill reverses a trend that started under 
Secretary of State Powell and was continued under Secretary of 
State Rice in recognizing the vital loss of capacity inside the 
State Department to pursue a critical diplomatic agenda, an 
agenda that is vital to our own national security interests.
    This cut is a cut from the proposed budget of a 
significant, huge amount of money. It is drastically reduced 
from the administration's budget request. It puts a cap on 
contributions to international peacekeeping that is too tight, 
given the fact that the assessment rate is being negotiated now 
for future years, and this would, in effect, preempt those 
negotiations.
    It eliminates contributions to any U.N. organization in 
which Iran holds a position of leadership. That is not so bad.
    By and large, I disagree with the fundamental notion that 
our withholding dues is a strategy that is going to achieve its 
goals. All it does is add to the arrearages--we end up paying 
it anyway, and the whole thrust of this bill is to get off of 
that particular track.
    Again, I repeat: The bill that we have in front of us, 
which this would seriously wipe out, is 8 percent over the 
projected levels for 2009, which, to me, is only the first step 
toward restoring U.S. global leadership.
    It is rather difficult for me to understand why we would 
want to deny the State Department these resources. Recall the 
vacancy figures in the current Foreign Service that I mentioned 
earlier, and think, for a moment, about the incredible needs to 
deal with issues like hunger and the global food insecurity 
that we are trying to deal with here, in our legislation. This 
substitute wipes that out.
    With the crisis that exists with stabilization and 
reconstruction assistance, Secretary Gates, no less, and others 
in the military have asked us. In other words, here, we are 
cutting the State Department, and we know what is going to 
come.
    The Defense Department will be asked to take on missions 
not directly related to their mission that the State Department 
should be performing. We will not be saving this kind of money 
by these cuts; we will be pushing it onto the Department of 
Defense, people not trained for that mission required to do 
that mission because of the urgent, national security interest 
we have in stabilization and reconstruction work.
    So I could go through the whole bill. There are some good 
provisions in the substitute, but they are vastly overwhelmed 
by the fundamental assault on the President's budget request, 
and I urge my colleagues on the committee to vote no, and I 
yield back the balance of my time.
    Does anyone else seek recognition on this amendment? The 
gentleman from New Jersey, Mr. Smith.
    Mr. Smith of New Jersey. I yield the remainder of my time 
to Ranking Member Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much. Thank you for the 
time.
    I know that the word is used about ``cut.'' Again, the 
substitute continues the trend of increasing funding for 
foreign affairs but keeps those increases to 3.7 percent as we 
continue to wait for the State Department's budget 
justification, which, every other year, we have received, and 
we wait for the conclusions of the Department's ongoing review. 
There is no such cut.
    The Republican substitute also strengthens the United 
States-Israel relationship and highlights the 2007 memorandum 
of understanding between our two nations, reaffirming the 
increase in security assistance to help Israel meet the growing 
threats that she faces. The substitute also affirms our 
commitment to Israel's missile-defense capabilities, in light 
of Iran's stated intent to mass produce longer-range missiles 
and to help ease uncertainties about the overall U.S. 
commitment to missile defenses in Europe.
    Just today, it was reported that Iran had successfully test 
fired a new, medium-range, surface-to-surface missile. In 
response, the Republican text incorporates the substance of the 
bipartisan, Iran Refined Petroleum Sanctions Act introduced by 
our chairman, which has been co-sponsored by over 100 Members.
    We must urgently address the rising threat to the United 
States and our allies posed by Iran's pursuit of nuclear 
weapons capabilities and its support for violent and extremist 
Islamic militants like Hamas and Hezbollah.
    The Republican substitute also includes the Western 
Hemisphere Counterterrorism and Nonproliferation Act to help 
address the growing threats in our own neighborhood.
    Our substitute also includes a provision to increase 
accountability and oversight of taxpayer-funded activities, 
such as civilian police training and security assistance to 
Yemen and Lebanon.
    Our substitute maintains current funding levels for the 
National Endowment for Democracy, where the majority's bill 
cuts funding to NED.
    Our substitute does acknowledge the value of some of the 
provisions in the majority's bill and, therefore, includes 
language on protecting girls by preventing child marriage, 
providing exchanges between Liberia and the United States for 
women legislators, and calls attention on securing the release 
of Galad Shalit, the Israeli soldier held captive by his Gazan 
kidnappers since 2006, and it includes provisions on 
intellectual-property-rights protection, which is a priority 
for both the chairman and for me.
    We hope that all of the members look carefully at the 
Republican substitute, which takes this calibrated approach. I 
thank my good friend for his time, and I yield back the time to 
him.
    Chairman Berman. For what purpose does the gentleman from 
California seek recognition?
    Mr. Sherman. [Off mike.]
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Sherman. I would want to address the idea of the cap in 
this substitute amendment. I have to disagree with the ranking 
member when she uses the argument that 3.7 percent exceeds the 
rate-of-pay increase for our troops in the field.
    The implication there is that somehow this bill is going to 
provide wild, large salary increases to State Department 
personnel. That is hardly the case. It is not an increase in 
the pay of each person; it is an increase in the number of 
people and the amount of activity that they will engage in.
    It would be wrong, I think, to criticize a defense bill 
that had total personnel costs growing at more than 3.7 percent 
and say that bill was unduly generous to the troops because 
inflation is below 3.7 percent. Personnel costs in the Defense 
Department rise in the next few years chiefly as a result of 
the plan to increase the size of the Army.
    But as to the idea of a 3.7-percent cap, I might be 
inclined to support it if there was language in the amendment 
which capped at the rate of inflation the propaganda budget for 
al-Qaeda, if there was a cap in this amendment on the number 
and severity of international crises that we are going to face, 
but those caps are not in the amendment.
    The fact is that it is the Pentagon that tells us that we 
are entering treacherous waters around the world. I do not 
think there has been a more complicated time for our foreign 
policy, and it is the Pentagon that tells us that the right 
troops to deploy work for the State Department and USAID.
    I think we have to deal with the foreign policy crises that 
confront us as effectively as possible, and I think those 
crises have grown faster than the rate of inflation. I yield 
back to the chairman.
    Chairman Berman. Anyone else seeking debate? The gentleman 
from Indiana, Mr. Burton.
    Mr. Burton. Thank you, Mr. Chairman. I move to strike the 
last word.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Burton. I am disappointed that the Republican 
substitute will not be accepted because I think every 
opportunity that we have right now, with the uncertainty that 
takes place in the Middle East, that we ought to be showing our 
support for Israel, and, in the bill that is before us, the 
Democrat bill, it is silent on the majority State Department 
Authorization bill, the Israel-related provisions contained in 
the Republican substitute text, which constitute a 
comprehensive, coordinated effort to provide the necessary 
military, economic, and diplomatic support for the State of 
Israel.
    The aid request reflects the second year of a 10-year 
memorandum of understanding signed by the United States and 
Israel in 2007 to gradually increase U.S. security assistance 
to the Jewish state in order to meet increasing threats, and, 
by authorizing foreign military assistance and financial aid to 
Israel, the United States makes good on the 10-year memorandum 
of understanding, signed by the United States and Israel in 
2007, to gradually increase U.S. security assistance to the 
Jewish state.
    With what is going on over there right now, Mr. Chairman, I 
think it is important, in every single bill that we pass that 
deals with foreign assistance, the State Department, or 
whatever it happens to be, we ought to state very, very clearly 
our strong support for the State of Israel because they are our 
only real, true friend and anchor in the Middle East, and if we 
do not show that support, and if we do not let the Iranian 
leader, Mr. Ahmadinejad, know that we are strongly in favor of 
Israel and the support of Israel, I think he is likely to 
continue rattling his sabers, as he did just yesterday when he 
launched that missile, and they said that it had pinpoint 
accuracy, and it had the distance capable of reaching Israel.
    So all of the talk that we are hearing about discussing a 
peaceful solution to the nuclear program that Iran is 
developing really has not gained much footing.
    So we need to show, very strongly, that we support Israel, 
we support them in every single way possible, and to send a 
very strong signal, a very strong signal, to Iran that we are 
going to continue to do that, and if they continue their 
nuclear development program, they will pay a very dear price.
    Chairman Berman. Would the gentleman yield?
    Mr. Burton. I would be happy to yield to my colleague.
    Chairman Berman. The actual language in the substitute is 
different than what the gentleman described, and, in fact, as a 
great supporter of our foreign assistance to Israel, I would 
find this language to question the intensity of our commitment, 
for the gentleman does not authorize appropriations of $2.7 
million; he authorizes such sums as appropriated.
    This is not a foreign assistance bill. This committee would 
always be earmarking the requested and the specific amount. The 
gentleman's amendment simply provides an authorization subject 
to appropriations----
    Mr. Burton. I understand that.
    Chairman Berman [continuing]. And I would view it, given 
that you are trying to speak on an issue that is not 
appropriate for this bill, but your failure to talk about the 
dollar amount indicates less-than-full interest.
    Mr. Burton. Reclaiming my time, Mr. Chairman, I do not have 
a great deal left. Let me just say that I want to make sure 
that the message is clear, and, in the majority bill, I do not 
think it is clear.
    I think that we ought to take every single opportunity to 
show our support for Israel, and we ought to make it very, very 
strong. I do not think the majority bill does that, and that is 
why I am disappointed that the substitute offered by the 
ranking member is not going to be accepted.
    Chairman Berman. All right. The time of the gentleman has 
expired. The delegate from American Samoa, Mr. Eni 
Faleomavaega, is recognized.
    Mr. Faleomavaega. Mr. Chairman, I move to strike the last 
word.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Faleomavaega. And I yield 5 minutes of my time to you, 
Mr. Chairman.
    Chairman Berman. And I appreciate the gentleman yielding, 
but I have decided<greek-l>, deg. I do not want it.
    Mr. Faleomavaega. For that, Mr. Chairman, I reserve the 
balance of my time.
    Chairman Berman. All right. Any further debate on the 
amendment? The gentleman from South Carolina, Mr. Wilson, is 
recognized for 5 minutes.
    Mr. Wilson. Thank you, Mr. Chairman, and I move to strike 
the last word.
    Chairman Berman. The gentleman is recognized.
    Mr. Wilson. Mr. Chairman, I want to commend the ranking 
member, Ileana Ros-Lehtinen, for her leadership in providing 
for the Republican substitute. This truly is, I think, a very 
significant alternative that caps spending. It stops the 
spending increases. It provides for a 3.7 increase, by way of 
inflation. It is not a cut; it is a cap. It is a very positive 
way to address the fiscal situation of the United States that 
we face today.
    I, particularly, approve of the Republican substitute with 
the reform of the United Nations. I believe that we can, 
particularly, see, with the scandal of the oil-for-food 
scandal, that there should be transparency. The funds being 
spent by the U.N. are frequently just simply not accountable. 
There needs to be proper accounting.
    I also want to thank you, Mr. Chairman, for recognizing 
that there are, in the Republican alternative, restraints on 
Iran, and the challenge of Iran, truly, today, has been 
revealed more than ever with their most recent missile test, 
which has the capability of striking to the West as far as 
southeastern Europe, Turkey, but, to the East, could strike our 
allies in Pakistan.
    So what we have, in the Democrat bill, it provides for an 
increase of 12 percent in contributions to international 
organizations, and then it provides for a repayment of all U.N. 
arrears without requiring any U.N. reform or transparency. I 
would hope that could be addressed.
    Additionally, it has been pointed out that the majority 
proposal provides for paying U.N. peacekeeping assessments at 
27.1 percent, even though the U.N. has only requested and 
assessment of 25.9 percent. This is a $100 million increase per 
year of a bill which actually increases spending by $2.84 
billion a year.
    The increase in the basic salary and operations of the 
State Department, with the majority proposal, is a 34.5-percent 
increase, more than a third of the current spending.
    Another concern I have is it creates 20 new government 
entities, 48 new reporting requirements. It decreases the 
funding for the Department of State Inspector General while 
vastly increasing the funding over which the IG has oversight, 
and I think this could lead to a potential for further fraud, 
waste, or abuse.
    A final point I want to make is concern about earmarks. In 
this bill, there is a series of designated new funding 
earmarks, specifically, $120 million for the new Senator Paul 
Simon Study Abroad Foundation; $5 million to promote 
``independently produced documentary films.'' Again, I am 
concerned, how in the world would you define, truly, what is 
proper?
    Additionally, there is a provision that provides for 
diabetes treatment and safe water for the Pacific Island 
countries, at $500,000 a year. That seems so broad that it 
could be subject to misunderstanding or misinterpretation or 
misspending of the taxpayers' money.
    So, with those points, I would like to urge persons to look 
at the Republican substitute. Congresswoman Ileana Ros-Lehtinen 
has done an extraordinary job of creating a bill with so many 
different points that she so eloquently stated a few minutes 
ago. I urge support of the Republican substitute, and I yield 
the balance of my time.
    Chairman Berman. The time of the gentleman has expired.
    The chair would like to call the question, if that is all 
right, on the Republican substitute. Can we vote on the 
question? Is there anyone? The gentleman from Florida is 
recognized.
    Mr. Bilirakis. Thank you, Mr. Chairman. I move to strike 
the last word.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Bilirakis. Thank you for the time. I wanted to thank 
the ranking member for her excellent alternative to H.R. 2410 
but, first, want to thank and acknowledge, you, Mr. Chairman, 
for including a small part of my language in Section 1105 of 
H.R. 2410 calling for religious freedom of the Ecumenical 
Patriarchate.
    I am disappointed, however, that it does not go far enough. 
The language in H.R. 2410 fails to mention the human rights and 
property rights violations perpetrated by the Government of 
Turkey and against the Ecumenical Patriarchate.
    More importantly, there is no mention of reopening the 
theological school at Halki, something that President Obama 
addressed in the Turkish Parliament weeks ago.
    I appreciate the ranking member acknowledging the 
seriousness of the frail status of the Patriarchate, the center 
of faith for me and over a request of 1 billion Orthodox 
Christians worldwide.
    The ranking member's substitute amendment is comprehensive 
and includes the totality of the language in a bipartisan 
resolution seeking religious freedom for the Ecumenical 
Patriarchate.
    Ms. Ros-Lehtinen; I also appreciate her inclusion of 
additional important language regarding Cyprus and Afyon. The 
language you included in your substitute amendment that failed 
to be included in H.R. 2410 very simply asked for transparency 
and accountability of funding. The language requires the 
President to submit a report to Congress to make sure that U.S. 
tax dollars are being used for programs and activities that 
help achieve reunification of Cyprus.
    In regards to Afyon, the substitute amendment also requires 
the President to submit a report to Congress which will ensure 
that U.S. funds are not being directed to programs that promote 
hostile activities or propaganda by the Government of Afyon, or 
private entities in Afyon, against Greece.
    Again, thank you for your substitute amendment, Madam 
Ranking Member Ms. Ros-Lehtinen. Thank you very much, and I 
yield back the balance of my time, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from New York; for what purpose do you seek 
recognition?
    Mr. McMahon. Thank you, Mr. Chairman. I would also like to 
just strike the last word.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. McMahon. Thank you, Mr. Chairman Berman. Thank you for 
your hard work, and I will be brief because I know you want to 
move this along.
    I would just like to state for the record that I agree with 
Congressman Bilirakis. It is critical that the State Department 
and USAID work to foster the reunification of Cyprus. I 
strongly support the notion that a memorandum of understanding 
should be signed between the legitimate Government of Cyprus 
and USAID. However, I also understand that the Foreign 
Relations Authorization Act is not the appropriate vehicle in 
which to do this. If this amendment were to be placed in the 
bill, it would not be strong enough at this time and would not 
have effect.
    I look forward to working with the committee on addressing 
this issue in the Foreign Assistance Act itself.
    Chairman Berman. Would the gentleman yield?
    Mr. McMahon. Yes, sir. I yield the remainder of my time. 
Yes, I yield, sir.
    Chairman Berman. I thank the gentleman for yielding.
    I want to respond, actually, to the comments of both you 
and the gentleman from Florida. Having just been to Cyprus, my 
fundamental interest in the unification of Cyprus was only 
enhanced by virtue of what I saw there and the people with whom 
I met, and I share both of your commitments to this being a 
priority foreign policy goal for the United States now, and I 
thank the gentleman for yielding.
    Mr. McMahon. Thank you, sir, and I yield the remainder of 
my time.
    Chairman Berman. The time of the gentleman has expired.
    Can we vote on the pending amendment, the gentlelady from 
Florida, the ranking member's amendment in the nature of a 
substitute? All of those in favor, say aye.
    [A chorus of ayes.]
    Chairman Berman. All opposed, say no.
    [A chorus of noes.]
    Chairman Berman. In the opinion of the chair, the noes have 
it, and the amendment in the nature of a substitute fails.
    Any other comments?
    Ms. Jackson Lee. Mr. Chairman?
    Chairman Berman. The gentlelady from Texas.
    Ms. Jackson Lee. Mr. Chairman, I have an amendment at the 
desk.
    Chairman Berman. The clerk will distribute the amendment, 
and the clerk will read.
    [The amendment of Ms. Jackson Lee follows:]<greek-l>Jackson 
Lee Amendment to H.R. 2410 deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Rush. Amendment to H.R. 2410 offered by Ms. Jackson Lee 
of Texas. ``At the end of the bill, please add: `Section 1126. 
Sense of Congress Sudan. It is the Sense of Congress that--(1) 
the United States' ''----
    Ms. Jackson Lee. Mr. Chairman, I ask unanimous consent that 
the amendment be considered as read.
    Chairman Berman. Without objection, so ordered.
    The ``Sense of Congress on Sudan,'' an amendment offered by 
Ms. Jackson Lee of Texas; the gentlelady is recognized to speak 
on behalf of her amendment.
    Ms. Jackson Lee. Thank you, Mr. Chairman. First, I would 
like to thank the chairman and his staff for working with me 
and my office on this legislation that would be included in a 
very important, new initiative in our Foreign Affairs 
Authorization bill. It is to emphasize that the foreign policy 
of the United States is not unmindful of the continuing 
conditions and humanitarian crisis in Sudan.
    There is an estimated 2.45 million people that are 
displaced, more than 240,000 people have been forced into 
neighboring Chad, and an estimated 450,000 people are killed.
    Yesterday, members of the Congressional Black Caucus joined 
leaders on this issue, including a recent person who has 
experienced fasting for a number of days because of the 
conditions there, and the evidence is that our job is not yet 
complete.
    We are delighted that an envoy has been appointed, but this 
is a crisis, and this resolution, ``A Sense of Congress,'' 
continues to emphasize the importance of the United States 
participating in determining and helping to establish a stable 
and lasting peace in Sudan in the wake of a devastating 
conflict that continues to cause violence in Darfur and 
throughout Sudan.
    Ms. Ros-Lehtinen. Will the gentlelady yield for 30 seconds?
    Ms. Jackson Lee. I yield to the gentlelady.
    Ms. Ros-Lehtinen. Thank you. I am pleased to support the 
amendment by the gentlewoman from Texas, Ms. Jackson Lee, 
regarding Sudan. This amendment emphasizes the importance of 
finding a truly comprehensive peace for all of Sudan--north, 
south, east, and west--and now that the Sudanese regime has 
callously expelled number of humanitarians NGOs, the stakes are 
higher than ever.
    The administration will, hopefully, soon develop a 
comprehensive approach toward Sudan, and I am pleased to 
support the amendment by the gentlelady from Texas.
    Ms. Jackson Lee. Thank you. Reclaiming my time, I would 
like to acknowledge the members on this committee who have been 
supportive, including the chairman of the Subcommittee on 
Africa, Congressman Donald Payne, that led to the commitment 
yesterday for many of us to begin fasting, along with the 
chairwoman of the Congressional Black Caucus, Congresswoman 
Barbara Lee.
    I just will conclude by saying that the importance if this 
is to reinforce America's commitment to a peaceful Sudan and 
also prosecuting the perpetrators of war crimes and, as well, 
allowing the Darfurians and others to return to their homeland 
with safe elections and, of course, a legitimate referendum so 
that people can design their own destiny.
    Mr. Chairman, I would hope that other members would welcome 
the opportunity to co-sponsor this amendment, but I believe 
that this is an important addition, and a necessary addition, 
to major legislation that will help establish the foreign 
policy of the United States of America, and I would ask my 
colleagues to support this amendment.
    Chairman Berman. The time of the gentlelady has expired.
    The question is----
    Mr. Rohrabacher. Mr. Chairman?
    Chairman Berman. Who seeks recognition? On this amendment, 
the gentleman from California.
    Mr. Rohrabacher. Yes. Thank you very much. I will be very 
quick.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Rohrabacher. Thank you very much. I support the 
amendment and thank my colleague for offering the amendment.
    Let me just note that, while it is a good amendment, it 
neglects to mention the heinous role that China is playing in 
this ongoing Sudan tragedy, and I would, very quickly, remind 
my colleagues that, in spending more money, as this package of 
bills that we are putting together here now in this legislation 
will do, we are, basically, and considering the fact that we 
are now in such a heavy area of deficit spending for the 
overall budget, we, in essence, are borrowing more money from 
China in order to give to other peoples, which makes no sense 
whatsoever.
    So I do support the amendment, but I think we should all 
note that China is playing a horrible role in the Sudan, but 
that exemplifies the role that it is playing throughout the 
world with other dictatorships as well.
    Ms. Jackson Lee. Will the gentleman yield?
    Mr. Rohrabacher. I certainly will.
    Ms. Jackson Lee. The gentleman has made a very, very 
important statement, and you can be assured that, in the 
writing of this amendment, the role of China was not ignored. 
In fact, we captured it, we hope, by declaring a marker in this 
legislation that it is important for the United States to be 
actively involved, which means to engage with sovereign 
nations, such as China, that have played a horrific role in 
bolstering up the Sudanese Government and the President of 
Sudan, who, as we all know, has been indicted.
    We know that there is an envoy, as we speak, en route to 
China who has the full force of the United States Government to 
emphasize the key responsibility of China, in essence, 
recognizing its responsibility, and I would use the term 
``stand down,'' from creating a comfortable zone for these 
heinous acts to occur.
    So I yield back to the gentleman, thanking him for his 
comment and indicating that it is not unmindful and not missed 
in the language of this particular amendment.
    Chairman Berman. Would the gentleman yield further?
    Mr. Rohrabacher. I would yield further.
    Chairman Berman. I want to use this one opportunity, and I 
will not repeat it again.
    I certainly understand differences of opinion as to how 
much we should authorize for State Department and Peace Corps 
operations, and I am speaking to the gentleman's general 
comments.
    Mr. Rohrabacher. Right.
    Chairman Berman. But this is not a foreign assistance bill. 
This is not about giving money to other countries. We will have 
that bill, and I will support that activity when it comes up, 
but that is not what this bill is about. This is about State 
Department and other related agencies' operations. The 
increases in this are to beef up and shore up what we view 
<greek-l>w deg.as a weak, deeply incapacitated, foreign 
relations agency that has lost positions and is unable to carry 
out its diplomatic mission to the degree that we think serves 
our interests.
    I just want to make it clear that it is not foreign aid; it 
is State Department operations.
    Mr. Rohrabacher. Reclaiming my time, let me note, then, and 
be more perfect in my language, that we are borrowing more 
money from China in order to give to the United Nations. That 
might be a little bit more accurate. It is just as 
nonsensical--it is just borrowing more money from China to give 
to other countries. So, with that said, I think I have made my 
point.
    Chairman Berman. I want accurate attacks, not----
    Mr. Rohrabacher. All right.
    Chairman Berman. All right. I yield back. Is there any 
further--the gentleman from New Jersey, Mr. Payne, is 
recognized.
    Mr. Payne. Thank you very much, Mr. Chairman.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Payne. Thank you. Let me just commend the gentlelady 
from Texas for this very timely amendment. We all know that it 
was, 4 years ago, a unanimous vote in the House, 422 to 0, that 
genocide was declared, and, for the first time in the history 
of this Congress, that genocide was declared while it was 
actually occurring, and it is still occurring.
    However, we are certainly disappointed that the declaration 
has not ended the genocide, and we are also disappointed that 
the rest of the world has not really stepped up on this issue, 
as we were hoping.
    We do urge our new envoy to Sudan, who is on his way to 
Beijing, that we have strong words with the Government of 
China. As you know, PetroChina is the sole oil company in 
Sudan, and we feel that they could be more supportive in urging 
the Government of Sudan to have more consideration for human 
rights.
    We have gone to the region many times. We see the suffering 
continues. Thirteen organizations have been expelled. Unless 
there is an intervention by humanitarian organizations, many 
people will die, children. The rainy season will be coming 
soon, making it impossible to deliver food, if you wanted to, 
and so this is very, very important.
    I also feel that the indicted President of Sudan should 
report to The Hague to answer the court's indictment, and I 
would like to also commend Mia Farrow, who led the ``Darfur 
Fast for Peace,'' where she, after 12 days, was taken off the 
fast, and many of us picked it up.
    The Congressional Black Caucus has picked up the ``Darfur 
Fast for Peace,'' where the members will take a day, and we 
will send a ``Dear Colleague'' urging all of the Members of the 
Congress to have a ``Darfur Fast for Life'' for 1 day to fast 
so that we would not only support this psychologically, but we 
could also feel the pain of even 1 day without food. We can 
drink water, but, even in Darfur, they do not have water to 
drink, as I did for the 4 days that I fasted last week.
    I would hope that this will be picked up, but, primarily, 
we must stop the genocide in Darfur. We must support the 
Comprehensive Peace Agreement in Sudan. We must bring war 
criminals to justice. As a matter of fact, there were three 
rebels who were indicted also, and they are going to The Hague 
to stand trial, and I think that the President of Sudan should 
follow suit as the rebels. One has already turned himself in in 
The Hague, and I would hope that the others would.
    So, once again, let me commend the gentlelady for this 
resolution and also commend our chair of the Congressional 
Black Caucus, Barbara Lee, for the outstanding work that she 
and other Members of the Congress have done. I yield back the 
balance of my time.
    Chairman Berman. The time of the gentlemen has expired. The 
gentlemen from New Jersey is recognized on the pending 
amendment.
    Mr. Smith of New Jersey. Thank you very much, Mr. Chairman.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Smith of New Jersey. Mr. Chairman, I do support 
strongly the ``Sense of the Congress'' resolution offered by my 
friend and colleague from Texas, and I think she puts a very 
important emphasis on the CPA, the Comprehensive Peace 
Agreement.
    I remember one meeting in Khartoum, meeting with Salva 
Kiir, who made it very clear that if the CPA falls apart, a new 
genocide in Southern Sudan would be very likely. We already 
know that the genocide occurring in Darfur is unconscionable. 
Upwards of 450,000 people have been killed--nobody knows the 
exact number--and I think General Bashir's response, when 
indicted, to oust the nongovernmental organizations and the 
humanitarian-aid workers, in a like manner, was unconscionable.
    I have been to the camps, like many members of this 
committee have been and other Members of Congress. I was in 
Mukjar and Kalma Camps, and to think that those camps, without 
the aid workers, without the doctors and the LPNs and the 
nurses and the people who are providing food and other 
humanitarian assistance, the situation, horrific as it is, only 
gets worse.
    So my hope is that, with the continued pressure of the 
United States, the European community, this resolution, again, 
lifts the issue up, as it ought to be. Today, 12:00, genocide 
continues in Darfur. It is always appropriate to bring this up. 
I commend the gentlelady.
    Ms. Ros-Lehtinen. If the gentleman would yield, thank you, 
and I agree with the gentleman from New Jersey that if the CPA 
falls, there is little hope for finding a negotiated settlement 
for Darfur. Key to the importance of finding a truly 
comprehensive peace process is the implementation of the 
Comprehensive Peace Agreement. It ended two decades of conflict 
between former rebels in the South and the regime in Khartoum.
    This is a critical time for the CPA. Elections are due this 
year, but, almost certainly, they will be delayed. Tensions in 
the contested areas are still high, and intermittent fighting 
between rival ethnic groups has had a deathly toll. So we hope 
that there will soon be peace to this largely contested and so 
battled area. I yield back.
    Chairman Berman. The time of the gentleman has expired. The 
gentlelady from California.
    Ms. Lee. Thank you very much, Mr. Chairman. I, too, want to 
congratulate and thank the gentlelady from Texas for offering 
this amendment and would like to request that I be added as a 
co-sponsor of the amendment.
    Chairman Berman. Without objection.
    Ms. Lee. Thank you, Mr. Chairman. Let me just say how 
important this is at this moment because we have seen, and many 
of us have visited the camps in Darfur on many occasions and 
have seen the desperation in the eyes of the people of Darfur.
    Hundreds of thousands of people have been killed, and 
millions of people have been displaced from their homes. We 
have got to turn the heat up now, and we have got to turn it up 
high.
    Oftentimes, and I have to commend Congressman Don Payne 
for, as I always say, being the lone voice in the wilderness, 
calling what it is what it is, and that is genocide and, 
finally, put the United States on the right side of history in 
declaring genocide.
    But also it is important that we do look at China and turn 
the heat up on China. I want to remind my colleague that we did 
pass a resolution, a couple of years ago, calling for China to 
join the world community to try to pressure and insist that the 
Sudanese Government end this genocide, and so we have to, I 
think, take it another step now, and I look forward to working 
with you on ways to do that.
    Finally, let me just say, yes, the Congressional Black 
Caucus has mounted our fast efforts, and I want to just commend 
Congressman Payne for dealing the charge. Yesterday, members of 
the Caucus committed to at least a 24-hour fast. I started mine 
last night, Congresswoman Jackson Lee will take over tonight, 
and I hope that members of this committee will understand the 
value of fasting and consider joining with us in this effort 
because we have to raise awareness with regard to what is 
taking place in Darfur.
    Again, young people in our country, the faith community, 
people have pulled together, but we still need to beat that 
drum much louder so that the world understands that the United 
States will not tolerate any more of this and will move very 
aggressively to end it.
    So thank you, Mr. Chairman, and thank you, Congresswoman 
Jackson Lee.
    Ms. Jackson Lee. Will the gentlelady yield?
    Ms. Lee. Yes, I will yield.
    Ms. Jackson Lee. Will the gentlelady yield? Let me just 
quickly say, Mr. Chairman, and I thank you, I want to thank the 
gentlelady for seeking to be a co-sponsor and just add my 
challenge to raising the ante and participating in the fast in 
a broad manner, as we are doing. Some of us have been arrested 
already and will probably try to do that in the future, but, in 
any event, I think it is very important, and I conclude by 
saying, if the humanitarian organizations have been evicted out 
of Sudan, it is a death knell that is one that we could not 
understand the horror that is forthcoming if these humanitarian 
organizations do not come in.
    The purpose of this sense of the resolution is to, again, 
heighten the emphasis of the United States that we are not 
going to abandon the people of Sudan or Darfur. I yield back to 
the gentlelady.
    Chairman Berman. The time of the gentlelady has expired.
    The question occurs on the Jackson Lee-Lee Amendment. All 
in favor, say aye.
    [A chorus of ayes.]
    Chairman Berman. All opposed, no. The ayes have it. The 
amendment is adopted. Are there any other amendments?
    Mr. Burton. Mr. Chairman?
    Chairman Berman. The gentleman from Indiana.
    Mr. Burton. Mr. Chairman, I have an Amendment No. 1 at the 
desk.
    Chairman Berman. The clerk will get a copy of the 
amendment, and then the clerk will----
    Mr. Burton. It is not going to be necessary for it to be 
handed up because I intend to withdraw the amendment. What I 
want to do is have a----
    Chairman Berman. Do not even bother handing it out.
    Mr. Burton. I wanted to have a colloquy with the chairman. 
First of all, in our previous discussion, that was a ``Sense of 
Congress'' amendment that was added to the ranking member's 
substitute, and I think you indicated that the cost was going 
to be above what was anticipated, and, as I understand it from 
the staff, the savings in the overall GOP substitute offsetted 
the Foreign Military Financing costs for Israel.
    Chairman Berman. Would the gentleman yield?
    Mr. Burton. Yes, sir.
    Chairman Berman. I think it is my fault. I think I muddled 
through what I was trying to say so poorly that you heard 
something I did not intend to say.
    Mr. Burton. Whatever, in any event, what I would like to 
do, Mr. Chairman, is ask that, when we get to the Foreign Aid 
Authorization bill, that the Foreign Military Financing that we 
have given to Israel in the past will be a part of that, and, 
if I get your commitment, then we will move on.
    Chairman Berman. You have my commitment, and you would have 
had it, even if you had not asked, and it is part of why I am 
here.
    Mr. Burton. Okay, Mr. Chairman. Thank you.
    Chairman Berman. I appreciate it very much. We will not 
count that as a minority-side amendment since it was not passed 
out.
    Mr. Burton. Well, if that is the case, I have another 
amendment at the desk, Mr. Chairman.
    Chairman Berman. Do you want to label the amendment at this 
time? Should it be passed out?
    Mr. Burton. Yes, it should be passed out, Mr. Chairman.
    [The amendment of Mr. Burton follows:]<greek-l>Burton 
Amendment to H.R. 2410 deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Burton. This amendment deals with showing strong 
support for United States-Israeli missile defense projects. 
United States-Israeli missile defense cooperation has presently 
been authorized and appropriated in the Defense Authorization 
and Appropriation bills. I understand that this is the State 
Department bill, but I did want to bring this up.
    Missile defense cooperation is generally not considered a 
form of direct aid, but many U.S. and Israeli observers 
consider it a vital component of the Israel's strategic 
relationship with the United States. Israel and the United 
States each financially contribute to several projects and 
share technology from co-developed weapons systems.
    This provision not only supports these goals but specifies 
support to co-development of long- and medium-range, 
antiballistic-missile defenses, as well as short-range 
projectile defenses.
    The ranking member mentioned, just a moment ago, when she 
was discussing the Republican substitute, that Iran just 
launched a missile that had a range of 1,200 miles, and, 
according to their defense minister, their Sajil II missile had 
pinpoint accuracy. That is very, very troubling.
    As we know, Iran is trying to develop a nuclear capability. 
Now we know they have a missile that has pinpoint accuracy that 
can reach Europe and Israel, and Ahmadinejad has said he wants 
to see Israel wiped off the face of the Earth, and I think it 
is extremely important that we send a very strong message by 
adopting this amendment to this bill that we strongly support a 
cooperative effort to make sure we have anti-ballistic-missile 
technology that Israel can use to knock down those missiles, if 
they are fired at Israel.
    Chairman Berman. The amendment is deemed as read, and I 
recognize myself for purposes of offering an amendment to the 
amendment and ask that it be considered, and I grant that it be 
considered. The clerk will read.
    [The amendment of Chairman Berman 
follows:]<greek-l>Amendment to H.R. 2410 by Mr. Berman deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Rush. Substitute amendment to H.R. 2410 offered by Mr. 
Berman to the amendment offered by Mr. Burton. ``Strike section 
1202 and insert the following: `Section 1202. Support to Israel 
for Missile Defense.' ''----
    Chairman Berman. The amendment should be considered as 
read, without objection, and I recognize myself on behalf of my 
substitute amendment.
    Like the gentleman, I am a very strong supporter of a 
variety of different programs that the United States is working 
with the Government of Israel, in terms of dealing with short-, 
intermediate-, and long-range missile defense.
    The substitute only changes two items. One, it removes 
language which would otherwise bring in the jurisdiction of 
other committees and conforms it to the jurisdiction of the 
committee; and, secondly, it eliminates reference to NATO 
because the words, ``deployment as soon as is technologically 
possible,'' when dealing with NATO, can be viewed as--I 
interpret that as a possible mandate on us to deploy something 
which, with a little bit of negotiations, for instance, in the 
context of what we are planning to do in Poland and the Czech 
Republic vis-a-vis Iran's missile threat, some discussions and 
negotiations with other parties, in this particular case--the 
Russians--can create a much broader base of support for 
effective missile defense. And I interpret your language as 
literally offered, and the inclusion of the NATO countries to 
perhaps limit and constrain the ability to do that, the 
substitute speaks to the issues that you addressed as you 
debated on behalf of your amendment.
    Ms. Ros-Lehtinen. If the gentleman would yield.
    Chairman Berman. I would be happy to yield.
    Ms. Ros-Lehtinen. Thank you, and I thank you for this 
substitute amendment to the Burton Amendment, and I 
congratulate Mr. Burton for always being an outspoken advocate 
for maintaining strong, positive ties with our greatest 
democratic ally in the Middle East, Israel, and doing 
everything that we can to ensure that she will always have the 
qualitative military edge and gets the protection that she 
needs, and this missile defense issue is of great importance.
    So I am sure that Mr. Burton understands the corrections to 
his amendment that get to the very heart of what Mr. Burton 
seeks to do.
    Mr. Burton. Thank you for so eloquently stating my 
position. I agree.
    Chairman Berman. And I agree with your eloquent statement 
of his position, and if we can go to the vote on the substitute 
amendment; all of those in favor, say aye.
    [A chorus of ayes.]
    Chairman Berman. All opposed, no. The ayes have it. The 
substitute amendment is adopted.
    The question is now on the amendment, as amended. All of 
those in favor, say aye.
    [A chorus of ayes.]
    Chairman Berman. All opposed, no. The ayes have it, and the 
amendment is adopted.
    The gentleman from South Carolina.
    Mr. Wilson. Mr. Chairman, I have an amendment at the desk.
    Chairman Berman. The clerk will read.
    Mr. Wilson. And while it is being handed out, Mr. Chairman, 
I will proceed. The current bill under consideration----
    Chairman Berman. Let us wait.
    Mr. Wilson. It is so brief, you are going to love it.
    Chairman Berman. In that case, we will dispense, by 
unanimous consent, with the reading. The gentleman is 
recognized for 5 minutes.
    [The amendment of Mr. Wilson follows:]<greek-l>Amendment to 
H.R. 2410 by Wilson deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Wilson. Thank you, Mr. Chairman. The current bill under 
consideration today adds 2,200 new Foreign Service Officer 
positions--that is over 2 years--for the State Department and 
the U.S. Agency for International Development, many to work in 
failed, failing, or at-risk states.
    The bill states that a potential's higher experience in war 
zones ``may be considered an affirmative factor in making such 
appointments.''
    My amendment is a technical amendment. It turns ``may'' 
into ``shall,'' and it provides that applicants who served in 
the armed services fall into this category, which, obviously, I 
would interpret to be veterans.
    Without this amendment, it would seem that these agencies 
will not get the veterans they need. The U.S. Agency for 
International Development's low, 5-percent veteran-hiring rate 
is evidence that we need a change, and this has been indicated 
by a report from the Congressional Research Service.
    USAID and the State Department do give a preference to 
veterans, as do all U.S. Government agencies, but it is not 
big, five points on a 100-point scale. As a result, USAID has a 
mere 5.2 percent of new hires in Fiscal Year 2007 as veterans. 
This is far below the government average of 23 percent.
    I know the State Department and USAID would benefit from 
having many more veterans and the skills and experiences they 
have, and I would specifically point out that, from the Office 
of Personnel Management, which was provided by the CRS, that, 
in the last 7 years, the number of Federal employees who have a 
background as veterans has increased from 17.4 percent to 22.9 
percent, but, sadly, with USAID, which is a great agency, there 
has been a reduction in veteran hires, from 9.9 percent to 5.2 
percent, and so I believe this amendment would be helpful.
    This bill stresses----
    Chairman Berman. Would the gentleman yield?
    Mr. Wilson. Yes.
    Chairman Berman. I appreciate the gentleman yielding.
    The gentleman seeks to cover this program for hiring of 
people with experience in areas of great instability to create 
a veterans' preference.
    The chair agrees with the gentleman's intent. The chair is 
advised that because of the technical way this is drafted, this 
may undermine the general veterans' preference. The chair 
pledges to work with the gentleman, between now and the time 
that this comes to the floor, to see if he agrees with our 
conclusion about the way it is crafted, and, if he does, to 
work with him to provide language which achieves his purpose 
but without undermining the existing veterans.
    Mr. Wilson. Mr. Chairman, thank you, and, with that said, I 
will withdraw the amendment.
    I do want to point out that our veterans and persons 
serving overseas do have such experience that can be positive.
    Chairman Berman. It makes perfect sense.
    Mr. Wilson. I have seen humanitarian efforts in Iraq to 
provide potable water, schools, backpacks, health clinics, and, 
in Pakistan, I was honored to participate and observe in the 
providing of earthquake relief in Pakistan.
    So, with your statements, and, again, I appreciate your 
enthusiasm for it, and withdraw the amendment.
    Chairman Berman. I appreciate the gentleman's action to 
withdraw his amendment, and, by unanimous consent, the 
amendment is withdrawn.
    Should we see what the next amendment is and, at least, 
have it pending before the vote? The gentleman from Arizona; 
for what purpose does he rise or sit?
    Mr. Flake. I have an amendment at the desk.
    Chairman Berman. The clerk will distribute and read the 
amendment.
    [The amendment of Mr. Flake follows:]<greek-l>Flake 
Amendment to H.R. 2410 deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Rush. Amendment to H.R. 2410 offered by Mr. Flake of 
Arizona. ``At the end of subtitle A of title XI of the bill, 
add the following new section: `Section 1115. Rule of 
Construction. Nothing in the legislative history of this Act 
shall be construed to modify or otherwise affect the 
implementation of any provision of this Act that authorizes 
appropriations for any foreign assistance program, project, or 
activity.' ''
    Mr. Flake. Thank you, Mr. Chairman.
    Chairman Berman. I think what we will do now, if it is 
okay, is--this amendment is pending. The gentleman from Arizona 
will be the first person recognized when we come back.
    We have three votes. It is the intention of the chair to 
continue the markup after those votes and to get through as 
many additional amendments as we can before a vote, which we 
expect in about 1 hour, 1\1/2\ hours, after these three votes, 
and, with that, the committee is now recessed.
    [Whereupon, at 12:11 p.m., a recess was taken.]
    Chairman Berman. The committee will come to order. The 
gentleman from Arizona, Mr. Flake's, amendment regarding report 
language affecting Foreign Assistance Act authorizations is 
pending. The gentleman from Arizona is recognized for 5 minutes 
to speak on his amendment.
    Mr. Flake. I thank the chairman.
    This amendment, the intent is to go at soft earmarks that 
are sometimes included in conference reports that accompany an 
authorization bill.
    I had a discussion with the chairman on the floor just now, 
and he noted that the big problem here is on appropriation 
bills. I will concede that. That is where most of the soft 
earmarks occur, in committee reports that accompany 
appropriation bills, but it has also been a problem, in the 
past, on authorization bills like this one.
    For example, language in the committee report for the last 
State Authorization bill, and this was approved in 2005, reads: 
``The committee encourages the Agency for International 
Development and other government agencies to consider 
sympathetically such applications as the Asian University for 
Women in Bangladesh or consider applications that they may make 
for additional assistance.''
    Now, this language was not included in the text of the 
bill, and, as a result, it was never able to be challenged on 
the House floor or anywhere else, and the problem with 
committee language is you cannot get at it or challenge it. It 
is typically put in in relative secrecy, and there is no 
ability to actually strike at it.
    So I think that we do need to do something about this. I 
concede that this is mostly a problem with the appropriation 
bill, but we have had examples in the past where it has been 
a<greek-l>n deg. problem with the authorization bill as well, 
and, with that, you can yield back, and we will have a 
discussion, or I will yield time to the chairman.
    Chairman Berman. Well, if it is all right with the 
gentleman, he could yield back his time, and I will just 
recognize myself, and then if you want to----
    Mr. Flake. Well, let me just say, I do want to work with 
the chairman on this, and I take his point that there is no 
intent on this committee, under this leadership, to include 
these kinds of soft earmarks in authorization bills like this 
one, but, like I said, I do have examples where it has happened 
in the past.
    If the chairman will commit that he will not allow soft 
earmarks in the committee report accompanying this 
authorization, then I am happy to withdraw, but, if not----
    Chairman Berman. Okay.
    Mr. Flake [continuing]. I feel that we need the language.
    Chairman Berman. Will the gentleman yield?
    Mr. Flake. Yes, I will yield.
    Chairman Berman. I will commit that that kind of a soft 
earmark, none of which--there is no report yet, but we have no 
intention of doing anything like that in the report on this 
bill. I will commit to the gentleman to make sure we do nothing 
like that in the report on this bill. That commitment, I am 
prepared to give.
    The problem with your language, and you have given me a 
good example of sort of a mush earmark, now, the fact is, if 
the chairman of this committee had any clout--which is a fact 
that is arguable, at best--he could not have that language 
about whatever university that was in Bangladesh, I think, and 
he would call the director of USAID or something, and he would 
say, ``I want some of this money to go there.''
    So there is a limitation on what your amendment would do, 
but your amendment is crafted much broader than that, and we 
have a great example from this morning's discussion. The 
gentleman from New Jersey, Mr. Smith, in the context of certain 
language, made a good point. Would language regarding the 
dealing with tracking of violence and criminalization against a 
certain class of people force someone to do something that 
violated their moral or religious precepts? And I indicated 
that the committee report language will make it clear that we 
do not intend for that provision to be construed to allow that 
to happen.
    That is what report language generally does. It helps to 
elaborate, to create, to deal with some hypothetical issues 
that might be raised in a debate, like that one was, and tries 
to clarify it.
    Your bill, your amendment, goes far beyond just the earmark 
question because it talks about the entire legislative history, 
and it is a fundamental attack on the report writers of the 
world.
    Mr. Flake. If the gentleman would yield.
    Chairman Berman. I would be happy to.
    Mr. Flake. I have no intention to attack the chairman in 
his commitment to ensure that no soft earmarks, no funding 
earmarks, like this will be contained in the committee report, 
and I ask unanimous consent to withdraw the amendment.
    Chairman Berman. Without objection, the amendment is 
withdrawn. Who else seeks recognition?
    Mr. Smith of New Jersey. Mr. Chairman, I have an amendment 
at the desk.
    Chairman Berman. The gentleman from New Jersey is 
recognized.
    The clerk will distribute the amendment. The word is coming 
back that we do not have an amendment, but this may be it now.
    [The amendment of Mr. Smith of New Jersey 
follows:]<greek-l>Amendment H.R. 2410--C. Smith deg.
      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Rush. Amendment to H.R. 2410 offered by Mr. Smith of 
New Jersey. ``Page 130, beginning line 9, strike section 334 
and insert the following: `Section 334. Office for Global 
Women's Issues. (a) Establish' ''----
    Mr. Smith of New Jersey. Mr. Chairman, I ask unanimous 
consent that the amendment be considered as read.
    Chairman Berman. Without objection, the amendment is deemed 
read, and the gentleman is recognized for 5 minutes.
    Mr. Smith of New Jersey. Mr. Chairman, my amendment 
authorizes an Office for Women's Issues led by an ambassador-
at-large designed to coordinate and advise on activities, 
policies, programs, and funding related to women's empowerment 
internationally.
    The office would promote activities designed to expand 
educational opportunities and job training for women, push 
equal pay for equal work for women, push microfinancing and 
micro-enterprise programs for women, push property and 
inheritance rights for women, improve maternal health and 
expand pregnancy care centers, combat forced abortions, forced 
sterilization, sex and labor trafficking, and other forms of 
violence against women, seek an end to genital mutilation, stop 
child marriage, and promote changes in male attitudes and 
behavior that are detrimental to women.
    Consistent with a core, human rights norm that all human 
life is precious and sacred and worthy of protection, 
regardless of age, sex, race, color, creed, disability, 
wontedness, or condition of dependency, my amendment seeks to 
protect unborn children and their mothers from the violence of 
abortion.
    Dr. Alveda King, niece of the late Dr. Martin Luther King, 
Jr. has had two abortions but now, boldly and compassionately, 
she speaks out for both victims, mother and baby. She is part 
of a group of courageous, post-abortive women called the 
``Silent No More Campaign'' and works tirelessly to help women 
deal with the emotional pain and find peace and a sense of 
reconciliation following an abortion.
    In discussing her late uncle, Dr. Martin Luther King, Jr.'s 
remarkable dream of inclusion and justice, Alveda King recently 
said in a speech, ``How can the dream of my uncle survive if we 
murder the children?'' The niece of the late Dr. Martin Luther 
King, Jr. says, ``Protection of the unborn is the civil rights 
issue of our time.'' Her words ought not to be dismissed 
lightly.
    Mr. Chairman, it is absolutely imperative that women never 
be regarded or reduced to the status of objects or second-class 
citizens. The same is true, I would respectfully submit to my 
colleagues, of unborn children. They are human, they are alive, 
they are not objects or throw-aways, and, today, like never 
before, they are in need of friends.
    Abortion is child abuse. Abortion methods dismember, 
chemically poison, starve to death, suction to death, or 
puncture to death, with ultra-sharp, surgical knives, the 
fragile bodies of young girls and boys. Human rights, 
especially the right to life, must be for all, including, and 
especially, the weakest and the most vulnerable.
    Sex-selection abortion kills millions of baby girls around 
the world, singled out for destruction simply because they are 
girls. Like genocide, gendercide is based on extreme prejudice 
enabled by indifference.
    As part of a humane and consistent agenda for women, the 
Office of Global Women's Issues ought to be the first in line 
in affirming the inherent value and dignity of mothers and 
their babies, both before, as well as after, birth.
    Like newborns, unborn babies are a class of human beings 
that need care, nurturing, love, and, as the littlest patients 
of all, medical interventions designed to mitigate disability 
or disease.
    The Preamble of the U.N. Convention on the Rights of the 
Child states, and I quote, ``The child, by reason of his or her 
physical and mental immaturity, needs special safeguards and 
care, including appropriate legal protection before, as well as 
after, birth.''
    Abortion is the antithesis of protection. It is the 
abandonment of both mother and child. If abortion is promoted 
by the Office for Global Women's Issues, it will profoundly 
undermine both the message and the mission of what would 
otherwise be a truly noble initiative. My amendment seeks to 
ensure that that will not be the case. I yield back the balance 
of my time.
    Ms. Woolsey. Mr. Chairman?
    Chairman Berman. For what purpose does the gentlelady from 
California seek recognition?
    Ms. Woolsey. I would like to respond to Mr. Smith.
    Chairman Berman. By striking the last word? The gentlelady 
is recognized for 5 minutes.
    Ms. Woolsey. Thank you very much. Mr. Chairman and Mr. 
Smith, I strongly oppose this amendment, and I urge my 
colleagues to vote against it.
    I want to express my respect for you, Representative Smith, 
and say that I believe this is a good-faith effort, on your 
part, to do the right thing, but this amendment is the wrong 
thing to do. Given that family planning actually prevents 
abortion, it should be one of the things that all of us support 
in every way we can.
    I wish my colleague from New Jersey could truly appreciate 
how essential family planning and reproductive healthcare is to 
women in developing countries and, perhaps more importantly, 
how essential family planning is to their families and to their 
nations.
    Mr. Smith of New Jersey. Would my good friend yield on that 
point, just very briefly?
    Ms. Woolsey. Briefly.
    Mr. Smith of New Jersey. There is nothing in this amendment 
that refers to planning family; this only deals with abortion.
    Ms. Woolsey. Right, but, by assuming abortion and not 
supporting family planning in the past, we have ended up where 
we are, with women in Tanzania, where I visited just about a 
month ago, having death and dissemination of their families 
because they could not plan for their families because of what 
has come out of this committee in the past.
    Women play a critical role in driving economic development 
throughout the world, and reducing the rate of maternal 
mortality is essential for driving broad-based, economic 
growth.
    So the new Office of Global Women's Issues is mandated not 
only to promote gender integration and women's empowerment 
internationally for all U.S. programs, but the ambassador is to 
play a leadership role, internationally, in all matters 
relevant to women. That is why the Office of Global Women's 
Issues is so important to us, and by narrowing the mandate of 
this office, we will only detract from our effort to improve 
the status of women around the world.
    So I urge my colleagues to oppose the Smith Amendment. I 
yield back.
    Chairman Berman. Has the gentlelady yielded back her time?
    Ms. Woolsey. I have.
    Chairman Berman. All right. Is there a speaker here on this 
amendment? Mr. Inglis?
    Mr. Inglis. Mr. Chairman, I have a perfecting amendment at 
the desk.
    Chairman Berman. Perfecting?
    Mr. Inglis. Yes.
    Chairman Berman. You are recognized. The clerk will 
distribute the perfecting amendment.
    Mr. Inglis. Mr. Chairman, this is an amendment to----
    Chairman Berman. First, the clerk should read the 
amendment.
    [The amendment of Mr. Inglis follows:]<greek-l>Inglis 
Amendment to the Amendment of Mr. Smith deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Rush. Amendment by Mr. Inglis, amendment to the 
amendment offered by Mr. Smith of New Jersey. ``In Section 
334(c)(B) insert new [Subsection] (iii) and renumber 
accordingly. `[Subsection] (iii): Increase women's 
participation in political processes at the local, national, 
and international levels, including representation in governing 
bodies;' ''
    Chairman Berman. The gentleman is recognized on his 
amendment.
    Mr. Inglis. Thank you, Mr. Chairman. First of all, of 
course, I am very much in support of what Mr. Smith is doing 
here, and I simply seek to add another section that would 
instruct our State Department personnel to spend time doing 
what they may already be doing, but we want to encourage them, 
in the form of a statute, to increase women's participation in 
the political process and increase that representation in 
governing bodies.
    It is very important for us to export concepts of human 
rights and dignity, and, of course, it is important, in that 
connection, to stress the significance of women's participation 
because we all know that, in our own country, we have had a 
problem with that, and elsewhere around the world there is a 
substantial problem with recognizing the full participation of 
women in the political process.
    So I am very much in support of both what Mr. Smith is 
doing here because of the importance of the issues that he is 
raising as to the dignity of women around the world, and then I 
would suggest to the committee that we add this section about 
women's participation in the political process, and, with that, 
I would be happy to yield to the gentleman from New Jersey, if 
he would like to comment on this.
    Mr. Smith of New Jersey. I thank you for the amendment. I 
think it is a strengthening amendment. As we saw when the women 
parliamentarians from Pakistan visited earlier, women's 
participation in the political process is essential. So you do 
nothing but strengthen it, so I appreciate it.
    Mr. Inglis. Thank you, Mr. Chairman. I yield back.
    Chairman Berman. The gentleman's time has expired.
    Ms. Woolsey. Mr. Chairman?
    Chairman Berman. Yes. The gentlelady from California on the 
perfecting amendment.
    Ms. Woolsey. I move to strike the last word.
    Chairman Berman. The gentlelady is recognized.
    Ms. Woolsey. I would just like to comment that Mr. Inglis's 
amendment certainly is a good addition, but this amendment 
continues to restrict women's access to full reproduction 
options and should be voted against. I yield back.
    Chairman Berman. The question is on the Inglis Perfecting 
Amendment to the Smith Amendment. All of those in favor, say 
aye.
    [A chorus of ayes.]
    Chairman Berman. Opposed? The ayes have it. The perfecting 
amendment is adopted.
    On the Smith Amendment, as amended, I recognize myself and 
yield myself 5 minutes.
    If I cannot persuade the gentleman to withdraw this 
amendment now, I am going to have to ask for a ``no'' vote. I 
say that reluctantly, but I will explain why I come down that 
way.
    First of all, I have just seen the amendment. The amendment 
is very prescriptive, not that there is anything wrong with 
that, but there are a lot of things in there, and if you are 
going to have a prescriptive list of things you want that 
office to do, I can think of some prescriptive things that, if 
we are going to define it with a prescriptive list of things to 
do, we should think about whether a balanced approach would be 
to add some additional things.
    So what occurs to me as I first look at this is that it 
talks about ``eliminate family planning practices, including 
coercive abortion and sterilization.'' I agree with that 
completely, but maybe there should be something in there that 
calls on that office to promote noncoercive methods and choices 
of family planning alternatives to abortion that might be 
desperately needed and wanted in countries with peoples who are 
receiving our foreign assistance work and that the office is 
working on.
    So, putting in a list of a number of detailed things which 
we have not had a chance to see if it has gaps in, I think, is 
a mistake.
    Secondly, I just want to remind everyone that, right now, 
existing law says the Siljander Amendment of 1981, part of the 
Foreign Ops Appropriations Act of 2009--and it will continue to 
be--says: ``None of the funds made available under this Act may 
be used to lobby for or against abortion.''
    A more balanced way of saying the same thing is what the 
gentleman from New Jersey is driving at. The Leahy Amendment 
serves to clarify the term ``motivate.'' Under the Helms 
Amendment, the Helms Amendment says: ``None of the funds made 
available under this Act''--this was since 1973, again, part of 
the Foreign Operations Appropriations--``may be used to pay for 
the performance of abortion as a method of family planning or 
to motivate or coerce any person to practice abortions.''
    The Leahy Amendment clarifies the term ``motivate,'' as it 
relates to family planning assistance, ``shall not be construed 
to prohibit the provision, consistent with local law, of 
information and counseling about all pregnancy options.''
    We have a layer of provisions and laws already, and my 
third point is, this office, while it has some general 
obligations, its primary function right now is dealing with the 
women of Iraq and the women of Afghanistan<greek-l>, deg. who 
have suffered tremendously by virtue of what has gone in those 
two countries, and that is their emphasis now.
    Now, all of a sudden, we are imposing a whole series of 
prescriptive duties on them that they may not be staffed and 
ready to accept.
    So it is not, at first blush, anything you have in your 
<greek-l>bill,  deg.amendment<greek-l>, deg. that bothers me; 
it is what is not in the amendment, the lack of time I have to 
get the full picture, and, for that reason, I reluctantly--
well, I ask for the gentleman to withdraw his amendment for now 
to see if we can work through this process, understanding what 
he is going after, to see if we can come up with something 
before we go to the floor, or, in the alternative, I ask my 
colleagues to vote against the amendment.
    My time has expired. The gentleman from California, Mr. 
Rohrabacher.
    Mr. Rohrabacher. Yes. I yield my time to Mr. Smith.
    Mr. Smith of New Jersey. I appreciate my friend for 
yielding.
    With all due respect to the distinguished chairman, and I 
have an enormous amount of respect for Mr. Berman, I would ask 
that we do have a vote on this. We can continue to work on the 
language.
    As I said to the distinguished gentlelady from California, 
nothing whatsoever in this precludes family planning being 
promoted. We know it will be promoted.
    My concern is that so many things, like safe blood--I held 
a hearing in this room when we were in control of the House, 
and I chaired the Africa and Global Human Rights Subcommittee, 
and we heard from the World Health Organization that if women 
had access to safe blood, 44 percent of maternal mortality 
disappears.
    So we have done some good things in that area, but I think, 
as an advocacy group, we do not expect that all of this will be 
done overnight by the Global Office. These are strongly held 
beliefs, I think, on both sides of the aisle, and these are the 
kinds of things that we want them to do.
    The ultimate consensus breaker is abortion, and the hope is 
that we will see our way clear to say, ``Let us have a foreign 
policy that is not promoting abortion.''
    As you said, the Siljander Amendment clearly states that, 
but does that apply to the Global Office. It is unclear.
    Chairman Berman. It applies to any of the monies 
appropriated to the State Department.
    Mr. Smith of New Jersey. So this just makes it clear, in 
this piece of legislation.
    I would urge my colleagues to join me in voting for this. I 
yield back.
    Mr. Rohrabacher. I yield back the balance of my time.
    Chairman Berman. The gentleman from Virginia, Mr. Connolly.
    Mr. Connolly. I thank the chair.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Connolly. You know, Mr. Chairman, I was the youngest 
member of the U.S. delegation to the first World Population 
Conference in Bucharest, Romania, in 1974.
    Chairman Berman. You were not even that young then.
    Mr. Connolly. I was, believe it or not--I did not have any 
gray hair, that is right--appointed by the Nixon 
administration, and, you know, this debate is an important one, 
and I know that my colleague from New Jersey is sincere in 
wanting to express his values, but the notion that somehow the 
United States promotes abortion overseas is itself fallacious. 
It is a false premise. I have never known the United States 
Government to do that.
    We have legislated on this issue for decades, and while it 
may make some sense for some people, in terms of making 
political points with certain parts of their constituencies, I 
do not know that it makes sense in terms of overall U.S. 
foreign policy.
    Now, we need to be concerned about the health of women. We 
need to be concerned about the spacing of children and the 
morbidity and mortality rates of children, in terms of child 
survival rates. That is what we need to be focused on.
    I have no reason to believe, nor does anyone on this 
committee, frankly, that somehow Secretary Clinton's Office of 
Women and Global Affairs would somehow promote something that, 
as you point out, Mr. Chairman, is already prohibited and 
prescribed by law. This amendment is designed to make a point, 
and it is a point, I think, that is not necessary at this time, 
and it actually could prove injurious to United States' foreign 
policy interests.
    I join with the chairman, reluctantly, in urging my 
colleagues to vote no.
    Mr. Connolly. I will yield back the balance of my time.
    Chairman Berman. Okay. The previous question has been moved 
by the ranking member. Debate is closed. We will now vote on 
the Smith Amendment, as amended. All of those in favor, say 
aye.
    [A chorus of ayes.]
    Chairman Berman. All opposed, say no. No. The noes have it.
    Mr. Smith of New Jersey. Mr. Chairman, can I request a 
recorded vote?
    Chairman Berman. A recorded vote has been requested. The 
clerk will call the roll.
    Ms. Rush. Chairman Berman?
    Chairman Berman. No.
    Ms. Rush. The chairman votes no. Mr. Ackerman?
    [No response.]
    Ms. Rush. Mr. Faleomavaega?
    Mr. Faleomavaega. No.
    Ms. Rush. Mr. Faleomavaega votes no. Mr. Payne?
    [No response.]
    Ms. Rush. Mr. Sherman?
    Mr. Sherman. No.
    Ms. Rush. Mr. Sherman votes no. Mr. Wexler?
    [No response.]
    Ms. Rush. Mr. Engel?
    Mr. Engel. No.
    Ms. Rush. Mr. Engel votes no. Mr. Delahunt?
    Mr. Delahunt. No.
    Ms. Rush. Mr. Delahunt votes no. Mr. Meeks?
    [No response.]
    Ms. Rush. Ms. Watson?
    [No response.]
    Ms. Rush. Mr. Carnahan?
    Mr. Carnahan. No.
    Ms. Rush. Mr. Carnahan votes no. Mr. Sires?
    Mr. Sires. No.
    Ms. Rush. Mr. Sires votes no. Mr. Connolly?
    Mr. Connolly. No.
    Ms. Rush. Mr. Connolly votes no. Mr. McMahon?
    Mr. McMahon. No.
    Ms. Rush. Mr. McMahon votes no. Mr. Tanner?
    Mr. Tanner. No.
    Ms. Rush. Mr. Tanner votes no. Mr. Green?
    [No response.]
    Ms. Rush. Ms. Woolsey?
    Ms. Woolsey. No.
    Ms. Rush. Ms. Woolsey votes no. Ms. Jackson Lee?
    [No response.]
    Ms. Rush. Ms. Lee?
    [No response.]
    Ms. Rush. Ms. Berkley?
    Ms. Berkley. No.
    Ms. Rush. Ms. Berkley votes no. Mr. Crowley?
    Mr. Crowley. No.
    Ms. Rush. Mr. Crowley votes no. Mr. Ross?
    [No response.]
    Ms. Rush. Mr. Miller?
    Mr. Miller. No.
    Ms. Rush. Mr. Miller votes no. Mr. Scott?
    Mr. Scott. No.
    Ms. Rush. Mr. Scott votes no. Mr. Costa?
    [No response.]
    Ms. Rush. Mr. Ellison?
    [No response.]
    Ms. Rush. Ms. Giffords?
    Ms. Giffords. No.
    Ms. Rush. Ms. Giffords votes no. Mr. Klein?
    [No response.]
    Ms. Rush. Ms. Ros-Lehtinen?
    Ms. Ros-Lehtinen. Yes.
    Ms. Rush. Ms. Ros-Lehtinen votes yes. Mr. Smith?
    Mr. Smith of New Jersey. Mr. Smith votes yes. Mr. Burton?
    Mr. Burton. Yes.
    Ms. Rush. Mr. Burton votes yes. Mr. Gallegly?
    Mr. Gallegly. Aye.
    Ms. Rush. Mr. Gallegly votes yes. Mr. Rohrabacher?
    Mr. Rohrabacher. Yes.
    Ms. Rush. Mr. Rohrabacher votes yes. Mr. Manzullo?
    [No response.]
    Ms. Rush. Mr. Royce?
    Mr. Royce. Yes.
    Ms. Rush. Mr. Royce votes yes. Mr. Paul?
    [No response.]
    Ms. Rush. Mr. Flake?
    Mr. Flake. Yes.
    Ms. Rush. Mr. Flake votes yes. Mr. Pence?
    Mr. Pence. Yes.
    Ms. Rush. Mr. Pence votes yes. Mr. Wilson?
    Mr. Wilson. Yes.
    Ms. Rush. Mr. Wilson votes yes. Mr. Boozman?
    Mr. Boozman. Yes.
    Ms. Rush. Mr. Boozman votes yes. Mr. Barrett?
    [No response.]
    Ms. Rush. Mr. Mack?
    Mr. Mack. Yes.
    Ms. Rush. Mr. Mack votes yes. Mr. Fortenberry?
    Mr. Fortenberry. Yes.
    Ms. Rush. Mr. Fortenberry votes yes. Mr. McCaul?
    Mr. McCaul. Yes.
    Ms. Rush. Mr. McCaul votes yes. Mr. Poe?
    Mr. Poe. Yes.
    Ms. Rush. Mr. Poe votes yes. Mr. Inglis?
    Mr. Inglis. Yes.
    Ms. Rush. Mr. Inglis votes yes. Mr. Bilirakis?
    Mr. Bilirakis. Yes.
    Ms. Rush. Mr. Bilirakis votes yes.
    Chairman Berman. Are there other members who wish to be 
recorded? The gentlelady from California, Ms. Lee.
    Ms. Lee. No.
    Ms. Rush. Ms. Lee votes no.
    Chairman Berman. The gentleman from Florida.
    Mr. Wexler. No.
    Ms. Rush. Mr. Wexler votes no.
    Chairman Berman. The gentleman from New Jersey.
    Mr. Payne. No.
    Ms. Rush. Mr. Payne votes no.
    Chairman Berman. The gentleman from New York.
    Mr. Meeks. No.
    Ms. Rush. Mr. Meeks votes no.
    Chairman Berman. The gentleman from Florida.
    Mr. Klein. No.
    Ms. Rush. Mr. Klein votes no.
    Chairman Berman. The gentleman from New York, Mr. Ackerman.
    Mr. Ackerman. No.
    Ms. Rush. Mr. Ackerman votes no.
    Chairman Berman. Mr. Manzullo.
    Mr. Manzullo. Yes.
    Ms. Rush. Mr. Manzullo votes yes.
    Chairman Berman. Is there anyone else who wishes to be 
recorded? If not, the clerk will tally. Mr. Mack?
    Ms. Rush. No. He voted.
    Chairman Berman. He already voted. All right. The clerk is 
tallying the vote.
    [Pause.]
    Chairman Berman. Mr. Crowley?
    Ms. Rush. He voted.
    Chairman Berman. Okay. That is it. The polls are closed.
    Ms. Rush. On this vote, there are 17 ayes and 22 noes.
    Chairman Berman. The amendment, as amended, is not agreed 
to.
    Mr. Royce. Mr. Chairman?
    Chairman Berman. The gentleman from California, Mr. Royce.
    Mr. Royce. Thank you, Mr. Chairman. I have an amendment at 
the desk.
    Chairman Berman. The gentleman from California, Mr. 
Gallegly. You are next.
    Mr. Royce. I have an amendment at the desk, Mr. Chairman.
    Chairman Berman. The clerk will distribute.
    [The amendment of Mr. Royce follows:]<greek-l>Amendment 
Foreign Relations Authorization...--Royce deg.
      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Rush. Amendment to Foreign Relations Authorization Act, 
Fiscal Years 2010 and 2011, offered by Mr. Royce of California. 
``At the appropriate place, insert the following new section: 
`Section blank. Sense of Congress on Restrictions' ''----
    Chairman Berman. Without objection, the amendment will be 
deemed read.
    The gentleman from California is recognized for 5 minutes 
on his amendment.
    Mr. Royce. Thank you, Mr. Chairman. A number of us, on both 
sides of the aisle, are members of the Human Rights Caucus, and 
I bring this resolution up for a particular reason.
    There is a problem for the Buddhist Church in Vietnam, and, 
over the years, we have had this issue of the countries of 
particular concern, the list that allows us to apply some 
leverage in order to try to obtain the right kind of conduct, 
whether it is in Burma or Saudi Arabia. Vietnam was on that 
list and was taken off a few years ago, but, colleagues, Human 
Rights Watch said that they have commenced the worst crackdown 
on human rights in 20 years, and I just want to share this with 
you.
    I had an opportunity, in the past, to visit some of those 
dissidents, some of those Buddhist monks, in prison. One was 
Thich Quang Do, who is serving 33 years. Another who was under 
house arrest was Le Quang Liem.
    When you meet with someone, and, subsequently, they have 
their head bashed in by the state because they attempt to go to 
a religious ceremony for their prophet's birthday, I just want 
to read you the press account.

          ``Mr. Trung Van Duk was clubbed to death on site. His 
        body is kept at the Phu Tan District Prison. As for Mr. 
        Le Quang Liem, he suffered several major blows to the 
        head and shoulders. Fellow Hoa Hao Buddhists came to 
        his aid, quickly carried him to the gates of the Thu 
        Than City. Three thousand Hoa Hao Buddhists surrounded 
        the gates to protect him. The policeman pursuing Mr. Le 
        Quang Liem ruthlessly clubbed and beat the Hoa Hao 
        Buddhists surrounding the gates of the city.''

    Now, we have Protestant leader Ben Hdok, this year, who was 
also beaten to death. This is a photograph from the Human 
Rights Report of Pastor Nguyen Kon Chin beaten over 20 times. 
This is his latest beating, July 12, 2008. His church was 
bulldozed twice.
    The point I am trying to make here is that when Human 
Rights Watch gives us the hard evidence, in terms of the 
crackdown that occurred this year, and it is across the board, 
we must act. The church that has the greatest problem, I think, 
are the Buddhists because, as Le Quang Liem showed me, the 
sacred texts are not acceptable to the party, so the party has 
rewritten them to about 30 percent of what used to be in the 
document and changed the document. This is why the head of the 
Unified Buddhist Church, Thich Quang Do, and why Le Quang Liem 
cannot convert to the party's interpretation for their religion 
as Buddhists.
    Now, the bottom line is that the State Department is going 
to do what it wants to do. We cannot compel Vietnam's 
inclusion, but we can use our judgment and express our view 
that the Vietnamese harassment of religious believers here is 
over the top.
    So this is what I really recommend to all of you. For those 
of us who are members of the Human Rights Caucus, we have had 
hearings on this, we have heard in detail all that has 
happened, also to the Catholic Church at Thai Ha and to the 
parishioners there, how they have been beaten. I just think it 
is time, in a bipartisan way, we go on record in this body to, 
at least, express to the Vietnamese Government that someone is 
paying attention, just like we do to Burma and just like we do 
to the Saudis and so forth.
    I will reserve the balance of my time, Mr. Chairman.
    Chairman Berman. You cannot reserve it, but you can get one 
of your friends to yield.
    Mr. Royce. Then let me explain one other point. The fact 
that Vietnam was put on the list shows how bad things were, 
and, for a while, that served to create some leverage, but now, 
as Human Rights Watch has told us, we have lost any leverage, 
and the U.S. Commission on International Religious Freedom, 
which is the custodian of this list, to begin with, now 
recommends that Vietnam be relisted, our own U.S. Commission on 
Religious Freedom. Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired. The 
gentlemen from America Samoa; for what purpose do you seek 
recognition?
    Mr. Faleomavaega. I move to strike the last word.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Faleomavaega. Mr. Chairman, I have the utmost respect 
for my colleague and friend from California, Mr. Royce, and I 
also am a member of the Human Rights Caucus, and I want to 
include, for the record, Mr. Chairman, the letter that was 
received from Vietnam's Ambassador to the United States in 
opposition to the Royce Amendment.
    Chairman Berman. Without objection, that letter from the 
ambassador will be included.
    Mr. Faleomavaega. I also want to include the State 
Department's response to the amendment.
    Chairman Berman. I am sorry?
    Mr. Faleomavaega. The State Department.
    Chairman Berman. They have sent a communication on this 
issue.
    Mr. Faleomavaega. Yes.
    Chairman Berman. Having seen neither, we will include both.
    Mr. Faleomavaega. Okay. Mr. Chairman, the State Department 
continues to list Vietnam as a country of particular concern 
with respect to religious freedom. This is what the amendment 
calls for:

        ``Vietnam was placed on a Country of Particular Concern 
        list in 2004, and, in 2006, under the Bush 
        administration, the U.S. Department of State took 
        Vietnam off of the CPC list because it no longer fit 
        the criteria of a severe violator under the 
        International Religious Freedom Act.''

    While I agree with my friend from California that problems 
remain in Vietnam, and while I am aware that the U.S. 
Commission on International Religious Freedom would like to see 
Vietnam put back on the list, the Commission on International 
Religious Freedom also recognizes some positive developments, 
as does the U.S. Department of State.
    According to the State Department, Vietnam has addressed 
the central violations put forward in the Royce Amendment and 
has instituted policies and practices to protect religious 
freedom.
    According to the statement from the State Department, and I 
quote,

        ``All prisoners of faith that were on our list in 2004 
        have been released. There have been only isolated cases 
        of renunciation in the past year. Almost all of the 
        places of worship that were shut down prior to 2004 
        have been reopened, new churches and religious 
        denominations continue to be recognized, religious 
        texts are now printed and distributed to several ethnic 
        minority languages, and many thousands of believers are 
        able to practice their faith without harassment.''

    The reference that my good friend's amendment makes to the 
Catholic Church was a land dispute and not a religious dispute. 
In fact, according to the ambassador's letter, the improvement 
of religious freedom was acknowledged by Vatican Under 
Secretary of State Monsignor Pietro Parolini, the Pope's envoy 
during his visit to Vietnam in February of this year.
    The ambassador's letter also reports that the Bush 
administration's decision to take Vietnam off the CPC list, 
that, in the year 2008 and early 2009, nine religious groups 
received national recognition, tripling the number that 
received recognition throughout 2007, the number of locally 
registered Protestant congregations has increased. In Ho Chi 
Minh City alone, there are now 130 registered congregations, 
and, by the end of the year 2008, there were 1,175 in the 
Central Highlands and about 126 in the Northern Provinces.
    With that, Mr. Chairman, again, I respect very highly my 
good friend's proposed amendment, but, for the reasons----
    Mr. Royce. Will the gentleman yield for a question?
    Mr. Faleomavaega. I will gladly yield.
    Mr. Rohrabacher. The letter that you submitted; was it from 
the American Ambassador to Vietnam, or are you submitting a 
letter from Vietnamese Ambassador to the United States?
    Mr. Faleomavaega. From the Ambassador of Vietnam to the 
United States.
    Mr. Rohrabacher. So the representative of the government 
who has been accused of the human rights abuses; he is the 
representative of that government, not our Government.
    Mr. Faleomavaega. And rightly so.
    Mr. Rohrabacher. All right.
    Mr. Faleomavaega. That is what he is here for, and I 
believe the same letter was also sent to other members of the 
committee.
    Chairman Berman. Is the gentleman yielding back?
    Mr. Faleomavaega. Mr. Chairman, with that, I yield back the 
balance of my time.
    Mr. Smith of New Jersey. Mr. Chairman?
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from New Jersey.
    Mr. Smith of New Jersey. Thank you very much, Mr. Chairman. 
First of all, let me thank Mr. Royce for his excellent 
amendment.
    As one of the prime authors of the International Religious 
Freedom Act (IRFA)--Frank Wolf was the prime author, but all of 
the International Religious Freedom Act hearings, and the 
markup, were in this room--I was also the chair of the Human 
Rights Committee at the time--when we wrote that legislation, 
we meant for countries like Vietnam, which are egregious 
violators of religious freedom, to be listed as countries of 
particular concern. Vietnam actually uses the registration of 
churches as a way of suppressing these institutions and church 
membership.
    I have been to Vietnam several times--as a matter of fact, 
David Killion and I were there on one of those trips, but my 
most recent trip took me to Ho Chi Minh City, Hanoi, and Hue. I 
met with about 60 dissidents who were out of prison. Several 
are under house arrest, including the venerable Thich Quang Do.
    There was an easing in Vietnam's repression for a time. 
What happened, though, after PNTR and after Vietnam's ascension 
into the World Trade Organization, was a snapback. You will 
recall, my colleagues, probably that, like Charter 77, that 
great human rights manifesto of Czechoslovakia--Vaclav Havel 
and others have signed that--we have a similar manifesto for 
human rights in Vietnam today.
    On 8406, April 8, 2006, some of the leading intellectuals 
in Vietnam all signed the Block 8406 document, many hundreds of 
them, and now, one by one, those men and women have been 
dragged back to prison--for some, it is the first trip--they 
have been totally mistreated--some have been tortured. We have 
seen a profound deterioration of the human rights situation in 
Vietnam.
    On religious freedom, the U.S. Commission on International 
Religious Freedom, the individual body created by IRFA, the 
International Religious Freedom Act, back in 1998, has 
recommended, since 2001, that Vietnam be listed as a CPC, a 
Country of Particular Concern.
    In 2004 and 2005, the Bush administration put them, 
designated them, as CPC countries, as they ought to have been.
    Ambassador John Hanford, our ambassador-at-large, worked 
very hard, got a whole set of what he called ``deliverables'' 
that many of us thought, and had some expectation, that the 
Vietnamese Government would honor. One by one, those 
deliverables have been ripped in half, and the dissidents all 
hauled back into prison.
    The Unified Buddhist Church remains outlawed, and we have 
severe depression there.
    The Protestant Church, the Montagnards--there is a whole 
list and category of individuals, including the Catholic 
Church, which has now seen the pendulum that was easing go in 
the opposite direction.
    So I strongly urge my colleagues to go with Mr. Royce on 
his CPC designation. It is well-founded, and I yield back the 
balance of my time.
    Chairman Berman. The time of the gentleman has expired. I 
am going to recognize myself to speak in support of the Royce 
Amendment.
    The U.S. Commission on International Religious Freedom has 
recommended that Vietnam be named a ``Country of Particular 
Concern.'' There was a significant level of improvement, and 
whether it was a ``snapback,'' as Mr. Smith said, or an 
erosion, the fact is, there are still far too many serious 
abuses and restrictions of religious freedom in Vietnam.
    By redesignating Vietnam, I hope that the consequence will 
be that the Vietnamese Government will engage with us further 
on this issue and address these concerns. While some areas of 
United States-Vietnamese relations have improved quite markedly 
in recent years, restrictions on religious freedom remain an 
area of real concern, so I am going to vote for the amendment.
    Ms. Jackson Lee. Would the gentleman yield for just a 
moment?
    Chairman Berman. Yes. I will yield for a moment.
    Ms. Jackson Lee. Let me, as a member of the Human Rights 
Commission, respectfully disagree with my distinguished 
colleague and agree with the chairman. This is, I think, an 
important step. It is a ``Sense of Congress'' that allows 
latitude, but I conclude by saying that you cannot label all of 
the Vietnamese-Americans that are here to be anti the present 
Government of Vietnam. They care about it. They care about 
their relatives, and they report to you all of the time the 
human rights abuses that they suffer.
    My final statement is, if we reflect back on the Vietnam 
War, many of our contemporaries, those of us who remember that 
war, lost their life, upwards of 50,000-plus of Americans who 
died, so that there might be democracy, there might be justice, 
there might be human rights, and we cannot fail them, and I 
think this is a reasonable response to that, and I yield back 
and support the amendment.
    Chairman Berman. My time has expired. The gentleman from 
California.
    Mr. Rohrabacher. I will make this very quick, Mr. Chairman. 
We need to go on record in opposition to the brutal human 
rights violations that are now taking place in Vietnam. I 
commend Mr. Royce for what he is doing. Less than 2 months ago, 
police in the Mekong Delta brutally beat to death the head of 
the Kamir Christians Alliance Church. And we just heard, in 
opposition to Mr. Royce's amendment, we heard the fact that so 
many churches have been registered, as if that is good thing. 
The fact that they had to register those churches with a regime 
that espouses an atheistic philosophy is actually something 
that indicates that we should be passing this resolution, as 
Mr. Royce has suggested.
    One last note, as the situation has degenerated in Vietnam 
and human rights activists have been jailed and religious 
leaders have been brutally beaten to death, the American 
business community continues to invest in Vietnam and to go 
there, treating that government as if it is no different than 
the Belgian Government. We owe it to our founding fathers and 
everybody who built this country to value liberty and justice. 
And if we just value making money and letting our businessmen 
go over there like that and then write policy for us, shame on 
us. Thank you, Mr. Royce and thank you, Mr. Chairman for 
supporting this amendment.
    Chairman Berman. The time of the gentleman has expired. The 
question is on the amendment from the gentleman from 
California, Mr. Royce. All those in favor say aye.
    [A chorus of ayes.]
    Chairman Berman. All opposed, no.
    [A chorus of noes.]
    Chairman Berman. The ayes have it. The amendment is 
adopted. All right. Mr. Gallegly?
    Mr. Gallegly. I have a short amendment.
    Chairman Berman. A short amendment. Real short?
    Mr. Gallegly. I think so. Everything I do is short.
    Chairman Berman. If it is the one I think it is, I like it.
    Mr. Gallegly. Okay. I have an amendment at the desk.
    Chairman Berman. It is not on immigration?
    Mr. Gallegly. No.
    Chairman Berman. Okay.
    Mr. Gallegly. Well, we may work something in there.
    Chairman Berman. The gentleman is recognized.
    [The amendment of Mr. Gallegly follows:]<greek-l>Gallegly 
Amendment to H.R. 2410 deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Gallegly. Mr. Chairman, this amendment makes three 
changes to section 912 of the bill, which increases----
    Chairman Berman. The clerk will read the amendment.
    Mr. Gallegly. Okay.
    Chairman Berman. Without objection, the reading of the 
amendment is waived. The gentleman from California.
    Mr. Gallegly. As I said, Mr. Chairman, this amendment makes 
three changes to section 912 of the bill, which increases 
penalties for illicit trafficking in arms and weapons to 
Mexico. First, this amendment expands the enhanced penalties 
from exports to Mexico, to exports to the Western Hemisphere. 
Trafficking weapons to the Caribbean or Central or South 
America is just as detrimental to our national security as 
smuggling guns to Mexico.
    Second, this amendment increases the penalty for exporting 
weapons to the Western Hemisphere from 10-20 years. If we want 
to send a strong message to those putting guns in the hands of 
the drug cartels, we need to also increase the possible jail 
time.
    And third, this amendment strikes subsection C of section 
912, which imposes a sunset on these new penalties. 
Unfortunately, gun trafficking to Mexico and other countries is 
nothing new. This problem will not go away by the year 2012.
    Chairman Berman. Would the gentleman yield?
    Mr. Gallegly. Yes, I will.
    Chairman Berman. The gentleman's amendment deals with the 
illegal trafficking of small arms to Mexico and others. It is 
all part of our Merida Initiative and our effort to deal with 
the crisis down there. It is an excellent amendment because it 
recognizes that the issue is not just Mexico. It is the entire 
Western Hemisphere. It is right in extending the penalties. The 
language in the bill had focused on fines. In some cases, you 
are dealing with people who can never pay for their fines. In 
some case, you are dealing with people for whom the fines are 
nothing because they have so much cash. So, the extension of 
the sentencing is a good idea and I do not think there is logic 
to the sunset clause. So, I urge the committee to adopt the 
amendment.
    Is there any further discussion or debate?
    [No further discussion.]
    Chairman Berman. If not, the question is on the amendment 
by the gentleman from California, Mr. Gallegly. All those in 
favor, say aye.
    [A chorus of ayes.]
    Chairman Berman. All opposed, no.
    [A chorus of no<greek-l>s deg.es.]
    Chairman Berman. The ayes have it. The amendment is 
adopted. We will recess and come back at 3 o'clock where we 
hope to finish up this bill and take up the Pakistan bill.
    [Whereupon, a recess was taken.]
    Chairman Berman. The committee will come to order. The 
gentleman from Indiana.
    Mr. Pence. Thank you, Mr. Chairman. I have an amendment at 
the desk.
    Chairman Berman. The clerk will read the amendment from Mr. 
Pence.
    [The amendment of Mr. Pence follows:]<greek-l>Pence 
Amendment to H.R. 2410 deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Rush. Amendment to H.R. 2410 offered by Mr. Pence of 
Indiana. ``In subsection C of Title III, strike the current 
section 333 and insert the following new section: `Section 333. 
Protection of fundamental human rights. The Secretary of State 
shall continue to work through appropriate United States' ''--
--
    Mr. Pence. Mr. Chairman, I would ask unanimous consent to 
consider the amendment as read.
    Chairman Berman. Without objection, that will be the order 
and the gentleman of Indiana is recognized for 5 minutes on his 
amendment.
    Mr. Pence. Thank you, Mr. Chairman. This is a fairly 
straightforward amendment that follows on some action that this 
committee has already taken with regard to section 333. And my 
amendment would actually replace what remains of section 333 
with a reaffirmation of our shared commitment to protect 
fundamental human rights for all people on the globe.
    First, let me say rather emphatically, this is obviously a 
sensitive issue and it is an issue that has been recently 
debated on the floor of the Congress. The question of sexual 
orientation, gender identity is one that upon which many 
millions of Americans are divided and this Congress has debated 
and will continue to debate. But let me say emphatically, I do 
not support criminalization of homosexual behavior. And I 
understand the import of the aspects of this legislation that 
identify themselves with efforts toward ending the 
criminalization of homosexual behavior around the world. So, 
let me say emphatically on that point, this is not about that.
    What I do oppose, though, as the current legislation 
suggests, I oppose mandating that our Secretary of State, 
diplomatic and consular staff essentially promote a gay rights 
agenda around the globe over and above other issues. Currently, 
section 333(c) reads, in part,

        ``in keeping with the administration's endorsement of 
        efforts by the United Nations to decriminalize 
        homosexuality in member states, the Secretary of State 
        of State shall work through appropriate United States 
        Government employees at United States diplomatic and 
        consular missions to encourage governments of countries 
        to reform or appeal laws, and again it refers to laws 
        of such countries criminalizing homosexuality. But, 
        then, it goes on to say to reform or appeal laws 
        restricting the enjoyment of fundamental freedoms 
        consistent with the United States law by homosexual 
        individuals or organizations.''

    My amendment would simply delete that language and replace 
it, as my colleagues can see, with the assertion that the 
Secretary of State shall continue to work through appropriate 
United States Government employees, diplomatic and consular 
missions, to encourage governments of other countries to 
protect all people against gross violations of internationally 
recognized human rights, as described in the Foreign Assistance 
Act, regardless of race, creed, religion, sex, or national 
origin, which, of course, is from Title VII of the Civil Rights 
Act of 1964.
    It seems to me that that is altogether much more 
appropriate than using this legislation to specifically direct, 
and I emphasize to my colleagues, the language of this 
legislation says ``the Secretary of State shall work through 
employees, diplomatic staff, and consular missions'' to promote 
a particular agenda on a particular issue bearing on a 
particular rights of particular individuals. We ought to rather 
have a broader statement on internationally recognized human 
rights.
    And I want to say, respectfully, and we ought to identify 
race, color, religion, sex, national origins, those matters 
upon which the American people broadly agree, rather than 
introducing and singling out an issue that divides so many in 
our Nation and I suspect will continue to. My amendment will 
ensure that American diplomats speak with an undivided voice, 
undivided voice of the American people and their values. As 
currently drafted, ,our bill would tie the hands of American 
diplomats by mandating that they make sexual orientation a 
foreign policy priority regardless of other national security 
considerations.
    So, I offer this legislation and would be delighted to have 
the chair accept it. But, I offer this legislation really in 
the spirit of saying let us move this critical reauthorization 
bill with the broadest possible consensus. I know the chairman. 
I respect the chairman. I respect my colleagues on both parties 
on this committee. But, as we just saw in recent days on the 
floor of this Congress, this is a difficult issue that goes to 
the very heart of values to the American people and we ought 
not single it out with a mandate in this reauthorization bill 
and essentially risk turning our diplomatic core into agents of 
a particular point of view that emerges out of the midst of the 
American political debate, but make them advocates of those 
broad principles and advocates of human rights that do unite 
the American people. And I yield back.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from Virginia, Mr. Connolly, is recognized.
    Mr. Connolly. I thank the chair. Mr. Chairman, I find it 
amazing that ostensibly in the name of letting us have a broad 
consensus on the protection of fundamental human rights, the 
gentleman would carve out one whole class of human beings, who 
would be exempted from those human rights. I find that to be an 
exquisite contradiction that I certainly cannot support.
    I represent a state that not so long ago enshrined 
discrimination in its statutes. It is a sorry part of our past 
we certainly do not want to go back to. And I think it is 
perfectly appropriate for the United States to include sexual 
orientation along with race, color, religion, sex, or national 
origin. I think it is wrong in the name of comity to say let us 
all agree we are going to carve out a whole class of human 
beings against whom we will sanction discrimination. And, 
again, sadly, we hear rhetoric about ``a gay or homosexual 
agenda,'' whatever that is. I do not subscribe to any 
particular agenda other than that which says I do not favor 
discrimination. And I did not run for office to sign up to 
discriminate against any class of human beings and I am not 
going to do it now.
    So, Mr. Chairman, I hope, unlike the gentleman from 
Indiana, I hope you will not accept this amendment because I do 
not think it represents fundamental American values. I yield 
back my time.
    Chairman Berman. Can we call a question? Is there further 
debate? The gentlelady from California.
    Ms. Watson. I would like to align myself with Mr. 
Connolly's remarks, as well. I am reading the language in this 
amendment, section 333, and I do not see the language that he 
described in it. And it says ``regardless of race, color, 
religion, sex, or national origin.'' Can the chair point out 
the language that Mr. Pence is referring to?
    Chairman Berman. If the gentlelady will yield?
    Ms. Watson. I will yield.
    Chairman Berman. I believe it is fair to say--and the 
gentleman from Indiana can correct me if I am wrong--that he 
seeks to strike subsection C of Title III, which starts with 
``international efforts to revise laws criminalizing 
homosexuality.'' He seeks to strike that paragraph from lines 1 
through 12 and insert the language that has been passed out as 
his amendment. I am sorry, he is striking section 333, which 
starts with----
    Ms. Watson. I am looking at the bill, Mr. Chairman.
    Chairman Berman. All right. Yes, I am sorry. If you are 
looking at the bill, look on page 125, section 333, 
``discrimination related to sexual orientation.'' Subsection 
(a) has already been struck by the amendment because for the 
reasons that we have a strong expectation that that issue will 
be dealt with administratively.
    Subsection (b) is tracking violence or criminalization 
related to sexual orientation. The gentleman from Indiana seeks 
to strike that.
    Subsection (c), ``international efforts to revise laws 
criminalizing homosexuality,'' he seeks to strike that. And 
then he seeks to strike the country or ports on human rights 
language in the rest of the section.
    He is striking everything in 333 that has not already been 
struck and substitute the language in front of him. Is that a 
fair characterization, Mr. Pence?
    Mr. Pence. Yes, Mr. Chairman, it is substituted with the 
language that is in my amendment.
    Ms. Watson. As the United States of America and as our 
Secretary of State travels the globe to spread the virtue of 
western democracy and the fact that in our Constitution, in our 
Bill of Rights, we protect human rights. I think it would be 
counterproductive and hypocritical to take the language that 
you have in the bill out and substitute with this language 
because it is obvious that this language would allow 
discrimination and we are a country that abhors discrimination. 
We have an inclusive society and we need to have language that 
protects the rights of all human beings regardless of color, 
creed, sex, or sexual orientation. I would hope that this 
amendment would be struck down. Thank you, Mr. Chairman, I 
yield back.
    Chairman Berman. The time of the gentlelady has expired.
    Mr. Delahunt. Mr. Chairman?
    Chairman Berman. The gentleman from Massachusetts, Mr. 
Delahunt.
    Mr. Delahunt. I will be very brief.
    Chairman Berman. I wish to strike the last word and 
recognize----
    Mr. Delahunt. I wish to strike the last word and I want to 
associate myself with the remarks of Mr. Connolly, the 
gentleman from Virginia. I want to be very clear. I do not 
consider the existing section as promoting a gay rights agenda. 
It simply does not do that. That is a mischaracterization of 
that particular section.
    What the gentleman from Indiana's amendment would do, it 
would signal to the rest of the world that violence against 
people, gay people, gay men, lesbians, and bisexuals, and 
others with a different sexual orientation, would be of no 
concern, of less of a concern to the United States. This is 
about condemning violence against a category of people because 
of their sexual orientation. It is not about a gay rights 
agenda. It is about violence against gays. I think that is a 
bad message to send.
    As you, Mr. Chairman, are aware, I recently came back from 
Moscow where there was an event and there was violence against 
people because of their sexual orientation and it was condemned 
by every single democracy in Europe. And I think that the 
gentleman's amendment, no matter how well intentioned, would be 
a move that would bring discredit to the United States. And 
with that, I yield back.
    Ms. Jackson Lee. Would the gentleman yield?
    Mr. Delahunt. I will yield.
    Ms. Jackson Lee. We went through this before. The chairman 
indicated his viewpoint. He indicated he was going to work with 
the State Department, that we were going to stand on the basic 
respect for human dignity. What this amendment does with the 
reference to protecting rights, in essence, it takes away 
rights, as it refers to laws that may not, in fact, identify 
and respect sexual orientation differences. And so I would ask 
that we would oppose this amendment and I yield back to the 
chairman.
    Chairman Berman. Will the gentleman yield?
    Mr. Delahunt. I will yield further.
    Chairman Berman. I appreciate the general feeling. I just 
want to join issue with my friend from Indiana on one aspect of 
his comment, a notion of a general statement versus specific 
references. First of all, a number of us, and I know you are 
one of them--who, in the context of the general respect for 
human rights, in terms of particular issues in particular 
countries--have been at the forefront of trying to jar 
attention. The earlier debate about religious freedom in 
Vietnam was an example. There are all kinds of issues, but in 
that specific situation, there was conduct by Vietnam that 
troubles us greatly and we tried to address it with language by 
Mr. Royce. I remember after the Gulf War the issue that Kuwait, 
who we had--as part of a coalition, had liberated from an Iraqi 
aggression, had a system, which did not allow women to vote. It 
became part of our agenda as parliamentarians and part of the 
State Department's agenda, in terms of bilateral relationships, 
to push. Obviously, the Kuwaitis will decide for themselves, 
but we would push the notion that that discrimination based on 
sex was wrong. And here we are 20 years later and Kuwaiti women 
have a right to vote. Kuwaiti women now have a right to run for 
Parliament and lo and behold, four Kuwaiti women were just 
elected to the parliamentary.
    So, we have issues that were thought of as cultural norms 
in certain societies years ago change. And there was a time we 
talked about, oh, democracy would not work in Asia and it was 
contrary to Asian values. But, this is one of, I think, the 
fundamental freedoms. And by your own comments, you indicated 
your abhorrence, and I believe you, with both the violence and 
the criminalization of homosexual conduct and your opposition 
to that. There was a time in America where that was common, 
part of State laws. They were knocked out and a remnant to the 
past.
    The one thing I do not think we should rightfully be doing 
is asking our diplomats to push issues that we, in our country, 
have not come to terms with yet. For instance, in some cases, I 
hate to say it, we do not have a Federal statute on employment 
discrimination based on sexual orientation. I hope one day soon 
we will. This language that you seek to strike is sensitive to 
all those issues. It focuses on it. The report language will 
make it very clear that no one will be forced to promote an 
agenda in this area in carrying out the provisions of this law 
that they find morally repugnant. And I would join my 
colleagues from Virginia, Texas, California, and Massachusetts 
in urging a no vote.
    The gentleman from Arizona, Mr. Flake.
    Mr. Flake. I move to strike the last word.
    Chairman Berman. Yes. We have some members<greek-l>, deg. 
who have to go to the White House, so we would love to get a 
vote on this soon. The gentleman is recognized for 4\1/2\ 
minutes.
    Mr. Flake. I yield to the gentleman from Indiana.
    Mr. Pence. I thank the gentleman for yielding. Let me just 
say, and I appreciate, other than everybody except Bill 
Delahunt, I appreciate the comments that were made by all the 
members of the panel and even those from my friend from 
Massachusetts. And it seems to me, Mr. Chairman, you just said 
we ought not to push issues we have not come to terms with yet. 
I think I wrote that down. It is in the record. And maybe I am 
just not really getting an understanding, this language. It 
says, ``the Secretary of State shall,'' I am looking now at 
section 333(c), ``Secretary of State shall work through, 
diplomatic, consular, missions,'' et cetera, ``to encourage 
governments'' and, again, I am stepping over the criminalizing 
homosexuality part, but then also says, ``reform or repeal laws 
restricting the enjoyment fundamental freedoms by homosexual 
individuals, organizations.'' That strikes me as singling out 
the interest of a particular group when what we ought to be 
doing is having our diplomatic corps be, as my amendment 
suggests, promoting internationally recognized human rights as 
described in the Foreign Assistance Act, the gentleman from 
Massachusetts referred to and the chairman did.
    I abhor violence against individuals. I abhor 
discrimination. The reason I cited the Foreign Assistance Act 
of 1961, because it internationally recognized human rights. 
There is a long list of abuses against individuals, which are 
encompassed in this, that our diplomatic corps ought to be 
about pressing the interest of individuals, regardless of race, 
color, religion, sex, or national origin. It just seems to me 
that as we are in the business in this important committee of 
laying a legal foundation, we ought not to be singling out. It 
seems that one of my colleague's issues, the phrase that they 
were concerned, we were expressing less of a concern toward a 
group of individuals that may have homosexual or sexual 
preference. What troubles me about this language, Mr. Chairman, 
is just simply it seems like the bill as currently written puts 
more of a concern on individuals on the basis of sexual 
orientation and gender identity than a broad concern for 
individuals, who are the subject of human rights abuses or 
discrimination.
    So, that is the reason why, as you accurately stated, I am 
calling for us to strike this section and replace it with what 
would be a very broad affirmation grounded in the Foreign 
Assistance Act, grounded in the Civil Rights Act of 1964, and 
simply say that as our Nation continues to debate along the 
fault lines of whether it would be hate crimes or other issues, 
that we would not be dictating, which I see when it says, 
``Secretary of State shall,'' we are dictating that our 
diplomatic corps, our foreign service essentially get in the 
business of promoting an agenda upon which there is broad 
disagreement and disagreement based on values and world view of 
millions of Americans. With that, I will be happy to yield back 
and move the previous question.
    Chairman Berman. The time of the gentleman has expired. Can 
we go to the question? All those in favor of the amendment by 
the gentleman from Indiana say aye.
    [A chorus of ayes.]
    Chairman Berman. All opposed, say no.
    [A chorus of noes.]
    Chairman Berman. No. In the opinion of the chair, the noes 
have it. The gentleman from Illinois. The amendment fails, by 
the way.
    Mr. Manzullo. Thank you, Mr. Chairman. I have an amendment 
at the desk.
    Chairman Berman. The clerk will read.
    [The amendment of Mr. Manzullo follows:]<greek-l>Manzullo 
Amendment to H.R. 2410 deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Rush. Amendment H.R. 2410, offered by----
    Mr. Manzullo. I move that the amendment be considered read.
    Ms. Rush [continuing]. Mr. Manzullo of Illinois----
    Chairman Berman. Without objection, the amendment is 
considered as read. It is a long amendment.
    Mr. Manzullo. Thank you. This amendment seeks to correct a 
problem that barred American small businesses form 
participating in the Asian Pacific Economic Cooperation forum. 
What it does is when APEC gets together, businesses from all 
over the world are actively engaged in shaping important 
policies, such as standards, intellectual property rights, and 
even export promotion. But, unfortunately, America's 26 million 
small businesses are not given a seat at the table. The City of 
Rockford, which is in the district I represent, Mr. Chairman, 
has about 340,000 people and exports $1.4 billion worth of 
products. So, it is a heavy manufacturing, heavy exporting area 
and this bill allows small businesses the opportunity to come 
to the table.
    The Small Business Exporters Association of America 
supports the amendment. It levels the field of America's small 
business and manufacturers. It will give the little guys the 
opportunity to attend and participate in the APEC meetings.
    Mr. Chairman, I want to thank you for working with us on 
another issue which is also very important to manufacturers of 
northern Illinois. The inclusion of language in section 804 
pertains to the Directorate of Defense trade controls on which 
Congressman Sherman and I worked last year is a huge boost. It 
is a step in the right direction. Mr. Sherman and I--our expert 
process and also the provision on satellites in section 826 
will help create more manufacturing jobs. And I would urge the 
adoption of the amendment and I yield back.
    Chairman Berman. The time of the gentleman has expired. I 
recognize myself for 5 minutes to support the Manzullo 
amendment. It addresses a need for more U.S. engagement in APEC 
and for assistance for small businesses to participate in the 
forum. And I yield the balance of my time to the gentleman from 
American Samoa, the chair of the Asia and Pacific Subcommittee.
    Mr. Faleomavaega. I thank you, Mr. Chairman, for yielding. 
I do want to commend my good friend and ranking member of our 
subcommittee, the gentleman from Illinois, for offering this 
amendment. Mr. Chairman, I know of no one in this committee, 
who has a greater sense of passion, understanding, and 
commitment concerning the needs of our small businesses 
throughout our country. Because the gentleman was formerly 
chairman of the committee of small business and I as a former 
member of that committee, I thought the gentleman did an 
outstanding job in pressing for the needs of our small 
businesses throughout our Nation.
    The gentleman's amendment is a clear statement to the State 
Department and several other Federal agencies of the importance 
of small businesses and quite often our small businesses never 
seem to get the attention and the proper treatment to be 
included in business contracts and transactions, especially 
with foreign countries. My only concern is that whether the 
gentleman's amendment is in the right structure as far as APEC 
is concerned. Problems with APEC is that while this 
organization is composed of 21 countries, which includes two 
unique entities, like Hong Kong and Taiwan, APEC today is still 
struggling with its own sense of identity and whether it will 
evolve into a formalized economic organization like NAFTA or 
the European Union.
    Over the years, APEC has been an excellent forum, which 
allows heads of state and governments to conduct side meetings. 
My colleagues will recall our former President Bush attended 
the APEC meeting that was hosted by Prime Minister John Howard 
of Australia and long afterwards, he left the conference while 
the attendees were still in the meeting. As it is currently 
structured, every embassy we have around the world has economic 
advisors to each of our ambassadors. And I think this is where 
the rubber meets the road, Mr. Chairman. Do our economists or 
advisors of these embassies, does the State Department 
earnestly have programs that specifically address the needs of 
our small businesses?
    It has been my experience that when we address economic 
trade relations with other countries, exports, imports, always 
seem to look after the needs of the larger corporations. But 
when it comes to including small businesses, nothing is done. 
Having said all of that, Mr. Chairman, it is my understanding 
the gentleman's amendment has been revised so as to also have 
the support of you, Mr. Chairman. And, again, to emphasize the 
gentleman's concerns, small business is never given proper 
consideration by the State Department and other Federal 
agencies to promote trade relations with other countries. And I 
could not have think of better what the gentleman is saying, 
that if you are not at the table, you will be on the menu. And 
I must say that our small businesses have been on the menu for 
all of these years and it is about time that the State 
Department and other agencies give due attention to this need. 
And I thank, again, my good friend from Illinois for proposing 
this amendment. I urge my colleagues to support the amendment.
    Chairman Berman. The time of the gentleman has expired. The 
question is on the amendment from the gentleman from Indiana. 
All those in favor, say aye.
    [A chorus of ayes.]
    Chairman Berman. Illinois. We already dealt with. Illinois, 
it is close. All opposed, no.
    [A chorus of noes.]
    Chairman Berman. The ayes have it. The amendment is 
adopted. State of play, just a couple more amendments and then 
final passage. We, obviously, need a reporting quorum, so we 
are getting near the end of the first bell and I think the most 
time consuming one, I hope. The gentleman from Florida.
    Mr. Mack. Thank you, Mr. Chairman. I have an amendment at 
the desk.
    Chairman Berman. The clerk will read.
    [The amendment of Mr. Mack follows:]<greek-l>Mack Amendment 
to H.R. 2410 deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Rush. Amendment H.R. 2410, offered by Mr. Mack of 
Florida. ``In title II, add at the end of subtitle B the 
following new section: `Jewish community in Venezuela.' ''----
    Mr. Mack. I ask unanimous consent to waive the reading.
    Chairman Berman. So ordered and without objection. And the 
gentleman from Florida is recognized on his amendment.
    Mr. Mack. Thank you, Mr. Chairman. As we all aware, Hugo 
Chavez and his cronies have targeted the Jewish community of 
Venezuela and we, in Congress, must stand against tyrants and 
show our support to the Jewish community. The facts are clear, 
Mr. Chairman. Before Chavez took power, the Jewish community in 
Venezuela was a thriving one and the Jewish population included 
families that have lived in the country for over two centuries 
and were survivors of the Holocaust. Unfortunately, Mr. 
Chavez--sorry, Mr. Chairman--unfortunately, Mr. Chairman, we 
have witnessed growing state sponsored hostility toward the 
Jewish people in Venezuela. In January 2009, a Caracas 
synagogue was attacked. The men shattered religious objects, 
spray painted ``Jews, get out'' on the temple's walls, and 
stole a computer database containing names and addresses of 
Jews living in Venezuela. That same month, Venezuela expelled 
Israel's Ambassador to Venezuela, along with six other Israeli 
diplomats.
    Later, Venezuela officially broke relations with the State 
of Israel, ending 60 years of diplomatic ties and deepening the 
vulnerability of Venezuela Jews. In February 2009, attackers 
through an explosive at a Jewish community center with the 
intent of spreading fear and terror. Mr. Chairman, the list 
goes on and on.
    Countless organizations have already warned us on the 
current situation in Venezuela. One of them, the U.S. 
Commission on International Religious Freedoms placed Venezuela 
on its watch list of religious freedom violators, finding that 
official state rhetoric against the Venezuelan Jewish community 
created an environment where Jewish religious leaders and 
institutions are at risk of attack. Last month, the magazine of 
Venezuela's state-owned oil company printed on the front page a 
cartoon depicting a prison camp. Above it was an Israeli flag 
and the sign read ``under new management.'' The facts are 
clear, this is state-sponsored hostility toward the Jewish 
population in Venezuela.
    Mr. Chairman, my amendment asks for Members of Congress to 
stand side-by-side with the Jewish community in Venezuela and 
express to them our support and to let them know that they are 
not alone in their struggle. I know that many of you have 
expressed concerns as to the timing of this amendment of which 
I respect each and every one of your opinions. But to me, we 
cannot idly stand by and not talk and continue to condemn the 
actions of Hugo Chavez on the Jewish community in Venezuela. 
Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from Florida, Mr. Klein, is recognized.
    Mr. Klein. Thank you, Mr. Chairman, I move to strike the 
last word.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Klein. Thank you, Mr. Chairman. First, I would like to 
thank the gentleman from Florida, Mr. Mack. He and I worked 
very actively together on a number of Venezuela issues. I think 
all of us in this body and people in the United States are very 
concerned with Hugo Chavez, the tactics he has used on his own 
people, the strategies he has used in the Hemisphere to 
influence other countries and many of them are unacceptable.
    The issue that Mr. Mack brings to us today is something 
that is very important, but does require a little more 
information for consideration. I live in south Florida and I 
have had the opportunity, along with others, to visit with 
members of the Venezuelan Jewish community that live in south 
Florida, people that do business in south Florida and have 
close relations with the Jewish community in Venezuela. And 
what I have heard over multiple meetings with them is, yes, 
this is certainly an environment that is not what it was. There 
have been incidents, as mentioned by Mr. Mack, that are more 
than troubling, that are not acceptable and we should condemn 
them. And at the same time we have heard from them, we are 
still able to conduct our businesses, we are still able to 
live, we are still able to do the things that we need to do.
    Now, I cannot speak for them, other than to say that maybe 
if I was living in that environment, I would have gotten out. I 
certainly, as a student of history, and I know many of us 
understand the consequences of many of the European Jews that 
did not leave their countries when they did. But, we have to 
obviously look at each situation as it comes. And in this 
particular situation, there are a number of ongoing activities 
that have gone on that are being monitored by international 
Jewish organizations in Latin America, which I have also spoken 
with, and the word we are getting back is at the moment, the 
time being, the community there, by and large, believes that 
they re safe. They are not threatened physically. They do not 
like some of these activities that are going on, but they are 
continuing to be able to conduct their lives and choose to 
continue to live there. And, in fact, and this is the crux of 
the whole point, it would be more damaging if the United States 
Congress were to put this type of resolution out there right 
now, in their view, in terms of how their government would 
react, than other activities are going on right now in their 
region, specifically Argentina, and I met with the Ambassador 
from Argentina, Mr. Timmerman, and other countries in that 
region that have been working with the Venezuelan Government to 
back off and take back and deal with some of these issues.
    Now, I am not accepting the fact that Mr. Chavez is going 
to all of a sudden turn around and have a different attitude. 
But what I am saying very clearly is there are times when we, 
in America, and this Congress can do the right thing. We feel 
it is the right thing. We know that we are sending a message 
out to the world that will, in fact, help a local community. 
And there are times when our good intentions or good wishes can 
do more damage. And what I am seeing specifically in this case, 
based on my conversations with the communities in south Florida 
that had direct relations and continue over the last number of 
weeks have direct relations and contacts with the Venezuela 
Jewish community, as well as ambassadors from various countries 
working in that area, as well as Jewish community international 
organizations that are very closely monitoring what is going on 
right now in that country, that it is not in our best interest, 
with all good intents that Mr. Mack has, to take up this 
amendment at this time.
    So, I would suggest, Mr. Chairman, that this committee do 
not accept this amendment, but absolutely continue to work very 
hard to monitor and assist this community in all ways possible.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from Nebraska.
    Mr. Fortenberry. I move to strike the last word.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Fortenberry. I yield time to the gentleman from 
Florida, Mr. Mack.
    Mr. Mack. Thank you. And just real quickly, I believe that 
my friend, Mr. Klein, is correct, that when he says that there 
are those who believe that the time is not right. But, I also 
have heard from many, both from south Florida and as well from 
Venezuela, that believe that the time is now. It is time to 
act. And it is the decision that we have to make. Are we going 
to act and stand together and denounce the actions of Chavez 
and his government or are we going to delay and take a wait-
and-see approach? And I believe, Mr. Chairman, that we ought to 
support this amendment. Thank you.
    Chairman Berman. The gentlelady from Nevada.
    Ms. Berkley. Thank you, Mr. Chairman. I move to----
    Chairman Berman. The gentlelady is recognized for 5 
minutes.
    Ms. Berkley. Thank you. I move to strike the last word. I 
pride myself on being in touch with Jewish communities 
throughout the world and I would like to think of myself as 
being in the forefront of those concerned about the rise of 
anti-Semitism throughout Europe, Asia, and South America. I do 
not take a backseat to anybody on this issue. So when I first 
heard of the situation in Venezuela with the Jewish community, 
my first reaction was to react and I seriously contemplated 
sending a resolution around for people to sign up and to pass 
independently to support Mr. Mack's amendment. But, I also 
started hearing from members of the Venezuelan Jewish community 
and they have convinced me to take a step back and not do 
anything at this time that may further exacerbate the situation 
and cause more problems for the Jewish community. And as long 
as they took the time to contact me and spoke with such passion 
that this is not the right time for the United States Congress 
to react, I can only honor their wishes. And I thank the 
gentleman from Florida for bringing this to everybody's 
attention. But, I will be voting no, with the understanding 
that if we get a signal from the Venezuelan Jewish community, I 
will work very closely with you on this issue and move it 
forward in Congress as a separate resolution. And I yield back.
    Chairman Berman. The time of the gentlelady has expired. 
The gentleman from New York, Mr. Ackerman, is recognized for 5 
minutes.
    Mr. Ackerman. Thank you, Mr. Chairman. Let me first thank 
the gentleman from Florida, Mr. Mack, for his sincere and 
genuine and heartfelt concern for this beleaguered community. 
We appreciate it, all of us in the Congress do and those of us 
with Jewish heritage, in particular.
    I, also, serve as the president of the International 
Conference of Jewish Parliamentarians, representing members of 
parliaments all over the world, who are of the Jewish faith. 
And one of the things we do is try to look out for Jewish 
communities that are in peril all over the world and speak out 
on their behalf and try to defend their rights as part of the 
overall human rights concerns that we together share. This 
community finds itself in a very precarious position. And 
sometimes there are unattended consequences to the good and 
righteous actions that we would take as legislators, that we do 
not personally have the sensitivity to fully understand and is 
counterintuitive to what we would do in most other 
circumstances, as well. But this particular community in this 
particular country feel that they are literally under the gun 
and any push back at this time, although they welcome the moral 
support that we could give them as individuals, would be taken 
by the President of that country, as well as others, as a sign 
and signal that they should clamp down further on this 
particular community.
    Sometimes, we have to ask those, who we would help, what is 
in their best interest. I know I tell some of my Republican 
conservative friends that I want to bring down a bunch of 
liberal Pinkos like me from New York to campaign in their 
Republican primary and they indicate they would not be helped 
by my kind intentions. There is a funny aspect to that. But, 
this is real and this is serious. I would ask the gentleman to 
consider rethinking this and working collectively with the rest 
of us, so that we can figure out a better way to help those 
people. My mother, who was my favorite philosopher, used to say 
if you want to help me, help me my way. I think that is the 
best advice a mother--and I think I speak for everybody--mother 
was always right.
    I think we should take a look at try to figure out, and I 
know that everybody is not of the same view and think we should 
push this issue a little hard, but if the gentleman would 
consider withdrawing that, because even those of us, who would 
be reluctant to vote against this as a resolution because we 
agree with the notion and the sentiments, would be compelled to 
do so. And I think we might be able to figure out a better way 
to help those people, who certainly are deserving of the 
concern that you have shown and for which we are grateful. I 
yield back the balance of my time.
    Chairman Berman. I recognize myself. Motion to strike the 
last word and yield to the gentleman from Florida.
    Mr. Mack. Thank you, Mr. Chairman, and one of the things 
that I can do, even though I am from Florida, is look around 
and count votes. But with that being said, this is something 
that I am very, very passionate about and believe in deeply. 
And the crux of the argument is the time right and I believe 
that the time is right. I absolutely believe the time is right 
and that we should and must act now. But if there is sincerity 
on the other side to work with us, with me, in listening to 
those, who have contacted me, the chief rabbi from Venezuela, 
who is in support, then I would be incline to withdraw the 
amendment, but doing so in a way that really does foster an 
opportunity for us to work side by side with the hopes of 
bringing something either through the committee or to the floor 
that can move this issue forward.
    Mr. Engel. Will the gentleman yield? Will Mr. Mack yield to 
me?
    Mr. Mack. Yes.
    Mr. Engel. I am sorry. Mr. Berman, I am sorry.
    Chairman Berman. Yes, I will reclaim my time and we are 
moving ahead here and give the Western Hemisphere Subcommittee 
chairman, Mr. Engel, I yield to him.
    Mr. Engel. Thank you. Thank you, Mr. Chairman. And let me 
first overall thank Mr. Mack and publicly state what a pleasure 
it is to work with him as the ranking member on my 
subcommittee. We have had many talks and many discussions about 
this issue and other issues and I have always found Mr. Mack to 
be a thoughtful, reasonable, and someone who cares very much 
about not only this issue, but----
    Chairman Berman. You do not know him very well.
    Mr. Engel. So, I just want to say to Mr. Mack that, 
obviously, as chairman of the Subcommittee on the Western 
Hemisphere, I follow this situation facing the Jewish community 
of Venezuela as closely as I have followed any issue in the 
region. The Jewish community has been under siege in Venezuela 
and members of this committee, Democrats and Republicans, were 
very effective in sending a letter, which I authored, to Hugo 
Chavez after the recent thrashing of the synagogue, deploring, 
condemning it, and saying that he has created an atmosphere in 
Venezuela that made it okay for people to think that they can 
thrash the Jewish community and perpetuate other anti-Semitic 
acts upon the small Jewish community in Venezuela.
    So, we have not been quiet on this committee. The letter 
was signed by 11 Democrats and nine Republicans and as 
bipartisan as you can get. And I am told by many, many people, 
it had a great impact. People in the Jewish community in 
Venezuela have said that that letter had a great impact and 
changed the Venezuelan Government's not attitude necessarily, 
but how they were dealing with the Jewish community of 
Venezuela. So, I think that we can be effective. We can do the 
right thing.
    And we have many people in that community now that we talk 
to clandestinely and I would tend to be guided by what they 
say. And as Mr. Klein had mentioned, Ms. Berkley, and others, 
Mr. Ackerman, the community is saying right now, they would 
prefer us not to do anything and to see how the situation is. 
The situation has gotten better. But, I do not mean to imply 
that it is good, because it is not good. And I want to assure 
Mr. Mack and everyone else on this committee that I will 
continue to speak out and involve other members of this 
committee in speaking out and letting the Jewish community and 
the Government of Venezuela and Hugo Chavez, himself, know that 
we are not turning a blind eye to this. It is not a matter of 
doing this resolution or doing nothing. We are not going to do 
nothing. We are going to do a lot of things and we are going to 
be guided by what the community there says. And if the 
community right now is saying that we have been effective, we 
got the government to back down, we have been helpful to them 
in this situation. And now, they are asking us right now to 
leave it. I think the best thing to do is to leave it. But, I 
want to tell Mr. Mack and then I will close, Mr. Chairman, 
that----
    Chairman Berman. 8 seconds.
    Mr. Engel [continuing]. In between--that is hard--in 
between the--even if I say it in Spanish, it is hard--in 
between the time <greek-l>between  deg.now and when the bill 
finally hits the floor, we will continue to monitor the 
situation of the Jewish community. And I want to assure Mr. 
Mack that if at any point before the bill hits the floor, that 
they----
    Chairman Berman. I yield myself an additional minute and 
without objection and yield it, seconds of it, to the gentleman 
from New York, so that I can yield the rest of it to the 
gentleman from New Jersey.
    Mr. Engel. Thank you, Mr. Chairman. I was saying between 
now and the time the resolution hits the floor, we will be in 
constant contact with the Jewish community in Venezuela. And if 
they think it would be helpful to have this kind of a 
resolution, then I assure Mr. Mack that we will work to get it 
in, in time for the entire House to vote on it. And I just want 
to close by saying that Mr. Mack's resolution, I found it 
moderate. I found it temperate. I thought it was good. It is 
just not right at this time. But, if it is right in the future 
time, I want to assure Mr. Mack that I will be right there with 
him pushing the resolution. Thank you, Mr. Chairman. I yield 
back.
    Chairman Berman. I yield the remaining 26 seconds to the 
gentleman from New Jersey.
    Mr. Sires. Thank you, Mr. Chairman. I, also, want to thank 
Congressman Mack. As someone who is Hispanic, but is very close 
to the Jewish issue through marriage, I can tell you that it is 
a concern and a constant conversation in my household. But the 
concern that I have is if we sort of do not do anything on this 
issue, we just have to make sure that we monitor the issue in 
Venezuela because today, it is a Jewish community. Tomorrow, it 
may be the Catholic community. The following year, it may be 
the Christian community. So, we have to make sure that this 
country monitors it, because I do not want to come back here in 
a year and say we should have done something stronger than we 
did today. So, that is just--I want to thank you, Chairman, for 
your time.
    Chairman Berman. My time has expired and can we--the 
gentleman from Florida, as I understand it, is prepared to----
    Mr. Mack. Mr. Chairman?
    Chairman Berman. Yes.
    Mr. Mack. With that, I would ask unanimous consent to 
withdraw the amendment.
    Chairman Berman. Without objection, the amendment is 
withdrawn.
    Ms. Woolsey. Mr. Chairman?
    Chairman Berman. I have a proposal for the committee. Let 
me make a proposal to the committee here. As I understand it, 
we have several amendments. Three of them, I am prepared to 
accept. And I was wondering if we could consider them en bloc 
and then the members could speak to the amendment, but 
altogether. I think it might go faster that way--and 
simultaneously--no. The amendments would be Mack, the Western 
Hemisphere; Fortenberry, religious minorities in the Middle 
East; and Fortenberry, IAEA related to the weapons of mass 
destruction commission findings. Would there be any objection 
to considering those three amendments en bloc?
    [No objection.]
    [The information referred to follows:]<greek-l>Mack 
amendment to H.R. 2410 deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    <greek-l>Amendment to H.R. 2410--Fortenberry deg.  
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    <greek-l>Amendment to H.R. 2410--Fortenberry deg.  
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Without objection, that will be the order.
    Mr. Fortenberry. Mr. Chairman?
    Chairman Berman. The gentleman from Nebraska.
    Mr. Fortenberry. I have no objection, except that I had 
three amendments. The third one, which----
    Chairman Berman. The third one----
    Mr. Fortenberry [continuing]. Overall, but I would like to 
make a statement on it.
    Chairman Berman. Yes. After we do the en bloc amendment and 
the Woolsey colloquy, we will recognize----
    Mr. Fortenberry. We will consider that separately, then. I 
see. Thank you.
    Chairman Berman [continuing]. The gentleman from Nebraska 
for the final, final amendment. So, the clerk shall distribute 
the amendments en bloc.
    Ms. Rush. Amendment to H.R. 2410, en bloc, offered by Mr. 
Mack of Florida, ``In title''----
    Chairman Berman. Without objection, reading of the three 
amendments being considered en bloc will be waived. And let us 
see, I have never done this before. We have two different 
authors. Mr. Mack, why don't you start first.
    Mr. Mack. It is a good amendment and I hope everybody will 
support it. Thank you, Mr. Chairman.
    Chairman Berman. Mr. Fortenberry.
    Mr. Fortenberry. I am sorry, Mr. Chairman, I do not have 
the ability to be that brief. I need to speak to mine. The 
first amendment simply relates to strengthening IAEA, the 
International Atomic Energy Agency safeguards by incorporating 
key recommendations of the bipartisan commission on the 
prevention of weapons of mass destruction, several important 
recommendations they have made, and I think will be helpful to 
strengthening the security of this country and identifying 
vulnerabilities and preventing misuse of sensitive nuclear 
materials and technologies worldwide.
    The second amendment, would you like me to speak to that 
now----
    Chairman Berman. Yes.
    Mr. Fortenberry [continuing]. Now, Mr. Chairman? We all are 
aware that in many of our discussions on the Middle East tend 
to focus on Shi'a, Sunni, and Kurdish communities when talking 
about human rights and the status of differing ethnic 
populations. However, Iraq's constitution also guarantees 
religious freedom, but many of the religious minorities are 
main targets of sectarian violence and this includes Iraq's 
Christians, the Izidis, Shabacks, Sabi, and Mandians, Bahis, 
and remnant Jewish community that are highly vulnerable. So, 
this amendment simply calls for a more focused effort to 
examine the situation of religious minorities in Iraq, but also 
throughout the entire Middle East, to determine what steps that 
can be taken to decrease their vulnerability to intimation and 
violence.
    Chairman Berman. If there is no further debate, the 
amendment en bloc is before us. All of those in favor, say aye.
    [A chorus of ayes.]
    Chairman Berman. All opposed.
    [A chorus of noes.]
    Chairman Berman. The ayes have it. One Mack and two 
Fortenberry amendments are hereby adopted. The gentlelady from 
California. We are almost done with this bill.
    Ms. Woolsey. Thank you, Mr. Chairman. I would like to ask 
for a colloquy with you at this moment.
    Chairman Berman. This is the moment.
    Ms. Woolsey. Thank you. Thank you for the time and thank 
you for the work that you and your staff have put into this 
excellent forward-thinking bill. To all who have read and 
reviewed the policies set forth here, it is obvious that the 
bill will build upon the ideals of a strong State Department, 
one that executes policy based on diplomacy, engagement, and 
equality. I am very encouraged that in the early stage, the new 
leadership at the State Department, led by Secretary Hillary 
Clinton, has placed high importance on the issue of gender 
equality through the appointment of Mullane Vervier as the head 
of the new office on global women's issue. The Secretary made 
an early and unmistakable declaration that the role of women 
will be considered at every level of decision making.
    Women deserve, as a basic human right, access to maternal 
healthcare. Unfortunately, as I saw on a recent trip to 
Tanzania, only a small percentage of women have access to 
prenatal delivery and postnatal care. Sometimes, it is as basic 
as a lack of transportation to a clinic or it could be as 
serious as corrective surgery for obstetric fistula. The 
obstacles to care are great. Every minute, someone in the 
world, a woman dies in pregnancy or childbirth. In the poorest 
region, one out of 22 women will die from these causes, 
compared with one in 4,800 in the United States of America. 
Today's bill serves to begin the process of rebuilding civilian 
capacity to conduct diplomacy and promote development.
    Mr. Chairman, I understand that later this year, you plan 
to move forward with a larger scale foreign aid reform package. 
Is that correct?
    Chairman Berman. It certainly is.
    Ms. Woolsey. Well, thank you, Mr. Chairman. I hope you will 
consider the issue of maternal mortality and women's health in 
connection with the foreign aid reform package. Specifically, I 
hope to work with you to develop a comprehensive, evidence-
based maternal action plan that is funded at a responsible 
level. I believe this is a key element I promoting security, 
stability, and prosperity for women and their families 
worldwide.
    Chairman Berman. If the gentlelady will yield, I very much 
appreciate her comments. This is an issue that is really very 
important to me and I think it is important to a strong 
bipartisan majority of the committee, as a whole. And I look 
forward to working with you, specifically, as well as other 
members of the committee to help improve both the quality of 
healthcare for women and girls around the world and their 
access to it through our foreign assistance reform effort.
    Ms. Watson. Mr. Chairman?
    Chairman Berman. The gentlelady from California has the 
time.
    Ms. Woolsey. Am I able to yield to others? I will yield to 
Ambassador Watson.
    Ms. Watson. I wanted to go on the Jackson Lee Sudan 
amendment as a co-sponsor.
    Chairman Berman. So it is Jackson Lee, Lee, and Watson.
    Ms. Watson. Thank you.
    Mr. Payne. Mr. Chairman, I feel left out, without a man 
being on it. Would you add Payne to that list?
    Chairman Berman. Without objection, you will all be, you 
and any others who want to by letting staff know, will be 
retroactively added as the authors of that amendment.
    Ms. Woolsey. Excuse me, Mr. Chairman. This is my colloquy 
so I am assuming they are in support of my women's mortality 
issue also.
    Chairman Berman. Yes.
    Ms. Woolsey. Thank you very much.
    I yield back.
    Chairman Berman. Time is yielded back. The gentleman from 
Nebraska.
    Mr. Fortenberry. Thank you again, Mr. Chairman, for leading 
the hearing today. I also want to thank our ranking member for 
attempting to offer some reasonable alternatives today.
    My amendment that I propose----
    Chairman Berman. I am sorry. You are offering your 
amendment at this point? Or are you just moving to strike the 
last words?
    Mr. Fortenberry. I am sorry. I would like to be recognized 
to offer my amendment.
    Chairman Berman. The gentleman is recognized, but first the 
clerk will distribute and read the amendment.
    This is the Fortenberry Amendment on the conscious clause 
is the right term for it.
    Mr. Fortenberry. Mr. Chairman, if it is acceptable I would 
move to dispense with the reading.
    Ms. Rush. Non-discrimination requirements?
    Chairman Berman. It is coming around right now, so give 
people a chance to look at it. Without objection, the amendment 
will be deemed as read and the gentleman from Nebraska will be 
recognized for 5 minutes.
    [The amendment of Mr. Fortenberry 
follows:]<greek-l>Amendment to H.R. 2410--Fortenberry deg.
      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Fortenberry. Mr. Chairman, this amendment simply tries 
to provide sensible conscious protection for our diplomatic 
community. I propose that in order to try to do some service to 
help our diplomatic corps and our State Department, I do not 
want to put any diplomat in a position of violating their most 
deeply held belief of conscience, and I appreciate the fact 
that you have stated several times during this hearing that no 
Foreign Officer would be forced to act against their moral 
precepts. Unfortunately, as we have discussed in private, 
trying to codify this is more complicated than it first 
appeared. So I do appreciate our conversation and from what I 
understand your general inclination to seek language that may 
be acceptable in this regard that could potentially be in the 
manager's amendment. So I would be happy to withdraw the 
amendment given that understanding.
    Chairman Berman. The gentleman will yield.
    I was reminded about this in listening to President Obama's 
speech at Notre Dame where, if I can quote, he called for the 
first time for drafting a sensible conscience clause and went 
on to talk about honoring the conscience of people who disagree 
on abortion and other issues.
    It is in that spirit that I was taken with the gentleman's 
amendment and wondering if there is a way to do this in a 
manageable way that allows the government to continue 
functioning, because this applies to employees as well as to 
Federal contracts. So I appreciate the gentleman raising the 
issue. I do intend to work with him to try and work through 
some of these processes to see if we can get a workable 
amendment to bring in some of the people familiar with State 
Department functions to discuss it. I yield back to him.
    Mr. Fortenberry. Thank you for that commitment, and I look 
forward to continuing to work with you and wrestle through the 
complications here. So I yield back the time.
    Chairman Berman. With unanimous consent, the gentleman's 
amendment is withdrawn.
    The gentleman from New York, Mr. Ackerman, is he prepared 
to make a motion?
    Mr. Ackerman. If you wish, Mr. Chairman.
    Chairman Berman. Why not?
    Mr. Ackerman. I move the favorable consideration and 
recommendation of H.R. 2410 as amended to the floor of the 
House.
    Chairman Berman. The question occurs on the motion by the 
gentleman from New York to report H.R. 2410 as amended 
favorably to the House.
    All in favor, say aye.
    [A chorus of ayes.]
    Chairman Berman. All opposed, no.
    [No audible response.]
    Chairman Berman. The ayes have it, and the motion is 
adopted.
    Without objection, the bill we reported as a single 
amendment in the nature of a substitute incorporating the 
amendments adopted by the committee, and the staff is directed 
to make any technical and conforming amendments, to remove from 
the bill as amended provisions that would cause the bill to be 
referred to other committees, or that would result in 
additional direct spending.
    I do want to thank the members for sitting through the 
first part of this markup and I hope they will stay for the 
second part, which is very important but I think will be much 
shorter.
    I particularly want to thank the staff, both for the 
majority and the minority. Until I got this job I never, I knew 
they did well with the issues I cared about; I did not realize 
what it took to deal with the issues everyone on the committee 
cares about as well as a lot of other people in the House. They 
spent incredible hours putting this together, dealing with the 
amendments, dealing with the manager's amendment, and dealing 
with us most of all. I think we owe them a great debt of 
thanks.
    I also want to mention Mat<greek-l>t deg. Eckstein and Mark 
Synnes from Legislative Counsel who we could really drive crazy 
with the various forms of issues that came up, and their great 
drafting skill.
    With that, we move to, pursuant to notice I now call up 
H.R. 1886, the Pakistan Enduring Assistance and Cooperation 
Act.
    Without objection the amendment in the nature of a 
substitute before the members will be considered as base text 
for purposes of amendment, will be considered as read and will 
be open for amendment at any point.
    [The information referred to follows:]<greek-l>H.R. 
1886 deg.
      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    <greek-l>Amendment in NOS to H.R. 1886--Berman deg.  
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. I recognize myself for up to 5 minutes to 
explain the amendment in the nature of a substitute.
    The United States has an enormous stake in the security and 
stability of Pakistan. All of us are deeply concerned about the 
security and stability of that country.
    We cannot allow al-Qaeda or any other terrorist group that 
threatens our national security to operate with impunity in the 
tribal regions of Pakistan. Nor can we permit the Pakistani 
state and its nuclear arsenal to be taken over by the Taliban.
    To help prevent this nightmare scenario we need to forge a 
true strategic partnership with Pakistan, strengthen Pakistan's 
democratic government, and do what we can to make Pakistan a 
force with stability in a volatile region.
    H.R. 1886 is designed to help achieve these goals. This 
legislation would massively expand economic, social and 
democracy assistance to Pakistan and provide a significant 
increase in military assistance.
    Specifically, the bill provides funding to strengthen the 
capacity of Pakistan's democratic institutions, including its 
Parliament, judicial system and law enforcement agency. It also 
calls for increased assistance for Pakistan's public education 
system, with an emphasis on access for women and girls.
    To demonstrate America's long-term commitment to the 
stability and democratic future of Pakistan, H.R. 1886 
authorizes a permanent fund in the U.S. Treasury that will 
serve as the conduit for most non-military assistance to 
Pakistan.
    With regard to military assistance, our legislation 
increases funding for professional military education with an 
emphasis on training in counterinsurgency and in civil/military 
relations. It boosts the funding available for Pakistan to 
purchase military equipment and requires that 75 percent of 
those funds be used for items directly related to 
counterinsurgency and counterterrorism.
    The legislation also codifies the 2006 contract between the 
United States and Pakistan that requires Pakistan to pay for F-
16 fighter aircraft with its own national funds rather than 
American tax dollars.
    To strengthen civilian control of the military, H.R. 1886 
mandates that all military assistance flow through Pakistan's 
elected civilian government.
    The legislation authorizes a new Pakistan Counterinsurgency 
Capabilities Fund--we like to call it PCCF--in the State 
Department. This provision lays down an important marker that 
providing security assistance to other countries is a matter of 
foreign policy and should remain a core responsibility of the 
Secretary of State.
    Finally, the legislation includes some important 
accountability provisions to ensure that security assistance to 
Pakistan is being spent in a manner consistent with U.S. 
national security interests. It requires an annual Presidential 
determination that Pakistan is cooperating with the United 
States on nonproliferation, is meeting its commitment to combat 
terrorist groups, and has made progress toward that end.
    Contrary to what some have said, these are not rigid or 
inflexible conditions. To ensure that the President has 
sufficient flexibility, we provide a waiver if he is unable to 
make the determinations. I believe this is an excellent bill 
that will strengthen the critical United States-Pakistan 
relationship and support U.S. national security objectives in 
South Asia and I urge all my colleagues to support the 
legislation.
    I now turn to the ranking Republican member for her to 
express her views on this legislation.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman. As always, thank 
you so much.
    At the outset, Mr. Chairman, I would like to emphasize that 
Congress and the administration are united in our goals toward 
Pakistan. We want a long term partnership with a modern, a 
prosperous, a democratic Pakistan that is at peace with itself 
and is at peace with her neighbors. We want a Pakistan that 
maintains robust controls over its nuclear weapons technology, 
and we want a Pakistan that does not provide safe havens for 
al-Qaeda, Taliban and other militant extremists.
    Mr. Chairman, while I appreciate the hard work that has 
gone into your bill and the incorporation of some elements 
suggested by our side, serious concerns remain.
    The manager's amendment does include certain helpful 
changes such as the inclusion of more flexible waiver 
standards, but on the whole, however, I fear that the size and 
the tenor of the bill still leaves the impression that Members 
of Congress are arm-chair generals and are endeavoring to 
micromanage U.S. policy toward Pakistan at a delicate time when 
this new administration has yet to develop and submit an 
implementation plan for its strategy.
    As Secretary of Defense Gates and Chairman of the Joint 
Chiefs of Staff Mullen wrote to the members of the Armed 
Services Committee last month, the degree of conditionality and 
limitations on security assistance to Pakistan severely 
constrains the flexibility necessary for the Executive Branch 
and the Department of Defense given the fluid and dynamic 
environment that exists in Pakistan.
    This concern is particularly acute in terms of the current 
Pakistani military offensive against the Taliban and other 
extremists in Swat and adjacent areas of the northwest frontier 
province. Instead, I will be offering a Republican substitute 
which I introduced yesterday in a bill form with the ranking 
members of the Committees on Appropriations, Armed Services, 
Homeland Security and Intelligence, and joined by Minority 
Leader Boehner, Minority Whip Cantor, and Conference Chairman 
Pence.
    I asked my colleagues on the national security committees 
for insight and input to ensure maximum coordination and to 
some degree to emulate the administration's interagency 
strategic review approach. A parallel bill has also been 
introduced with respect to Afghanistan as it is my belief that 
Pakistan cannot and must not be considered in a vacuum. These 
countries are part of a wider theater of operations, and must 
be dealt with as one package as the administration has 
suggested following the conclusion of its strategic review.
    The Republican substitute recognizes that of all the 
foreign policy challenges facing us, stabilizing and reforming 
Pakistan may be one of the most daunting.
    Given the enormous complexities of the situation in 
Pakistan as well as the rapidly changing conditions on the 
ground, we believe that it is critical at this stage that all 
relevant agencies retain the necessary flexibility to craft 
policies that offer the best chance of successfully partnering 
with the Pakistani Government and people to defeat violent 
extremism.
    At the same time our substitute requires an ongoing policy 
dialogue between the administration and the Congress regarding 
evolving U.S. policy toward Pakistan, as well as a robust 
congressional oversight mechanism of our strategy, our 
implementation plan, allocation and expenditure of U.S. 
assistance.
    Accordingly, the Republican substitute requires that no 
later than 30 days after the enactment of the Supplemental 
Appropriations Act for 2009 the President submit to Congress a 
comprehensive interagency strategy and implementation plan for 
U.S. efforts to eliminate safe havens and assist toward the 
long term security and stability in Pakistan.
    In doing so it requires that the strategy and 
implementation plan include a description of how U.S. 
assistance will be used to achieve U.S. foreign policy 
objectives. It will also describe progress on achieving these 
objectives as well as a financial plan and a description of the 
resources, programming and management of U.S. assistance to 
Pakistan and the criteria used to determine their need and 
value in advancing our U.S. objectives.
    The Republican substitute fully funds the administration's 
pending request for non-military assistance, $1.5 billion; and 
provides such sums as may be deemed necessary through 2013.
    I hope that you give serious consideration to our 
substitute amendment, Mr. Chairman.
    Chairman Berman. The time of the gentlelady has expired.
    Before we get to the Republican substitute, are there 
members who wish to have general comments on the bill?
    The gentlelady from Texas.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    Chairman Berman. A move to strike the last word, and is 
recognized for 5 minutes.
    Ms. Jackson Lee. I move to strike the last word, and I 
thank you so very much, Mr. Chairman.
    I rise to support the legislation, and with great remorse 
and disappointment to oppose the pending, to be offered 
Republican substitute.
    There has been a lot of hard work going into this 
initiative and I would offer to say that the first framework 
should be our committed friendship with Pakistan, a country 
founded 60 years ago on the democratic process. We are in this 
legislation protecting the national security of America, but we 
are emphasizing without a doubt the friendship that we have 
with Pakistan and the reality of the importance of Pakistan's 
surviving against the insurgents and Taliban and the existing 
and alleged presence of al-Qaeda and Osama bin Laden in the 
FATA and frontier area of Pakistan.
    We know that they have escaped from places known previously 
in Afghanistan. We know that the disruption in Pakistan today 
is not of the hard-working Pakistani citizens who seek 
education and social justice, civil justice, who adhere to 
three branches of government, a Parliament, a justice system, a 
judiciary, and a civilian executive. We also know that they 
have had a democratic election. We know they have experienced 
an enormous tragedy with the assassination of Benazir Bhutto. 
But yet they had a peaceful election of which I was present. 
What a miraculous episode or set of incidents, to tragically 
lose your candidate and then have an uninterrupted election. 
They did that.
    In the weeks past their leadership came to Washington and 
proved themselves well. President Zardari indicated that he is 
interested and committed to securing their nuclear material. He 
is interested and committed in ensuring that the insurgents and 
Taliban do not disrupt, diminish, undermine his particular 
government. And it is evident by the bloodshed shown on behalf 
of the Pakistani military and the frontier area and now in 
Swat, that they are committed to the fight for justice.
    So Mr. Chairman, I am very grateful that there is language 
in this legislation that in the list of, if you will, 
conditionalities or the list of benchmarks in Section 206, 
there is language I secured that indicates that we will 
acknowledge the progress that Pakistan makes in moving forward 
in assuring that they are in essence fighting against the 
insurgents and Taliban, that in fat their military and 
intelligence authorities are focusing on the security of their 
nation and the elimination of those who might be interested in 
undermining those systems of government. Meaning that 
insurgents and others would join the military. This is not a 
condemnation of the military. It is not a condemnation of the 
intelligence system in Pakistan. But it is a recognition that 
all of us have to be vigilant and diligent.
    So we will acknowledge their success story.
    Then there is language in here that emphasizes one of the 
weaknesses of the education system and that is to keep young 
girls in school. And we specifically indicate that that is an 
important aspect of that.
    I hope that my colleagues will support this. In 
conversations that are not classified we know that there is 
attention being paid to the idea of securing their particular 
nuclear resources. We know the manager's amendment, or the 
amendment in the nature of a substitute will also speak to the 
protecting and not expanding or using U.S. dollars for any 
expansion of their nuclear resources.
    Lastly I would say, Mr. Chairman, that this initiative is 
still making its way to the Congress. I would hope that the 
Pakistani people would see the good intentions here and the 
well-meaning partnership and not perceive the emphasis on 
protecting nuclear resources or the mention of military and 
intelligence as in any way of condemning the friendship or 
recognizing, or not recognizing the friendship or not 
recognizing the blood that was shed by the Pakistani military 
on behalf of freedom and on behalf of justice.
    Lastly in these 21 seconds, there are now 1 million people 
who are being displaced by Swat. I hope that we can assure that 
the money that Secretary Clinton has put in place, we, Mr. 
Chairman, can work with the State Department. That money must 
get there now. And it must get to the NGOs now. And it must get 
to the people, and I would say almost not to the government, it 
has got to get to the people.
    I yield back and I support this amendment and oppose the 
substitute. I yield back, Mr. Chairman.
    Chairman Berman. Thank you.
    The time of the gentlelady has expired.
    The gentleman from New Jersey.
    Mr. Smith of New Jersey. Mr. Chairman, thank you for 
yielding. I yield to the distinguished ranking member.
    Chairman Berman. The gentlelady is recognized.
    Ms. Ros-Lehtinen. Thank you so much, as always, Mr. 
Chairman and Mr. Smith.
    I would like to further highlight some of the items that 
are included in the Republican substitute, Mr. Chairman.
    One of the items to highlight is that the substitute seeks 
to ensure that congressional oversight, and congressional 
notifications, keep pace with the ever-changing conditions on 
the ground. This is very important as we have seen. Just look 
at today's and tomorrow's headlines how swiftly the situation 
keeps moving in Pakistan. It requires quarterly briefings on 
the developments in Pakistan. Written notification to Congress 
on adjustments in strategy, related changes, and allocations, 
changes in expenditures.
    The Republican substitute also fully funds the 
administration's request for the critically important new 
Pakistan Counterinsurgency Capability Fund, PCCF. We will be 
hearing that phrase a lot in the months to come.
    General David Petraeus, the head of U.S. CENTCOM, Central 
Command, describes this fund as a vital tool to provide our 
senior military representatives in Pakistan with swift access 
to funding to counter and perhaps prevent emerging threats and 
to rapidly enhance Pakistani counterinsurgency capabilities.
    In short, Mr. Chairman, the Republican substitute is 
tailored to meet the pressing requirements for United States 
national security at this critical hour for Pakistan while at 
the same time laying the groundwork for long term security, 
long term stability in that country, but as well as for 
Afghanistan and the wider region, and preserving appropriate 
congressional oversight mechanisms throughout.
    Thank you to the gentleman from New Jersey for the time, 
and I thank the chairman for the time as well.
    Chairman Berman. The time of the gentleman from New Jersey 
has expired.
    The gentlelady from California, Ms. Lee, is recognized to 
strike the last word. The young lady is recognized for 5 
minutes.
    Ms. Lee. Thank you, Mr. Chairman.
    First let me say I am greatly encouraged by the goals of 
this legislation which aims to put the United States' smart 
power to work by reshaping our relationship with Pakistan based 
upon a long-term commitment to social, economic and political 
development.
    The legislation integrates key benchmarks and limitations 
absent in previous aid packages which resulted in $10 billion 
in U.S. aid since 2001 yielding little or no results or 
progress on many fronts. This legislation also seeks to reshape 
the United States/Pakistan relationship by shifting the United 
States aid away form historical trends of almost exclusively 
military assistance and instead toward economic, social and 
democratic priorities.
    As a long time supporter of nuclear nonproliferation 
efforts, I am also pleased that the chairman was able to work 
with myself and other members of the committee to address our 
concerns regarding the potential expansion of Pakistan's 
nuclear program which was reported in the press earlier this 
week.
    The critical reporting requirement added to this bill will 
provide an important oversight mechanism to help ensure that no 
United States aid, whether directly or indirectly, would aid a 
destabilizing expansion of Pakistan's nuclear arsenal.
    It is time we hold the Pakistani Government accountable for 
its management of United States aid dollars and more 
importantly to the people of Pakistan who desperately crave a 
stable, democratic and prosperous country.
    Nuclear weapons unfortunately are pointed in many 
directions in many parts of the world and I do not want to see 
our country supporting any efforts that would allow the money 
to be fungible, that would allow for, by default, our U.S. tax 
dollars going to support the proliferation of nuclear weapons 
in Pakistan.
    Thank you, Mr. Chairman. I yield the balance of my time.
    Chairman Berman. I thank the gentlelady very much. The 
gentleman from Florida seeks recognition.
    Mr. Mack. Thank you, Mr. Chairman.
    Real quickly----
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Mack. Thank you, and it will not be that long, I 
promise.
    As we talk about Pakistan, there is a friend of mine who 
has done some extraordinary work in Pakistan. His name is Greg 
Mortinson. He has written a book called ``Three Cups of Tea.'' 
I think many members, it would serve us all well to take the 
time to read the book and to, Mr. Chairman, if there is a time 
you would have time to meet with him and talk about his 
experience and what he has learned in Pakistan, I think the 
Congress could learn a lot from him and what he has done. So I 
just wanted to put that on the record, Mr. Chairman. Thank you.
    Chairman Berman. If the gentleman would yield.
    Mr. Mack. Yes.
    Chairman Berman. Actually, I have not read the book but 
then that goes with a lot of books I have not read. But I have 
heard about this book. I hear it is a very important and 
powerful book and I would be happy to. I know a little bit 
about what it calls for and the experience and would be happy 
to follow up with you on that.
    The time of the gentleman has expired.
    The gentleman from Georgia, Mr. Scott, is recognized.
    Mr. Scott. Thank you very much, Mr. Chairman. I too want to 
commend you and your leadership.
    I do want to focus my remarks on the urgent concern of the 
nuclear arsenal within Pakistan. Certainly I want to concur and 
certainly agree with my colleague Ms. Barbara Lee and 
appreciate the inclusion of one aspect of our concern in the 
manager's amendment which was that none of our funds be 
directly or indirectly used to expand their nuclear capacity.
    But Mr. Chairman, I would like to raise this concern, that 
it appears, and maybe you can answer for me, but it appears 
that the other concern, not whether they will use any of this 
money to expand their nuclear arsenal, but the fact that we 
need some evidence, some information concerning Pakistan's 
ability to protect and secure Pakistan's existing nuclear 
arsenal from falling into control of internal or external 
extremist groups or non-state authorized actors.
    Perhaps on page 55 of your amendment, and I ask this 
question of you, and then perhaps if you deem it necessary that 
we might add additional language to take care of that part or 
if this language would do so, is it your intent on page 55, 
section D, line 8, where we state, ``A detailed description of 
Pakistan's efforts to prevent proliferation of nuclear-related 
material and expertise.'' If that is meant to arrive at the 
same point of making sure that the word ``proliferation'' 
applies to their existing arsenal and having protections that 
it not get into the hands of internal or external extremist 
groups----
    Ms. Ros-Lehtinen. If the gentleman would yield.
    Mr. Scott. My concern is that the word ``proliferation'' 
tended to mean them on their own expanding it out as opposed to 
the protection and securing their existing nuclear arsenal from 
falling into other hands.
    I am particularly concerned----
    Chairman Berman. Would the gentleman yield on this issue?
    Mr. Scott. Yes, I will yield, Mr. Chairman.
    Chairman Berman. Section D is more what you interpret it to 
be than what you like it to be. It is a focus on any current 
proliferation issues.
    The issue you raise is critically important, and I have 
spent a significant amount of time and a number of members of 
the committee have spent time on this issue. This is an issue 
that I say in all sincerity should not be discussed in the 
bill. It is a critical issue, but it is a little analogous to a 
discussion we had a little while ago. Do we help what we know 
is vitally important by discussing that in the bill? I would 
love to talk to you further about it, but I would like to make 
the case that the fact that that specifically is not referenced 
in the bill in no way signifies that we in Congress or the 
administration are not extremely sensitive to the issue.
    But I believe putting it in the bill is counterproductive 
to what we both want. Trust me.
    Mr. Scott. Quite naturally, I will trust you, Mr. Chairman.
    Let me just make a final point on it, and I trust you, we 
have had conversations----
    Chairman Berman. That was sort of a facetious comment, 
but----
    Mr. Scott. Absolutely. You have my trust on it, and I 
wanted to raise the issue rather than put an amendment on 
there.
    I am just very, very concerned not only about the external 
forces but as we know, Mr. Chairman, there is internal 
fragility going on in Pakistan as well. And I will leave it as 
you want it to be, and we will take the word ``proliferation'' 
to mean, and your commitment of trust, and I will accept that.
    Chairman Berman. I appreciate that very much and we will 
talk about this some more.
    The time of the gentleman has expired. The gentlelady from 
Nevada seeks recognition. For what purpose?
    Ms. Berkley. I move to strike the last words.
    Chairman Berman. The gentlelady is recognized for 5 
minutes.
    Ms. Berkley. Thank you.
    I am going to support the majority bill, but I have serious 
reservations for both versions of the bill.
    I recognize the importance of partnership with Pakistan and 
the United States in our efforts to fight against al-Qaeda and 
the Taliban, but I fear that the situation on the ground is 
spiraling out of control and I, as Ms. Lee said, have a serious 
concern about the fact that over the last few years we have 
given $10 billion to the Pakistanis and have very little to 
show for it other than the situation on the ground seems to be 
far worse, the government seems to be losing control of the 
situation, and we have little if any accountability for the 
billions of dollars that we have already spent.
    I believe corruption is widespread and rampant in Pakistan. 
The new President, I have a serious lack of confidence in his 
ability to right this ship of state. I believe has done little 
if anything other than to contribute to the continuance of 
corruption in that country while the people of Pakistan are 
suffering.
    As far as the nuclear arsenal is concerned, and I 
understand that this is probably not the place to talk about 
it, it seems to me that Pakistan is more focused on its 
perceived conflict with Pakistan than it is with partnering 
with us to root out the Taliban and al-Qaeda, and that worries 
me as well. I do not think we know enough about their nuclear 
arsenal location, capability and security of it.
    Those are the concerns I have. I wanted to express them as 
I vote for the legislation. But I do think that our new 
President and new Congress are entitled to a Pakistani position 
of their own and that is the reason that I am supporting the 
legislation.
    Chairman Berman. Have you already yielded or could you 
yield back to me just for one----
    Ms. Berkley. I would like to yield the balance of my time 
to you.
    Chairman Berman. And I will not use the balance of your 
time.
    But you raise very important issues. What has happened over 
the past 8 years and the inability to account for so much of 
the money that has been appropriated, taxpayer money? There 
were a number of guiding principles in crafting the bill and 
the amendment in the nature of the substitute, and the 
amendment in the nature of the substitute does not change, but 
central to it was ensuring that never happen again. I will not 
take the time to explain all the different ways we try to make 
it, but within the provisions regarding monitoring and 
evaluation and the whole nature of--and here I think it is a 
bipartisan, bicameral and bi-branch--administration and the 
Congress--desire in creating the Pakistani Counterinsurgency 
Capabilities Fund, the PCCF, is to change the way we have been 
doing things, reimbursing for items that have not been 
receipted, providing significant amounts of funds for things 
that may not be related to the counterinsurgency. The whole 
thrust of this is to change that.
    We think the issue is critical, but we think your comments 
are valid. It is valid to be skeptical if the past is prologue, 
and this is about changing the past.
    Ms. Berkley. Reclaiming my time. That is why, as with Mr. 
Scott, I have great faith and confidence in our chairman and 
that is why I will be supporting you in this bill.
    Chairman Berman. Thank you.
    The gentlelady from Arizona is recognized.
    Ms. Giffords. Thank you, Mr. Chairman. I move to strike the 
last words.
    Chairman Berman. The gentlelady is recognized for 5 
minutes.
    Ms. Giffords. Mr. Chairman, I appreciate the work that you 
have done on this legislation and for the ranking member as 
well.
    I support the underlying intent of this bill, but I just 
wanted to bring up one specific point. I think I am the only 
member in the majority that serves both on this committee and 
also on the Armed Services Committee. There may be a couple of 
folks on the other side. But there is some concern specifically 
about the differences on Title 2 between the Foreign Affairs 
Committee and HASC.
    So Mr. Chairman, I look forward to hopefully seeing these 
differences worked out before the bill moves to the floor, but 
I just wanted to raise those concerns and let you know that I 
am looking forward to seeing that language.
    Chairman Berman. If the gentlelady will yield, we are going 
to, I think, be spending a lot of time trying to work out those 
differences between here and the floor.
    Ms. Giffords. Thank you, Mr. Chairman.
    Chairman Berman. Thank you.
    The time of the gentlelady has expired.
    I think I would like to recognize the gentlelady from 
Florida for purposes of offering a substitute amendment.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, and I 
ask that the substitute be considered and be passed out to the 
members at this time.
    Chairman Berman. Without objection, the amendment will be 
considered as read and the amendment is before us, and the 
gentlelady is recognized.
    [The amendment of Ms. Ros-Lehtinen 
follows:]<greek-l>Amendment in the NOS to H.R. 1886 by ?? deg.
      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Ros-Lehtinen. Thank you so much. I know the hour is 
late and you have already heard my explanation of what this 
substitute does, but I believe that it has the best approach 
because it gives the flexibility that all the relevant agencies 
need to react to the shifting situation on the ground. It gives 
the flexibility to the White House, to the Congress, to the 
Department of Defense, to the Department of State. And as I 
said, this is a bill that has been drafted with the ranking 
members of the appropriate committees as our previous speaker 
had pointed out. She was worried about how this bill would 
conflict or not conflict with her other committee, the 
Committee on Armed Services.
    We have drafted our substitute in coordination with the 
ranking members and the other members of the pertinent 
committees, so we think this is a balanced approach and we 
think that this is the one that could go a long way toward 
stabilizing and reforming Pakistan without micromanaging from 
above.
    I ask for its consideration.
    Chairman Berman. I will recognize myself to speak to the 
Republican substitute, and I will make some points of why I do 
prefer my substitute to her substitute. But also to indicate 
that I would like between now and the floor--I do think it 
would be very useful to develop a bipartisan approach here and 
I am quite open to further discussions on this.
    The ranking member has endorsed the Obama administration's 
request for a funding level of $1.5 billion a year for economic 
assistance. I am very happy to see that, and our bill does as 
well.
    The fact that there is agreement on this point among the 
White House and members of the committee from both sides of the 
aisle underscores the fact that providing such assistance is 
the right and necessary thing to do.
    The proposed amendment is long on aspirations and short on 
details. It does not take the time that our bill, our 
substitute, our amendment in the nature of a substitute and our 
original bill too, to describe how U.S. assistance should be 
expended. It says nothing about the expenditure of military 
assistance. It contains no accountability provisions to ensure 
that the U.S. assistance is used appropriately.
    I believe that the United States relationship with Pakistan 
is too critical and too complex for Congress to be silent on 
such matters.
    H.R. 1886 essentially includes all of the provisions of the 
gentlelady's substitute, but more. It requires the President to 
provide a comprehensive regional security strategy. Not 
Congress, the President. And includes extensive reporting 
requirements regarding progress toward disrupting terrorist 
networks. It authorizes the Pakistani Counterinsurgency 
Capabilities Fund. And H.R. 1886 includes other critical 
provisions including the establishment of a Pakistan Democracy 
and Prosperity Fund to provide additional flexibility for 
economic assistance and robust monitoring and evaluation 
mechanisms, the issues raised by the gentlelady from Nevada 
just a moment ago, to help ensure that this time there is the 
appropriate expenditure of such assistance.
    One final word about the PCCF. The provision of security 
assistance has been and should remain a tool of the Secretary 
of State to advance<greek-l>d deg. foreign policy objectives. 
In the case of Pakistan, the growing insurgency underscores the 
need for assistance<greek-l>, deg. but it does not necessitate 
establishing an entirely new authority in the Department of 
Defense.
    H.R. 1886 established PCCF within the State Department to 
ensure that the Secretary of State remains the primary voice in 
the bilateral relationship with that country. But I do want to 
add that the whole way we created this fund, the many 
differences from traditional security assistance, with all the 
requirements and provisions of that and some of the 
bureaucratic hurdles that one has to overcome, are dealt with 
and eliminated in this bill based on conversations that we have 
had with the Chairman of the Joint Chiefs of Staff Mike Mullen, 
in line with the kinds of things that General Petraeus wants to 
do. In other words, we do not want traditional road blocks that 
mean when you provide security assistance it could be 6 months, 
1 year or 2 years down the road before anything is procured and 
before that assistance is afforded.
    We know this is an urgency and we take care to make sure 
that all the obstacles that would prevent that immediate 
assistance from happening are dealt with in our bill.
    So I share the gentlelady's concerns and the gentlelady 
from Arizona's concerns, but fundamentally this is about a 
decision to provide security assistance. This has traditionally 
been and is rightfully so for many reasons appropriately a 
Department of State function and that is why we create PCCF in 
the Department of State.
    I urge my colleagues to support H.R. 1886 and oppose the 
substitute amendment.
    Can we go to a vote on this issue?
    Before us is the substitute amendment proposed by the 
gentlelady from Florida, the ranking member. All those in favor 
say aye.
    [A chorus of ayes.]
    Chairman Berman. All opposed no?
    [A chorus of noes.]
    Chairman Berman. The noes have it. The noes prevail and the 
amendment is defeated.
    Are there any further amendments?
    Mr. McCaul. Mr. Chairman?
    Chairman Berman. The gentleman from Texas.
    Mr. McCaul. Thank you. I have an amendment at the desk.
    Chairman Berman. The gentleman's amendment to be 
distributed and the clerk will read.
    [The amendment of Mr. McCaul follows:]<greek-l>Amendment to 
H.R. 1886 by Mr. McCaul deg.
      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Rush. Amendment to H.R. 1886 offered by Mr. McCaul of 
Texas. ``At the appropriate place in the bill, insert the 
following new section: `Section blank. Restriction on United 
States military assistance to Pakistan. (a)' ''----
    Chairman Berman. Without objection, the reading of the 
amendment shall be dispensed with, and the gentleman from Texas 
is recognized for 5 minutes on his amendment.
    Mr. McCaul. I thank the chairman.
    Since 9/11 we have spent nearly $10 billion in aid to 
Pakistan to assist the Government of Pakistan. It has been a 
series of carrots. I commend the chairman for putting sticks in 
his bill, particularly with respect to security in the FATA, in 
the tribal area, and also with respect to expansion of their 
nuclear program.
    We have heard from members on the other side about the 
proliferation issue. You cannot look at the proliferation issue 
without raising the name of Dr. A.Q. Khan. He is perhaps the 
master nuclear proliferator of all time, proliferating nuclear 
weapons to countries like Iran, to North Korea, to Libya. He 
was indicted by the Dutch Government. He confessed to 
participating in a clandestine international network that 
provided nuclear technology to other nations.
    After being released from house arrest there has been no 
conclusive evidence that the network that Khan helped build has 
been completely dismantled.
    This is the real issue in Pakistan.
    The United States has provided all the funding and yet the 
Government of Pakistan has refused to allow the United States 
direct access to Mr. Khan for questioning to find out how 
extensive is this proliferation. It seems to me if we are going 
to correctly assess what the proliferation damage is, that the 
United States Government needs to have that direct access to 
Mr. Khan.
    This is a bipartisan idea. I am the ranking member on the 
Homeland Security Intelligence subcommittee. Jane Harman is the 
chair of that subcommittee. The provisions in this amendment 
are almost identical to a bill that she has filed that I have 
co-sponsored. It basically just says very simply that if we are 
going to provide this kind of funding we should at least be 
entitled to ask Dr. Khan directly questions about the damage 
and the expanse of his proliferation. It also asks that the 
government monitor his movements.
    I hope this will be viewed, it is a very serious issue, and 
this committee will look at this amendment in a very bipartisan 
way. I urge that this committed adopt and pass this amendment.
    With that, I yield back.
    Chairman Berman. The time of the gentleman is expired, and 
I will recognize myself to address the amendment.
    I regret that I have to ask, but strongly ask the members 
to oppose this amendment. I am very sympathetic to his 
interest, the gentleman's interest, in the United States 
gaining access to one of the world's worst nuclear 
proliferators, but this amendment is a mistake.
    The gentleman's amendment is either exactly the same or 
very similar to an amendment that I believe he co-sponsored 
with Congresswoman Harman of California.
    We have put into our bill in serious part occasioned by the 
Harman legislation<greek-l>, deg. a provision which prohibits--
I want to make sure I am reading it right--Section 206, a 
limitation on U.S. military assistance to Pakistan and I am 
going to just take a moment to read it: ``None of the funds 
authorized to be appropriated for military assistance to 
Pakistan for Fiscal Year 2011,'' which is the first year it 
could apply, and it is the same as the gentleman's, ``or each 
fiscal year thereafter, may be obligated or expended if the 
President has not made the determinations described in 
subjection (b) . . .
    ``(b)(1) a determination by the President at the beginning 
of each fiscal year that the Government of Pakistan is 
continuing to cooperate with the United States in efforts to 
dismantle supplier networks relating to the acquisition of 
nuclear weapons-related materials, including, as necessary, 
providing access to Pakistani nationals associated with such 
networks.''
    Before additional security assistance goes, the President 
has to make that determination.
    I have spoken with Congresswoman Harman about this issue, I 
would guess, 14 times. We fly on the same planes back and forth 
from California every week. She thinks that our language is the 
right way to move ahead. There is great pressure on us to take 
out the language we have in the bill, but making specific 
reference to A.Q. Khan in the legislation is a mistake because 
of the consequences in terms of building the relationship of 
partnership and trust that we want to build with Pakistan to 
take on this mission.
    Everyone knows what we are talking about in our condition. 
Pointing the finger even at someone as notorious and 
appropriate to have a finger pointed at as A.Q. Khan creates a 
reaction that undermines what we want to do, it does not 
further it.
    I am with the spirit of what the gentleman wants to do. I 
would have done what he did if I thought it would be more 
likely for us to gain access to that individual. I do not for a 
moment think naming him makes it more likely. It may not be 
very likely anyway, we will find out.
    But what I do know is if we name him specifically in this 
bill it will be much less likely. So I would urge my colleagues 
here to, as difficult as it is, I think it is very important to 
oppose this amendment and I yield back the balance of----
    Does the gentleman want to be yielded my remaining time, or 
does the gentleman seek his own time?
    Mr. Connolly. I would be glad to accept your time, Mr. 
Chairman. Just briefly.
    I am an original co-sponsor of the Harman bill along with 
Congressman Royce, and I feel very strongly that we have to 
address the issue of the world's single most notorious 
proliferator since the advent of nuclear technology.
    However, as the chairman says, there are ways of achieving 
objectives and there are other ways to achieve the objective we 
share.
    I think that the language in this bill is carefully 
crafted. I have worked with the chairman on this language from 
the basis of the bill that mirrors the language of the 
gentleman, and we have also agreed we are going to look at 
report language and look at other opportunities for making sure 
we achieve this objective.
    I would urge my colleague to give that some consideration. 
There are other ways of achieving the objective. I have been 
persuaded those ways are efficacious.
    I thank the chairman.
    Chairman Berman. My time has expired.
    Does anyone else seek recognition on this subject? The 
gentleman from California, Mr. Rohrabacher.
    Mr. Rohrabacher. Mr. Chairman, over my many years in 
Washington, both in the White House and in Congress, I have 
seen time and again suggestions that we should back down from 
various standards that were set in order to ensure that what we 
are trying to accomplish is something that is within the realm 
of possibility and also is accomplished.
    There are always people who want to talk us out of saying 
exactly what we are trying to do and drawing a line in the 
sane, claiming that it will be done some other way. Over and 
over again, that is not what happens.
    We are told we are going to do it a different way, and 
guess what? It does not happen the other way. For whatever 
reason, the other side never really takes us seriously when we 
try to come at it in a much softer approach.
    We have provided Pakistan with $12 billion in aid since 9/
11. How much more do we have to do to prove our friendship? Is 
it too much to ask people who supported the Taliban, people who 
were instrumental in keeping the Taliban in power, when I spent 
my 1990s trying to get an alliance against the Taliban, and I 
remember when I went in and I went up to Peshawar and had to 
sleep with guns underneath our pillows, for Pete's sakes.
    How long is it going to be before we know that Pakistan, we 
are their friends and the people who are not accepting things 
like what is being demanded of this legislation or this 
amendment, if they cannot accept that, they are not our friends 
and we should not give them any money.
    A.Q. Khan is vital, the information about him is vital to 
our national security. We are talking about nuclear weapons 
here. What about the next 9/11 which A.Q. Khan may have given a 
nuclear weapon to a terrorist who is planning to light it off 
in one of our cities? How do we know that is not happening?
    If they do not think of us as their friends enough to 
publicly make this person available to us, they should not get 
one red cent of our money. This is a security issue of such 
magnitude, we need to speak in very bold and distinct language 
and we need to draw the line and people need to know where we 
stand. We are not going to get anywhere by trying to treat 
people with kid gloves and not make them make a choice between 
the United States and the radical Islamists who would slaughter 
thousands and thousands of people in various countries in order 
to terrorist Western civilization.
    This bill is very realistic. I support it 100 percent. I 
think it stems from a dialogue that we had with President 
Zardari when he visited recently, and I asked him specifically 
whether or not the United States would be permitted to question 
A.Q. Khan, and he dodged that issue.
    I also asked whether or not American forces would be 
permitted to attack the Taliban staging areas just inside 
Pakistan from staging areas where they were staging attacks on 
American troops in Afghanistan, and he failed to answer that 
one correctly as well.
    Now they are either going to be our friends or they are 
not. This is a good way to determine that. If they are not 
willing to be friends enough to tell us that they are going to 
let us know about A.Q. Khan and his nuclear threat to the 
security of the people of the United States, then they do not 
deserve our help.
    That is as simple as that. I think it is very clear, the 
very last thing we need to do is be nebulous and try to be warm 
and fuzzy. Warm and fuzzy gets us nowhere. We are going to have 
to be tough and make sure we watch out for the security 
interests of the people of the United States.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Missouri, Mr. Carnahan is recognized.
    Would the gentleman yield?
    Mr. Carnahan. I yield.
    Chairman Berman. In some discussions I am told that the 
gentleman from Texas is open to inclusion of the word 
``direct'' as a modifier of ``access,'' and if we agree to that 
change, he would withdraw his amendment.
    Is that a correct understanding? I yield to the gentleman 
Mr. Carnahan's time, but----
    Mr. McCaul. Yes, if the gentleman will yield.
    The issue here is not just access, but direct access. 
Access by the United States Government to Dr. Khan. Whether or 
not he is specified in this bill, if the language said direct 
access, because my understanding as the ranking member on the 
Homeland Security Intelligence Community, we have not been 
given that. It has been more indirect.
    I will leave it at that.
    Direct access to all Pakistan nationals.
    Chairman Berman. To all Pakistan nationals associated with 
such networks.
    Mr. McCaul. Correct.
    Chairman Berman. We do not have enough people to have 
direct access.
    Mr. McCaul. But I am saying they will provide direct access 
to all Pakistani, within the provisions----
    Chairman Berman. Of this bill, which is a Presidential 
determination as necessary.
    Mr. McCaul. Now remember, my amendment has a waiver 
provision in it.
    Chairman Berman. If the wor<greek-l>l deg.d to be added--if 
we can dispense with all the yieldings and just get right down 
to it, if the word is just ``direct,'' I am prepared to by 
unanimous consent <greek-l>we  deg.amend our amendment in the 
nature of a substitute to include it.
    Mr. McCaul. I think that would be reasonable.
    This objection was not called to my attention until about 5 
minutes ago.
    Chairman Berman. I apologize. We had a few other things----
    Mr. McCaul. I understand.
    The issue for me is the direct access. That would encompass 
getting direct access to Dr. A.Q. Khan which I hope would be a 
part of the committee's record. It is on the record here. If 
that is the understanding of the chairman.
    Mr. Rohrabacher. Point of information, Mr. Chairman.
    Chairman Berman. If the gentleman will withdraw his 
amendment then I will yield Mr. Carnahan's time to Mr. 
Rohrabacher and then offer a unanimous----
    Mr. Rohrabacher. This is a point of information about the 
issue that you are discussing, Mr. Chairman, in terms of this 
determination.
    I believe that the point of information does, the 
parliamentary----
    Chairman Berman. I never understood what that point of 
parliamentary information was, but I hereby recognize the 
gentleman for purposes of making it.
    Mr. Rohrabacher. The compromise you are offering is to take 
A.Q. Khan's name out of the legislation?
    Chairman Berman. No. A.Q. Khan's name is not in the 
legislation. I think that is part of why the gentleman offered 
his amendment.
    Mr. Rohrabacher. I am talking about the gentleman's 
amendment.
    Chairman Berman. No. This would be, the gentleman would 
withdraw his amendment and I would seek unanimous consent to 
insert the wor<greek-l>l deg.d ``direct'' in front of 
``access'' in the amendment in the nature of a substitute.
    Chairman Berman. But the result would be that what would 
pass this committee would be wording that would not include 
A.Q. Khan's name, is that correct?
    Mr. Rohrabacher. Yes.
    Chairman Berman. Thank you.
    Mr. McCaul. If the gentleman will yield.
    I am prepared to withdraw the amendment if the language 
``direct access'' is put into the language.
    Chairman Berman. And I am prepared to put in ``direct 
access'' if the gentleman is willing to withdraw his amendment. 
I think we have a deal.
    Mr. McCaul. But with the understanding from the chairman 
that the direct access to Pakistan nationals would encompass 
Dr. A.Q. Khan.
    Chairman Berman. One thing I know<greek-l>, deg. is that 
that individual is a Pakistani national who is and certainly 
has been associated with such a network. I cannot, to be honest 
with you at this moment--I read some names--I cannot name a 
single other person who I, from my recollection, is so clearly 
associated.
    Mr. McCaul. And I must say----
    Chairman Berman. I do not think we are----
    Mr. McCaul. I am not sure why we are so shy to acknowledge 
this.
    Chairman Berman. Because if you believe the purpose of this 
bill is not--I mean my friend from California sort of 
characterized it to do something for the Pakistanis.
    This is about an issue that we are doing something for 
America. We are talking about al-Qaeda; we are talking about 
the Taliban; we are talking about Afghanistan; we are talking 
about international terrorism. We are talking about a 
fundamental challenge to the control of a government that has 
nuclear weapons.
    I cannot think of much more that is in our interest than 
doing something on this. And I am told by people who share that 
feeling<greek-l>, deg. that the reference to a specific 
individual is counterproductive to that effort. Do I know for 
sure whether it is or it is not? No, but I have gotten a little 
taste of it just from the discussions over the past 3 or 4 
months, and I think they are right. That is the reason I do not 
want to mention A.Q. Khan. If we can vote on the amendment, or 
we can make this deal.
    Mr. McCaul. If the chairman will yield. If I can be clear, 
I am willing to withdraw it if direct is put in there and with 
the understanding in the congressional record here on the 
record, that that would encompass direct access to Dr. A.Q. 
Khan.
    Chairman Berman. First of all, it is in the context of, 
nothing we do will guarantee direct access to anybody in 
Pakistan under the control of the Pakistan Government because 
we do not get to have that kind of control over other 
countries.
    So nothing is going to guarantee anything.
    We are trying to establish a principle here. One of the 
important issues is dismantling this nuclear nonproliferation 
network. We want our security assistance, we want a 
determination of the President in terms of future security 
assistance to know that that has been done. We want to empower 
the President to make that determination. If he determines 
access to a particular individual is necessary to ensure the 
dismantlement of that network or that it has been dismantled, 
we want to empower him to do that. That is what our goal is 
here.
    Mr. McCaul. If the chairman will yield again, I do not want 
to prolong this healthy discussion, but if you would agree that 
A.Q. Khan falls within the umbrella of this section----
    Chairman Berman. We have always intended to have a report. 
Don't tell Congressman Flake I said this. That would describe 
in more detail what we mean by this.
    Mr. McCaul. There would be reporting language on it this 
year--specifically talking about Dr. Khan.
    With that said, I am prepared to withdraw if the language 
``direct'' is put into the bill and the reporting language 
reflects that that would include access to Dr. Khan.
    Chairman Berman. And no one will conclude that our report 
constitutes a mushy earmark. [Laughter].
    Without objection, the amendment by the gentleman from 
Texas is withdrawn. I ask unanimous consent to add the term 
``direct'' in front of ``access'' in the amendment, in Section 
206 of the amendment in the nature of a substitute.
    Without objection, so ordered.
    The question is on the amendment in the nature of a 
substitute.
    All in favor will vote aye.
    [A chorus of ayes].
    Chairman Berman. All opposed will vote no.
    [A chorus of noes.]
    Chairman Berman. The ayes have it and the amendment is 
agreed to.
    The chairman is prepared to----
    Mr. Faleomavaega. Mr. Chairman, first I just want to ask 
unanimous consent that my statement be put in the appropriate 
place regarding my strong support of H.R. 2410.
    Chairman Berman. Yes, without objection that will be----
    Mr. Faleomavaega. And Mr. Chairman I move a favorable 
recommendation of H.R. 1886 as amended to the House.
    Chairman Berman. The question occurs on the motion by the 
gentleman, H.R. 1886 as amended favorably to the House.
    All in favor say aye.
    [A chorus of ayes.]
    Chairman Berman. All opposed say no.
    [No audible response].
    Chairman Berman. The ayes have it and the motion is 
adopted. Without objection the bill will be reported as a 
single amendment in the nature of a substitute, incorporating 
the amendments adopted by the committee.
    Staff is directed to make any technical and conforming 
amendments.
    The gentleman from New York.
    Mr. Ackerman. Mr. Chairman, in accordance with the rules of 
the House I ask for 2 days to file additional views on the 
legislation just considered.
    Chairman Berman. Without objection, so ordered.
    Ms. Ros-Lehtinen. Mr. Chairman, I did mean to say ``no'' on 
the voice, and I was----
    Chairman Berman. Let the record show the gentlelady from 
Florida thought no, even though she forgot to say it.
    Ms. Ros-Lehtinen. Thank you.
    Chairman Berman. Again, thank you all very much. The 
committee is adjourned.
    [Whereupon, at 5:21 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Summary deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Berman statement on H.R. 2410 deg._

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Berman statement on H.R. 1886 deg._

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Watson State Department report deg.
                               __________

 Material Submitted for the Record by the Honorable Diane E. Watson, a 
        Representative in Congress from the State of California

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Faleomavaega--Embassy of Vietname 
                               letter deg.
                               __________

      Material Submitted for the Record by the Honorable Eni F.H. 
  Faleomavaega, a Representative in Congress from American Samoa, and 
 Chairman, Subcommittee on Asia, the Pacific and the Global Environment

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Faleomavaega--Vietnam--Religious 
                               Freedom/Country of Particular Concern deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Faleomavaega--Vietnam Religious 
                               Issues deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Faleomavaega statement #1 deg.___

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Faleomavaega statement #2 deg.___

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>McMahon statement #1 deg.___

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>McMahon statement #2 deg.___

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>McMahon statement #3 deg.___

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>McMahon statement #4 deg.___

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Jackson Lee #1 deg.___

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Jackson Lee #2 deg.___

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Jackson Lee #3 deg.___

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
